No. _______

IN THE SUPREME COURT OF THE UNITED STATES

ARTHUR DIAMOND et al.,
Petitioners,
v.
PENNSYLVANIA STATE EDUCATION ASSOCIATION et al.,
Respondents,
and
JANINE WENZIG et al.,
Petitioners,
v.
SERVICE EMPLOYEES INTERNATIONAL UNION LOCAL 668,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Third Circuit

PETITION FOR WRIT OF CERTIORARI

Brian K. Kelsey
Counsel of Record
Reilly Stephens
Liberty Justice Center
208 South LaSalle Street, Suite 1690
Chicago, Illinois 60604
Telephone: 312-637-2280
Facsimile: 312-263-7702
bkelsey@libertyjusticecenter.org

William Messenger
National Right to Work Legal
Defense Foundation
8001 Braddock Rd., Suite 600
Springfield, VA 22160
Telephone (703) 321-8510
Facsimile (703) 321-9319
wlm@nrtw.org
Attorneys for the Wenzig Petitioners

Jonathan F. Mitchell
Mitchell Law PLLC
111 Congress Avenue, Suite 400
Austin, Texas 78701
(512) 686-3940 (phone)
(512) 686-3941 (fax)
jonathan@mitchell.law

Attorney for the Diamond Petitioners

QUESTIONS PRESENTED
1. Is there a good-faith defense to 42 U.S.C. § 1983 that shields a defendant from
damages liability for depriving citizens of their constitutional rights if the defendant
acted under color of a law before it was held unconstitutional?
2. Are employees who had compulsory union fees seized from them in violation of
their First Amendment rights prior to Janus v. AFSCME, Council 31, 138 S. Ct. 2448
(2018), entitled to damages or restitution for their injuries?

i

PARTIES TO THE PROCEEDING
Petitioners Arthur Diamond, Jeffrey Schawarts, Sandra H. Ziegler, Matthew
Shively, Matthew Simkins, Douglas R. Kase, Justin Barry, Janine Wenzig, and Catherine Kioussis are natural persons and citizens of the Commonwealth of Pennsylvania.
Respondents Josh Shapiro, James M. Darby, Albert Mezzaroba, Robert H. Shoop,
Jr., and Lesley Childer-Potts are natural persons and citizens of the Commonwealth
of Pennsylvania.
Respondents Pennsylvania State Education Association, Chestnut Ridge Education Association, National Education Association, and Service Employees International Union Local 668 (collectively “Respondent Unions”) are unions that represent
public employees in the Commonwealth of Pennsylvania.
RULE 29 STATEMENT
As Petitioners are all natural persons, no corporate disclosure is required under
Rule 29.6.
STATEMENT OF RELATED CASES
The list of proceedings in other courts that are directly related to this case is:
•

Diamond v. Pa. State Educ. Ass'n, No. 19-2812, United States Court of Appeals for the Third Circuit. Judgement entered on August 28, 2020.

•

Wenzig v. SEIU Local 668, No. 19-3906, United States Court of Appeals for
the Third Circuit. Judgement entered on August 28, 2020.

•

Diamond v. Pa. State Educ. Ass'n, No. 3:18-cv-128, United States District

ii

Court for the Western District of Pennsylvania. Judgement entered on July
8, 2019.
•

Wenzig v. SEIU Local 668, No. 1:19-cv-1367, United States District Court
for the Middle District of Pennsylvania. Judgement entered on December
10, 2019.

iii

TABLE OF CONTENTS
QUESTIONS PRESENTED .......................................................................................... ii
PARTIES TO THE PROCEEDING .............................................................................. ii
RULE 29 STATEMENT ................................................................................................ ii
STATEMENT OF RELATED CASES .......................................................................... ii
INTRODUCTION .......................................................................................................... 1
OPINIONS BELOW ...................................................................................................... 2
JURISDICTION............................................................................................................. 2
CONSTITUTIONAL AND STATORY PROVISIONS INVOLVED ............................. 2
STATEMENT OF THE CASE ....................................................................................... 3
REASONS FOR GRANTING THE PETITION ............................................................ 7
I. The Court should finally determine whether there exists a good-faith defense
to section 1983. .................................................................................................... 8
A. The Court should resolve the conflict between the Third Circuit and
several other Circuit Courts. ......................................................................... 8
B. A good-faith defense to Section 1983 conflicts with the statute’s text and
lacks any cognizable legal basis. ................................................................. 10
1. A good-faith defense conflicts with Section 1983’s text. ....................... 11
2. The Wyatt Court did not suggest that a defendant’s reliance on a
statute should be an affirmative defense to Section 1983. ................... 13
3. Policy interests in fairness and equality do not support a goodfaith
defense but weigh against recognizing the defense. ............................. 17
4. An analogy to abuse of process does not justify creating a good-faith
defense to Section 1983. ......................................................................... 21
5. A good-faith defense conflicts with this Court’s retroactivity doctrine. 22
C. It is important that the Court finally resolve whether Congress provided a
good-faith defense to section 1983. ............................................................. 23
II. Victims of union agency fee seizures are entitled to damages or restitution for
their injuries under section 1983. .................................................................... 25
CONCLUSION............................................................................................................. 28

iv

APPENDIX:
OPINION OF THE UNITED STATES COURT OF APPEALS FOR THE THIRD
CIRCUIT ............................................................................................................... App. A
OPINION OF THE UNITED STATES DISTRICT COURT FOR THE MIDDLE
DISTRICT OF PENNSYLVANIA ........................................................................ App. B
OPINION OF THE UNITED STATES DISTRICT COURT FOR THE WESTERN
DISTRICT OF PENNSYLVANIA ........................................................................ App. C
ORDER DENYING PETITION FOR REHEARING EN BANC ......................... App. D

v

TABLE OF AUTHORITIES
Cases
Abood v. Detroit Board of Education, 431 U.S. 209 (1977) .......................................... 3
Akers v. Md. State Educ. Ass'n, No. 19-1524, 2021 U.S. App. LEXIS 6851 (4th Cir.
Mar. 8, 2021) ........................................................................................................ 6, 17
Anderson v. Myers, 182 F. 223 (C.C.D. Md. 1910) ...................................................... 12
Crawford-El v. Britton, 523 U.S. 574 (1998) .............................................................. 18
Danielson v. Inslee, 945 F.3d 1096 (9th Cir. 2019) ............................................. passim
DeCecco v. United States, 485 F.2d 372 (1st Cir. 1973) ............................................. 27
Diamond v. Pa. State Educ. Ass'n, 972 F.3d 262 (3d Cir. 2020) .................................. 2
Diamond v. Pa. State Educ. Ass'n, 399 F. Supp. 3d 361 (W.D. Pa. 2019) ................... 2
Doughty v. State Emples. Ass'n of N.H., 981 F.3d 128 (1st Cir. 2020) ............ 6, 10, 17
Guidry v. Sheet Metal Workers Nat. Pension Fund, 493 U.S. 365 (1990) ................. 17
Guinn v. United States, 238 U.S. 347 (1915) .............................................................. 12
Harlow v. Fitzgerald, 457 U.S. 800 (1982).................................................................. 26
Harper v. Virginia Department of Taxation, 509 U.S. 86 (1993) ......................... 22, 26
Harris v. Quinn, 573 U.S. 616 (2014) ......................................................................... 25
Imbler v. Pachtman, 424 U.S. 409 (1976) ................................................................... 11
Janus v. AFSCME, Council 31, 138 S. Ct. 2448 (2018) ..................................... passim
Janus v. AFSCME, Council 31, 942 F.3d 365 (7th Cir. Nov. 5, 2019) ............... passim
Jordan v. Fox, Rothschild, O’Brien & Frankel, 20 F.3d 1250 (3d Cir. 1994) .... passim
Knox v. SEIU, Local 1000, 567 U.S. 298 (2012) ......................................................... 25
Lee v. Ohio Educ. Ass’n, 951 F.3d 386 (6th Cir. 2020) ............................... 6, 21, 20, 27
Lugar v. Edmondson Oil Co., 457 U.S. 922 (1982) ................................................... 1, 7
Manuel v. City of Joliet, 137 S. Ct. 911 (2017) ..................................................... 21, 22
Monell v. Dep’t of Soc. Servs. of N.Y., 436 U.S. 658 (1977) .......................................... 6
Monroe v. Pape, 365 U.S. 167 (1961)............................................................................. 6
Mooney v. Illinois Education Ass’n, 942 F.3d 368 (7th Cir. 2019) ............................. 27
Myers v. Anderson, 238 U.S. 368 (1915) ................................................................. 6, 11
Neely v. United States, 546 F.2d 1059 (3d Cir. 1976) ................................................. 26
Ogle v. Ohio Civil Serv. Emples. Ass'n, 951 F.3d 794 (6th Cir. 2020) ....................... 10
Owen v. Independence, 445 U.S. 622 (1980) ................................................... 18, 19, 20
Pasha v. United States, 484 F.2d 630 (7th Cir. 1973) ................................................ 26
Pinsky v. Duncan, 79 F.3d 306 (2d Cir. 1996) ...................................................... 16, 28
Rehberg v. Paulk, 566 U.S. at 356 (2012) ....................................................... 11, 12, 21
Reynoldsville Casket Co. v. Hyde, 514 U.S. 749 (1995) .......................................... 7, 23
Richardson v. McKnight, 521 U.S. 399 (1997).................................................... 1, 7, 13
Ross v. Blake, 136 S. Ct. 1850 (2016) .................................................................... 11, 14
Thomas v. Collins, 323 U.S. 516 (1945) ...................................................................... 22
Tower v. Glover, 467 U.S. 914 (1984) .......................................................................... 18
Tucker v. Interscope Records Inc., 515 F.3d 1019 (9th Cir. 2008) .............................. 22
United States v. Lewis, 478 F.2d 835 (5th Cir. 1973) ................................................. 26

vi

United States v. Rayburn House Office Building Room 2113 Washington DC 20515,
497 F.3d 654 (D.C. Cir. 2007) .................................................................................. 27
United States v. Summa, 362 F. Supp. 1177 (D. Conn. 1972) ................................... 26
United States v. Venneri, 782 F. Supp. 1091 (D. Md. 1991) ....................................... 26
United States v. Windsor, 570 U.S. 744 (2013) ........................................................... 26
Vector Research, Inc. v. Howard & Howard Attorneys, P.C., 76 F.3d 692 (6th Cir.
1996) ......................................................................................................................... 28
Wenzig v. SEIU Local 668, 426 F. Supp. 3d 88 (M.D. Pa. 2019).................................. 2
Wholean v. CSEA SEIU Local 2001, 955 F.3d 332 (2d Cir. 2020) ..................... passim
Wilson v. Garcia, 471 U.S. 261, 272-76 (1985) ........................................................... 24
Wyatt v. Cole, 504 U.S. 158, 169 (1992) .............................................................. passim
Wyatt v. Cole, 994 F.2d 1113 (5th Cir. 1993) ...................................................... passim
Statutes
28 U.S.C. § 1254 ............................................................................................................. 2
42 U.S.C. § 1983 ................................................................................................... passim
Other Authorities
Amicus Br. of Goldwater Inst. et al., Janus v. AFSCME, Council 31, No. 19-1104
(Apr. 9, 2020) ............................................................................................................ 24
William Baude, Is Qualified Immunity Unlawful?, 106 Cal. L. Rev. 45, 55 (2018) .. 13

vii

INTRODUCTION
Three times this Court has raised, but then not decided, the important question
of whether there exists a good-faith defense to 42 U.S.C. § 1983 (“Section 1983”) that
exempts defendants from paying damages if they acted under color of a state law
before it was held unconstitutional. See Richardson v. McKnight, 521 U.S. 399, 413
(1997); Wyatt v. Cole, 504 U.S. 158, 169 (1992); Lugar v. Edmondson Oil Co., 457 U.S.
922, 942 n.23 (1982). The Third Circuit below issued a fractured decision in which
Judge Rendell found such a good-faith defense to exist, Judge Fisher rejected a goodfaith defense but found an alternative limit to Section 1983 liability, and Judge
Phipps, dissenting, rejected both defenses. See App. A at 23, 45, 56. Taking Judges
Fisher’s and Phipps’s opinions together, a majority of the Third Circuit rejected the
good-faith defense now recognized by several other circuit courts. See App. A at 45,
56.
The Court should clear up this confusion and finally resolve whether there is a
good-faith defense to Section 1983. It is important that the Court do so now because,
absent this Court’s review, thousands of employees who had compulsory union fees
seized from them in violation of their First Amendment rights will be denied compensation for their injuries. Therefore, the Court should take this case and reject the
good-faith defense for the reasons found by Judge Phipps: “[g]ood faith was not firmly
rooted as an affirmative defense in the common law in 1871, and treating it as one is
inconsistent with the history and the purpose of § 1983.” App. A at 56 (Phipps, J.,
dissenting).

1

OPINIONS BELOW
The opinion of the United States Court of Appeals for the Third Circuit is reported
at Diamond v. Pa. State Educ. Ass'n, 972 F.3d 262 (3d Cir. 2020), and reproduced at
App. A. The Third Circuit Order denying rehearing en banc is reproduced at App. D.
The Third Circuit in Diamond affirmed two separate district court decisions,
which the appellate court consolidated for disposition purposes: (1) the opinion of the
United States District Court for the Western District of Pennsylvania in Diamond v.
Pa. State Educ. Ass'n, reported at 399 F. Supp. 3d 361 (W.D. Pa. 2019), and reproduced at App. C, and (2) the opinion of the United States District Court for the Middle
District of Pennsylvania in Wenzig v. SEIU Local 668, reported at 426 F. Supp. 3d 88
(M.D. Pa. 2019), and reproduced at App. B.
JURISDICTION
The Third Circuit entered judgment on August 28, 2020. App. A. It denied a
petition for rehearing en banc on October 30, 2020. App. D.
On March 19, 2020, in light of the COVID-19 pandemic, this Court extended
the deadline to file petitions for certiorari to 150 days from the date of the denial of
rehearing en banc. This Court has jurisdiction pursuant to 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATORY PROVISIONS INVOLVED
The First Amendment provides that “Congress shall make no law . . . abridging
the freedom of speech.”
Section 1983, 42 U.S.C. § 1983, states:
Every person who, under color of any statute, ordinance, regulation, custom,
or usage, of any State or Territory or the District of Columbia, subjects, or
2

causes to be subjected, any citizen of the United States or other person within
the jurisdiction thereof to the deprivation of any rights, privileges, or immunities secured by the Constitution and laws, shall be liable to the party injured
in an action at law, suit in equity, or other proper proceeding for redress, except
that in any action brought against a judicial officer for an act or omission taken
in such officer’s judicial capacity, injunctive relief shall not be granted unless
a declaratory decree was violated or declaratory relief was unavailable.
STATEMENT OF THE CASE
In June 2018, the Court in Janus v. AFSCME, Council 31, 138 S. Ct. 2448 (2018),
overruled Abood v. Detroit Board of Education, 431 U.S. 209 (1977), and held that
unions violate employees’ First Amendment rights by seizing dues or fees from them
without their consent. 138 S. Ct. at 2486. The Court explained that “unions have been
on notice for years regarding this Court’s misgiving about Abood” and that, since at
least 2012, “any public-sector union seeking an agency-fee provision in a collectivebargaining agreement must have understood that the constitutionality of such a provision was un-certain.” Id. at 2484-85. The Court also lamented the “considerable
windfall” that unions wrongfully received from employees during prior decades, finding, “It is hard to estimate how many billions of dollars have been taken from nonmembers and transferred to public-sector unions in violation of the First Amendment.” Id. at 2486.
Petitioners are nonmember employees who had agency fees seized from them in
violation of their First Amendment rights prior to Janus. Specifically, the Diamond
Petitioners are Pennsylvania educators who were compelled to pay agency fees to
Respondent Pennsylvania State Education Association and its affiliates. App. A at
11. The Wenzig Petitioners are Pennsylvania employees who were compelled to pay

3

agency fees to Respondent Service Employees International Union, Local 668. App.
A at 12.
In separate lawsuits, the Diamond and Wenzig Petitioners (collectively the “Employee Petitioners”) sought damages or restitution from the Respondent Unions for
the compulsory fees the union unconstitutionality seized from them and putative classes of similarly situated employees. App. A at 6. The Employee Petitioners sought
this relief under Section 1983, which provides that “[e]very person who, under color
of any statute” deprives citizens of their constitutional rights “shall be liable to the
party injured in an action at law, suit in equity, or other proper proceeding for redress
[.]” 42 U.S.C. § 1983 (emphasis added).
Notwithstanding Section 1983’s text, the district courts in both Diamond and
Wenzig held the Respondent Unions not liable to the injured parties in actions at law
or at equity because the defendants relied in good faith on Pennsylvania’s agency-fee
statute and court precedents when violating the Employee Petitioners’ First Amendment rights. App. B at 24, C at 66. The Employee Petitioners filed separate appeals
to the Third Circuit, which were later consolidated for disposition purposes.
On August 28, 2020, the Third Circuit released a decision consisting of three separate and inconsistent opinions. Judge Rendell, writing for herself, recognized the
affirmative good-faith defense that several other circuit courts had recently adopted.
App. A at 14. This defense exempts from liability a defendant that relies on a statute
and judicial decisions that are later overruled if “the court finds no ‘malice’ and no

4

‘evidence that [the defendant] either knew or should have known of the statute’s constitutional infirmity.’ ” Id. at 14 (quoting Jordan v. Fox, Rothschild, O’Brien, &
Frankel, 20 F.3d 1250, 1276 (3d Cir. 1994). According to Judge Rendell, this affirmative defense is predicated on policy interests in equality and fairness or, alternatively,
on an analogy to the common law tort of abuse of process. Id. at 19.
Judge Fisher, concurring in the judgment, rejected the categorical good-faith defense that Judge Rendell and some other circuits had recognized. Id. at 25. Judge
Fisher found that policy interests in fairness or equality could not justify creating
this defense. Id. at 45. He also found that “the torts of abuse of process and malicious
prosecution provide at best attenuated analogies” to First Amendment claims for
compelled speech. Id. at 36. While he rejected a good-faith defense, Judge Fisher
found an alternative limit to Section 1983 liability. According to Judge Fisher, prior
to 1871, “[c]ourts consistently held that judicial decisions invalidating a statute or
overruling a prior decision did not generate retroactive civil liability with regard to
financial transactions or agreements conducted, without duress or fraud, in reliance
on the invalidated statute or overruled decision.” Id. at 25. Judge Fisher concluded
that Section 1983 incorporates this ostensible liability exception. Id. at 44.
Judge Phipps, dissenting, agreed with Judge Fisher that there is no good-faith
defense to Section 1983. Id. at 47. According to Judge Phipps, “[g]ood faith was not
firmly rooted as an affirmative defense in the common law in 1871, and treating it as
one is inconsistent with the history and the purpose of § 1983.” Id. at 56. Judge Phipps
continued, “Nor does our precedent or even principles of equality and fairness favor

5

recognition of good faith as an affirmative defense to a compelled speech claim for
wage garnishments.” Id.
However, contrary to Judge Fisher, Judge Phipps found it “immaterial that no
pre-1871 cause of action permitted recovery for voluntary payments that were subsequently declared unconstitutional” because “the Civil Rights Act of 1871 established
a new cause of action in part to provide ‘a remedy where state law was inadequate.’”
Id. at 51 (quoting Monroe v. Pape, 365 U.S. 167, 173 (1961), overruled on other
grounds by Monell v. Dep’t of Soc. Servs. of N.Y., 436 U.S. 658 (1977)). Moreover, “the
agency fee payments at issue here were not voluntary—they were wage garnishments
that were paid to unions.” Id. Thus, Judge Phipps did “not see the common law as
limiting the scope of a § 1983 claim for compelled speech—either through a good faith
affirmative defense or through a separate limitation on the statutory cause of action.”
Id.
Taking the three opinions together, a majority of the court rejected the good-faith
defense recognized by the First, Second, Fourth, Sixth, Seventh, and Ninth Circuits.
See Doughty v. State Emples. Ass'n of N.H., 981 F.3d 128 (1st Cir. 2020); Wholean v.
CSEA SEIU Local 2001, 955 F.3d 332 (2d Cir. 2020); Akers v. Md. State Educ. Ass'n,
No. 19-1524, 2021 U.S. App. LEXIS 6851 (4th Cir. Mar. 8, 2021); Lee v. Ohio Educ.
Ass’n, 951 F.3d 386, 392 n.2 (6th Cir. 2020); Janus v. AFSCME, Council 31, 942 F.3d
365 (7th Cir. Nov. 5, 2019) (“Janus II”); Danielson v. Inslee, 945 F.3d 1096, 1101 (9th
Cir. 2019). However, a different majority of the Diamond opinions affirmed, on different grounds, the lower court’s judgment for the Respondent Unions.

6

Employee Petitioners timely filed a petition for rehearing en banc, which the Third
Circuit denied on October 30, 2020. App. D at 2.
REASONS FOR GRANTING THE PETITION
The Court should finally resolve the question it raised, but did not decide, in Richardson, 521 U.S. at 413, Wyatt, 504 U.S. at 169, and Lugar, 457 U.S. at 942 n.23: is
there a good-faith defense to Section 1983? The Third Circuit’s fractured decision, in
which two opinions cogently rejected the good-faith defense recognized by several
other circuits, makes clear this Court’s guidance is needed.
The Court should reject the proposition that a defendant acting under color of a
statute before it is held unconstitutional is an affirmative defense to Section 1983.
That defense cannot be reconciled with Section 1983’s text, which makes acting “under color of any statute” an element of the statute that renders defendants “liable to
the party injured in an action at law.” 42 U.S.C. § 1983. Nor can the defense be reconciled with this Court’s retroactivity doctrine. See Reynoldsville Casket Co. v. Hyde,
514 U.S. 749, 753-54 (1995).
An affirmative good-faith defense to all Section 1983 claims for damages or restitution also is not what members of this Court suggested in Wyatt. Several Justices in
that case wrote that good-faith reliance on a statute could defeat the malice and probable cause elements of certain constitutional claims. 504 U.S. at 166 n.2 (majority
opinion); id. at 172 (Kennedy, J., concurring); id. at 176 n.1 (Rehnquist, C.J., dissenting). Those Justices were not suggesting that a defendant’s reliance on a statute yet

7

to be invalidated should be an affirmative defense to all Section 1983 claims, including a First Amendment claim arising from compelled subsidization of speech.
The two different rationales often cited for a good-faith defense—either equitable
principles or an analogy to an abuse-of-process tort—are both untenable. Courts cannot create equitable exemptions to federal statutes like Section 1983. And even if they
could, fairness to victims of constitutional deprivations supports enforcing Section
1983 as written. As for common-law analogies, not every Section 1983 claim for damages or restitution against an otherwise private defendant is closely akin to an abuse
of a process tort. Most importantly here, a First Amendment claim for compelled subsidization of speech is not so akin to an abuse of process as to justify importing that
tort’s malice and probable cause elements into that First Amendment claim.
The Court should reject the proposition that a defendant acting under color of a
state law before it is invalidated is an affirmative defense to Section 1983. It is important that the Court do so. Absent this Court’s review, tens of thousands of victims
of union agency fee seizures will be deprived compensation for their injuries. The
Respondent Unions, and others like them, should have to return to dissenting employees some of the windfall of monies the unions unlawfully seized from them in
violation of their First Amendment rights. The petition should be granted.
I. The Court should finally determine whether there exists a good-faith defense to section 1983.
A. The Court should resolve the conflict between the Third Circuit and
several other Circuit Courts.

8

A majority of the opinions in Diamond rejected the good-faith defense now recognized by the First, Second, Fourth, Sixth, Seventh, and Ninth Circuits. See App. A at
45 (J. Fisher, concurring in the judgment); id. at 56 (J. Phipps, dissenting); see supra
at 6 (citing cases). The Court should resolve this conflict.
The alternative limit to Section 1983 liability found by Judge Fisher is not the
same as a good-faith defense, as this ostensible limit has different elements and a
different basis. Judge Fisher found, based on pre-1871 common law, that defendants
who rely on invalidated statutes or overruled decisions should be exempt from Section
1983 liability “except where duress or fraud was present.” App. A at 44.1 The goodfaith defense, by contrast, exempts defendants that rely on a state statute from damages liability unless there is evidence of “malice” or evidence the defendants “either
knew or should have known of the statute’s constitutional infirmity.’” Id. at 18 (quoting Jordan, 20 F.3d at 1276) (Judge Rendell). This defense supposedly is based on
either policy interests in equality and fairness or a tort analogy. Id. at 19 (Judge
Rendell). Judge Fisher rejected this first rationale for recognizing a defense to Section
1983, see App. A at 26, and found the second rationale to be highly attenuated, id. at
33.
The Third Circuit’s fractured opinion is illustrative of the broader doctrinal confusion that exists on this issue. Even the circuit courts that recognize a good-faith
defense disagree on its ostensible basis. The Second and Ninth Circuits found it is an

Judge Fisher’s proffered limit on Section 1983’s scope is untenable for the reasons
stated by Judge Phipps in his dissent in Diamond, 972 F.3d at 287-88, and because
it conflicts with this Court’s retroactivity doctrine.
1

9

equitable defense rooted in concerns about equality and fairness. See Wholean, 955
F.3d at 334; Danielson, 945 F.3d. at 1101. The First and Sixth Circuits held the defense exists because claims against private defendants that use state law procedures
are analogous to an abuse of process tort, and good-faith reliance on state law is a
defense to that tort. Doughty, 981 F.3d at 135; Ogle v. Ohio Civil Serv. Emples. Ass'n,
951 F.3d 794, 797 (6th Cir. 2020). The Seventh Circuit also found this to be the most
closely analogous tort but believed the “search for the best [tort] analogy is a fool’s
errand” and chose to “leave common-law analogies behind.” Janus II, 942 F.3d at 36566. The Ninth Circuit similarly found, “It would be an odd result for an affirmative
defense grounded in concerns for equality and fairness to hinge upon historical idiosyncrasies and strained legal analogies for causes of action with no clear parallel in
nineteenth century tort law.” Danielson, 945 F.3d at 1101.
The fact that circuit courts disagree on both whether there exists a good-faith
defense to Section 1983 and what the legal basis is for this ostensible defense is reason for the Court to grant review. This is especially true given that a good-faith defense lacks any cognizable legal basis, as Judges Fisher and Phipps recognized.
B. A good-faith defense to Section 1983 conflicts with the statute’s text
and lacks any cognizable legal basis.
Judges Phipps’s and Fisher’s opinions persuasively repudiate the three purported
grounds cited by other courts for creating a good-faith defense to Section 1983: it is
not the defense suggested by members of this Court in Wyatt; the defense cannot be
judicially created from equitable interests; and the defense cannot be justified by a
strained analogy to an abuse-of-process tort. App. A at 24 (Fisher, J., concurring in
10

the judgment); id. at 46 (Phipps, J., dissenting). A good-faith defense also cannot be
reconciled with Section 1983’s text, which courts that have recognized the ostensible
defense have generally ignored as if it were irrelevant. But “[s]tatutory interpretation
. . . begins with the text,” Ross v. Blake, 136 S. Ct. 1850, 1856 (2016). Consequently,
an analysis of the good-faith defense also must begin with Section 1983’s text.
1. A good-faith defense conflicts with Section 1983’s text.
Section 1983 states, in relevant part, that “[e]very person who, under color of any
statute, ordinance, regulation, custom, or usage, of any State” deprives a citizen of a
constitutional right “shall be liable to the party injured in an action at law, suit in
equity, or other proper proceeding for redress.” 42 U.S.C. § 1983 (emphases added).
Section 1983 means what it says: “Under the terms of the statute, ‘[e]very person who
acts under color of state law to deprive another of a constitutional right [is] answerable to that person in a suit for damages.’ ” Rehberg v. Paulk, 566 U.S. at 356, 361
(2012) (quoting Imbler v. Pachtman, 424 U.S. 409, 417 (1976)).
It turns Section 1983 on its head to conclude that persons who act under the color
of state laws that are later held unconstitutional are not liable to the injured parties
in a suit for damages. The proposition effectively makes a statutory element of Section
1983—that defendants must act under color of state law—a defense to Section 1983.2
An affirmative defense predicated on a defendant’s reliance on a state law cannot be
reconciled with Section 1983’s plain language.

Defendants in Section 1983 actions will almost always act under color of state
laws that have not been held invalid at the time because it is difficult for a party to
invoke a state law that a court has already declared to be unconstitutional.
2

11

The Court rejected a comparable defense over one hundred years ago in Myers v.
Anderson, 238 U.S. 368 (1915). There, the Court held that a statute violated the Fifteenth Amendment’s ban on racial discrimination in voting. Id. at 380. The defendants argued that they were not liable for money damages under Section 1983 because
they acted on a good-faith belief that the statute was constitutional. The Court noted
that “[t]he nonliability . . . of the election officers for their official conduct is seriously
pressed in argument.” Id. at 378. The Court rejected the contention for being contrary
to its decision in Guinn v. United States, 238 U.S. 347 (1915), and “the very terms” of
the statute. Id. at 379 (emphasis added).3
It is telling that circuit courts that have recognized a good-faith defense make no
attempt to square it with the fact that a defendant acting under color of state law
establishes liability under Section 1983’s text. In fact, the Seventh Circuit’s only response to the argument was to claim this Court “abandoned” strictly following Section
1983’s language when recognizing immunities. Janus II, 942 F.3d at 362.
To the contrary, this Court has held that “[w]e do not simply make our own judgment about the need for immunity,” and “do not have a license to create immunities
based solely on our view of sound policy.” Rehberg, 566 U.S. at 363. The Court accords
an immunity only when a “tradition of immunity was so firmly rooted in the common

The lower court, whose judgment this Court affirmed, was more explicit in its
reasoning:
[A]ny state law commanding such deprivation or abridgment is nugatory and
not to be obeyed by any one; and any one who does enforce it does so at his
known peril and is made liable to an action for damages in the suit, and no allegation of malice need be alleged or proved.
Anderson v. Myers, 182 F. 223, 230 (C.C.D. Md. 1910).
3

12

law and was supported by such strong policy reasons that ‘Congress would have specifically so provided had it wished to abolish the doctrine’ when it enacted Section
1983.” Richardson, 521 U.S. at 403 (quoting Wyatt, 504 U.S. at 164). Unlike with
immunities, “there is no common-law history before 1871 of private parties enjoying
a good-faith defense to constitutional claims.” Janus II, 942 F.3d at 364; see App. A
at 52 (finding “[a] good faith defense is inconsistent with the history of the Civil
Rights Act of 1871”) (Phipps, J., dissenting); William Baude, Is Qualified Immunity
Unlawful?, 106 Cal. L. Rev. 45, 55 (2018) (finding “[t]here was no well-established,
good faith defense in suits about constitutional violations when Section 1983 was enacted, nor in Section 1983 suits early after its enactment.”). Thus, unlike with immunities, there is no justification for deviating from Section 1983’s mandate that
“[e]very person who, under color of any statute” deprives a citizen of a constitutional
right “shall be liable to the party injured in an action at law.” 42 U.S.C. § 1983.
2. The Wyatt Court did not suggest that a defendant’s reliance on a
statute should be an affirmative defense to Section 1983.
Among the circuit courts that found that a good-faith defense excuses unions from
having to compensate victims of their compulsory fee seizures, they claim this Court
in Wyatt suggested, though did not decide, that private defendants in Section 1983
actions should be entitled to an affirmative good-faith defense. See, e.g., Janus II, 942
F.3d at 366. Those courts misread Wyatt, as Judges Fisher and Phipps concluded.
Judge Fisher recognized that the defense discussed in Wyatt is “whether the defendant acted with malice and without probable cause” and that this defense does not

13

“appl[y] categorically to all cases involving private-party defendants,” but rather depends on the claim at issue. App. A at 33. Judge Phipps similarly recognized that
Chief Justice Rehnquist’s discussion of a good-faith defense in Wyatt “actually referred to elements of the common-law torts of malicious prosecution and abuse of
process,” and he “identified no authority for the proposition that good faith functions
as transsubstantive affirmative defense–applicable across a broad class of claims . .
.” Id. at 50. Judges Fisher and Phipps are correct.
In Wyatt the plaintiff claimed a private defendant deprived him of due process of
law by seizing his property under an ex parte replevin statute. 504 U.S. at 161. The
Court found the plaintiff’s due process claims analogous to “malicious prosecution
and abuse of process,” and recognized that at common law “private defendants could
defeat a malicious prosecution or abuse of process action if they acted without malice
and with probable cause.” Id. at 164–65; see id. at 172–73 (Kennedy, J., concurring)
(similar). The Court in Wyatt held that “[e]ven if there were sufficient common law
support to conclude that respondents . . . should be entitled to a good faith defense,
that would still not entitle them to what they sought and obtained in the courts below:
the qualified immunity from suit accorded government officials . . . .” Id. at 165. The
reason was the “rationales mandating qualified immunity for public officials are not
applicable to private parties.” Id. at 167. Wyatt left open whether Section 1983 defendants could raise “an affirmative defense based on good faith and/or probable
cause.” Id. at 168–69.
The defense “based on good faith and/or probable cause” suggested in Wyatt was

14

not a broad statutory reliance defense to all Section 1983 damages claims, as some
courts have concluded. See, e.g., Janus II, 942 F.3d at 366. Rather, several Justices
suggested a defense to Section 1983 claims in which malice and lack of probable cause
are elements for establishing damages. This is clear from all three opinions in Wyatt.
Chief Justice Rehnquist, in his dissenting opinion joined by Justices Thomas and
Souter, explained it is a “misnomer” to use the term good-faith “defense” because “under the common law, it was plaintiff’s burden to establish as elements of the tort both
that the defendant acted with malice and without probable cause.” 504 U.S. at 176
n.1 (citation omitted). “Referring to the defendant as having a good faith defense is a
useful shorthand for capturing plaintiff’s burden and the related notion that a defendant could avoid liability by establishing either a lack of malice or the presence of
probable cause.” Id.
Justice Kennedy, in his concurring opinion joined by Justice Scalia, agreed that
“it is something of a misnomer to describe the common law as creating a good faith
defense; we are in fact concerned with the essence of the wrong itself, with the essential elements of the tort.” Id. at 172. Justice Kennedy explained that “[t]the commonlaw tort actions most analogous to the action commenced here are malicious prosecution and abuse of process,” and that in both actions “it was essential for the plaintiff
to prove that the wrongdoer acted with malice and without probable cause.” Id. Justice Kennedy found that because “a private individual’s reliance on a statute, prior to
a judicial determination of unconstitutionality, is considered reasonable as a matter
of law . . . lack of probable cause can only be shown through proof of subjective bad

15

faith.” Id. at 174.
Finally, Justice O’Connor’s majority opinion in Wyatt recognized that the goodfaith defense discussed in the dissenting and concurring opinions was in reality a
defense to a plaintiff proving malice and lack of probable cause. Id. at 166 n.2. The
majority opinion found that “[o]ne could reasonably infer from the fact that a plaintiff’s malicious prosecution or abuse of process action failed if she could not affirmatively establish both malice and want of probable cause that plaintiffs bringing an
analogous suit under § 1983 should be required to make a similar showing to sustain
a § 1983 cause of action.” Id.
On remand in Wyatt, the Fifth Circuit recognized that this Court “focused its inquiry on the elements of these torts.” Wyatt v. Cole, 994 F.2d 1113, 1119 (5th Cir.
1993). It, therefore, found “that plaintiffs seeking to recover on these theories were
required to prove that defendants acted with malice and without probable cause.” Id.
The Third and Second Circuits followed suit in cases also arising from abuses of judicial processes and held the defendants could defeat the malice and probable cause
elements of those claims by showing good-faith reliance on a statute. See Jordan, 20
F.3d at 1276 & n.31; Pinsky v. Duncan, 79 F.3d 306, 312–13 (2d Cir. 1996).
The limited, claim-dependent defense members of this Court suggested in Wyatt
offers no protection to unions that compelled employees to subsidize union speech in
violation of the First Amendment. The reason is straightforward: malice and lack of
probable cause are not elements of a First Amendment claim under Janus, which
held that unions violate employees’ First Amendment rights by taking their money

16

without affirmative consent. 138 S. Ct. at 2486.
The First, Second, Fourth, Sixth, Seventh, and Ninth Circuits erred in interpreting Wyatt to signal that it should become an affirmative defense to Section 1983 for a
defendant to rely on a statute before it is held unconstitutional. See Doughty, 981
F.3d at 135; Wholean, 955 F.3d at 334-35; Akers, 2021 U.S. App. LEXIS 6851 at *10;
Janus II, 942 F.3d at 366; Danielson, 945 F.3d at 1101-02. The Court in Wyatt was
suggesting nothing of the sort. The Court should grant review in this case to clarify
that Wyatt did not create the sort of free standing affirmative defense some circuits
have recognized.
3. Policy interests in fairness and equality do not support a good-faith
defense but weigh against recognizing the defense.
(a). The Second and Ninth Circuits, like Judge Rendell in this case, assert that
policy concerns about equality and fairness justify recognizing a good-faith defense to
Section 1983. See Wholean, 955 F.3d at 334; Danielson, 945 F.3d. at 1101. But courts
cannot just “invent defenses to § 1983 liability based on our views of sound policy.”
App. A at 24 (Fisher, J., concurring in the judgment). “As a general matter, courts
should be loath to announce equitable exceptions to legislative requirements or prohibitions that are unqualified by the statutory text.” Guidry v. Sheet Metal Workers
Nat. Pension Fund, 493 U.S. 365, 376 (1990).
Congress mandated in Section 1983 that “every person who, under color of any
statute” deprives others of their constitutional rights “shall be liable to the party injured in an action at law . . . .” 42 U.S.C. § 1983. “Shall” is a mandatory term, not a

17

permissive one. Courts cannot refuse to enforce that Section 1983’s statutory command against defendants who act under color of then-valid statutes because courts
believe that would be unfair to those defendants. “It is for Congress to determine
whether § 1983 litigation has become too burdensome . . . and if so, what remedial
action is appropriate.” Tower v. Glover, 467 U.S. 914, 922-23 (1984). The “fairness”
rationale for a good faith defense is inadequate on its own terms. Cf. Crawford-El v.
Britton, 523 U.S. 574, 590 n.13 (1998) (finding that “[f]airness alone is not . . . a sufficient reason for the immunity defense, and thus does not justify its extension to
private parties.”).
If anything, fairness to victims of constitutional deprivations supports rejecting a
good-faith defense and enforcing Section 1983 as written. It is not fair to deprive victims of constitutional deprivations of relief for their injuries. Nor is it fair to let wrongdoers keep ill-gotten gains. “[E]lemental notions of fairness dictate that one who
causes a loss should bear the loss.” Owen v. Independence, 445 U.S. 622, 654 (1980).
The Court in Owen wrote those words when holding that municipalities are not
entitled to a good-faith immunity to Section 1983. Owen’s equitable justifications for
so holding are equally applicable here.
First, the Owen Court reasoned that “many victims of municipal malfeasance
would be left remediless if the city were also allowed to assert a good faith defense,”
and that “[u]nless countervailing considerations counsel otherwise, the injustice of
such a result should not be tolerated.” Id. at 651. That injustice also should not be
tolerated here. Countless victims of constitutional deprivations will be left remediless

18

if defendants to Section 1983 suits can escape liability by showing they had a goodfaith, but mistaken, belief their conduct was lawful. Those victims include not just
Petitioners and other employees who had agency fees seized from them. Under the
theory some circuits have adopted, every defendant to a Section 1983 damages claim
could assert a good-faith defense. For example, the municipalities that this Court in
Owen held not to be entitled to a good-faith immunity could raise an equivalent goodfaith defense, leading to the very injustice this Court sought to avoid.
Second, the Owen Court further recognized that Section “1983 was intended not
only to provide compensation to the victims of past abuses, but to serve as a deterrent
against future constitutional deprivations, as well.” 445 U.S. at 651. “The knowledge
that a municipality will be liable for all of its injurious conduct, whether committed
in good faith or not, should create an incentive for officials who may harbor doubts
about the lawfulness of their intended actions to err on the side of protecting citizens’
constitutional rights.” Id. at 651–52 (emphasis added). The same rationale weighs
against a good-faith defense to Section 1983.
Third, the Owen Court found that “even where some constitutional development
could not have been foreseen by municipal officials, it is fairer to allocate the resulting
loss” to the entity that caused the harm rather “than to allow its impact to be felt
solely by those whose rights, albeit newly recognized, have been violated.” 445 U.S.
at 654. So too here, when the employees’ and unions’ interests are weighed together,
the balance of equities overwhelmingly favors requiring the unions to return the
money it unconstitutionally seized from workers who affirmatively chose not to join

19

the union. Fairness should reward the victims of the constitutional deprivation and
not the perpetrator.
(b). As for the proposition accepted by some courts that principles of “equality”
justify extending to private defendants a defense similar to the immunity enjoyed by
some public officials,4 that proposition makes little sense. Public officials enjoy qualified immunity for reasons not applicable to unions and most other private entities:
to ensure that the threat of personal liability does not dissuade individuals from acting as public servants. See Wyatt, 504 U.S. at 168. That unions are not entitled to an
immunity is no reason to create a similar defense for them. Courts do not award defenses to parties as consolation prizes for failing to meet the criteria for an immunity.
Even if principles of equality required treating unions like their closest government counterpart, that still would not entitle them to an immunity-like defense.
Large organizations like the Respondent Unions are nothing like individual government workers who enjoy qualified immunity. Unions are most like a type of governmental body that lacks qualified immunity—a municipality. Owen, 445 U.S. at 654.
“It hardly seems unjust to require a municipal defendant which has violated a citizen’s constitutional rights to compensate him for the injury suffered thereby.” Id. Nor
is it unjust to require large organizations like the Respondent Unions to compensate
citizens for violating their constitutional rights.
Neither fairness nor equality justifies recognizing a good-faith defense to Section

See Danielson, 945 F.3d, 1101; Janus II, 942 F.3d at 366; Lee, 951 F.3d at 392 n.2;
Wholean, 955 F.3d at 333.
4

20

1983. Rather, both principles weigh against carving this exemption into Section
1983’s remedial framework.
4. An analogy to abuse of process does not justify creating a goodfaith defense to Section 1983.
Several circuit courts that recognized a good-faith defense justified their decision
by claiming abuse of process is the most closely analogous tort to a Section 1983 claim
against a private defendant. See, e.g. Danielson, 945 F.3d at 1102; Janus II, 942 F.3d
at 366; Lee, 951 F.3d at 392 n.2; Wholean, 955 F.3d at 335. However, “the torts of
abuse of process and malicious prosecution provide at best attenuated analogies.”
App. A at 36 (Judge Fisher, concurring in the judgment). Most importantly here, the
torts certainly are not so analogous to justify importing their malice and probable
cause elements into a First Amendment claim for compelled subsidization of speech.
“Common-law principles are meant to guide rather than to control the definition
of § 1983 claims.” Manuel v. City of Joliet, 137 S. Ct. 911, 921 (2017). “Sometimes . . .
[a] review of common law will lead a court to adopt wholesale the rules that would
apply in a suit involving the most analogous tort. But not always.” Id. at 920-21. Some
Section 1983 claims have no common law equivalent. “[Section] 1983 is not simply a
federalized amalgamation of pre-existing common-law claims.’” Id. at 921 (quoting
Rehberg, 566 U.S. at 366). Section 1983 “reaches constitutional and statutory violations that do not correspond to any previously known tort.” Rehberg, 566 U.S. at 366.
A First Amendment claim for compelled subsidization of speech has no common
law equivalent. “Compelling a person to subsidize the speech of other private speakers” violates the First Amendment because it undermines “our democratic form of
21

government” and leads to individuals being “coerced into betraying their convictions.”
Janus, 138 S. Ct. at 2464. This injury is unlike that caused by common-law torts. It
is peculiar to the First Amendment.
A violation of First Amendment speech rights is nothing like an abuse of process
tort. “[T]he tort of abuse of process requires misuse of a judicial process.” Tucker v.
Interscope Records Inc., 515 F.3d 1019, 1037 (9th Cir. 2008). The tort exists to protect
the integrity of the judicial process and to protect litigants from harassment. See 8
Am. Law of Torts § 28:32 (2019). The tort does not exist, as the First Amendment
does, “to foreclose public authority from assuming a guardianship of the public mind
through regulating the press, speech, and religion.” Thomas v. Collins, 323 U.S. 516,
545 (1945) (Jackson, J., concurring).
Most importantly, abuse of process is certainly not so similar to a compelled subsidization of speech claim to justify making malice and lack of probable cause elements of that constitutional claim. And that is the only potential relevance of common
law analogies—to determine whether to import a tort’s elements into a particular
Section 1983 claim. See Manuel, 137 S. Ct. at 920-21. Given that malice and lack of
probable cause are not elements of a First Amendment claim under Janus, the limited good-faith defense suggested in Wyatt offers no protection to unions that violated
dissenting employees’ First Amendment rights under Janus.
5. A good-faith defense conflicts with this Court’s retroactivity doctrine.
Janus has retroactive effect under the rule this Court announced in Harper v.
Virginia Department of Taxation, 509 U.S. 86, 97 (1993). The good-faith defense
22

Judge Rendell and several courts have fashioned to defeat Janus’ retroactive effect is
indistinguishable from the reliance defense this Court held invalid for violating retroactivity principles in Reynoldsville Casket.
Reynoldsville Casket concerned an Ohio statute that effectively granted plaintiffs
a longer statute of limitations for suing out-of-state defendants. 514 U.S. at 751. This
Court had earlier held the statute unconstitutional. Id. An Ohio state court, however,
permitted a plaintiff to proceed with a lawsuit that was filed under the statute before
this Court invalidated it. Id. at 751-52. The plaintiff asserted this was a permissible,
equitable remedy because she relied on the statute before it was held unconstitutional. Id. at 753 (describing the state court’s remedy “as a state law ‘equitable’ device
[based] on reasons of reliance and fairness”). This Court rejected that contention,
holding the state court could not do an end run around retroactivity by creating an
equitable remedy based on a party’s reliance on a statute later held unconstitutional
by this Court. Id. at 759.
The good-faith defense constitutes just such an end run around this Court’s retroactivity doctrine. The defense is predicated on a defendant’s reliance on a statute
before it was effectively deemed unconstitutional by a decision of this Court. Therefore, a good-faith reliance defense is incompatible with Reynoldsville Casket.
C. It is important that the Court finally resolve whether Congress
provided a good-faith defense to section 1983.
Section 1983 is the nation’s preeminent civil rights statute and is often used by
citizens to protect their constitutional rights. It is no small matter when lower courts
create a new affirmative defense to Section 1983 liability.
23

Several circuit courts have now done just that, based largely on the misconception
that this Court in Wyatt signaled that private defendants should be granted a defense
to Section 1983 liability akin to qualified immunity. Yet Wyatt did not suggest such
a defense, but only suggested that reliance on a statute could defeat the malice and
lack-of-probable cause elements of certain due process claims. See supra 13-16. The
Court should clarify what it meant in Wyatt.
It is important that the Court act quickly because whether tens of thousands of
victims of agency fee seizures can receive compensation hangs in the balance. Over
thirty-seven (37) class action lawsuits are pending that seek refunds from unions for
agency fees they seized from workers in violation of their First Amendment rights.
See Amicus Br. of Goldwater Inst. et al., 4, Janus v. AFSCME, Council 31, No. 191104 (Apr. 9, 2020). The vast majority of these cases are in or from the First, Second,
Sixth, Seventh, and Ninth Circuits, which have accepted a good-faith defense. Id. at
1a-6a (listing cases). Most individual actions seeking a return of agency fees also are
in these circuits. See id. at 7a-9a. The employees in these suits should be permitted
to recover a portion of the “windfall,” Janus, 138 S. Ct. at 2486, of compulsory fees
unions wrongfully seized from them.5 But without this Court’s review, these employees will likely be denied relief.
The importance of the question presented extends beyond victims of agency fee

Recovery in these suits is limited to fees taken within the statute of limitations of
a Section 1983 claim, which varies by state. See Wilson v. Garcia, 471 U.S. 261, 27276 (1985)
5

24

seizures to victims of other constitutional deprivations. The good-faith defense several circuits have now recognized could shield from liability defendants that invoke
state law processes to discriminate against individuals on the basis of race, gender,
or faith.
The purpose of Section 1983 is to provide a remedy to citizens whose constitutional
rights are violated by actions taken under color of state law. See App. A at 52 (Phipps,
J., dissenting). A good-faith defense is inconsistent with that purpose. Id. The Court
should repudiate this ostensible new defense to Section 1983.
II. Victims of union agency fee seizures are entitled to damages or restitution for their injuries under section 1983.
The second question presented is, “Are employees who had compulsory union fees
seized from them in violation of their First Amendment rights prior to Janus entitled
to damages or restitution for their injuries?” The answer to that question is readily
apparent if the Court resolves the first question by holding there is no good-faith
defense to Section 1983 damages claims for compelled subsidization of speech. However, if the Court were to decide the first question differently, that would not necessarily decide the second question for two reasons.
First, this Court recognized in Janus that “unions have been on notice for years
regarding this Court’s misgiving about Abood” and that, since at least 2012, “any
public-sector union seeking an agency-fee provision in a collective-bargaining agreement must have understood that the constitutionality of such a provision was uncertain.” 138 S. Ct. at 2484-85 (referencing this Court’s holdings in Knox v. SEIU,
Local 1000, 567 U.S. 298 (2012) and Harris v. Quinn, 573 U.S. 616 (2014)). Unions
25

also were on notice that any decision of this Court holding agency fee laws unconstitutional would apply retroactively. See Harper, 509 U.S. at 97. Consequently, even if
a good-faith defense existed (which it does not), it would not provide safe harbor to
the Respondent Unions because they “should have known of the statute’s constitutional infirmity.’” App. A at 18. (quoting Jordan, 20 F.3d at 1276 (Judge Rendell).
Second, even if a good-faith defense exists under section 1983, that defense can
shield a defendant only from liability for damages if it acted in reliance on a statute
or court ruling that is only later declared unconstitutional. See Harlow v. Fitzgerald,
457 U.S. 800, 818 (1982) (“[G]overnment officials performing discretionary functions
generally are shielded from liability for civil damages insofar as their conduct does
not violate clearly established statutory or constitutional rights of which a reasonable
person would have known.”). Neither qualified immunity nor good faith will ever allow a defendant to escape restitution of the money or property that it took in good
faith but in violation of another’s constitutional rights. Taxes, criminal fines, victim’s
restitution, and private property that are seized in good faith—and in reliance on
statutes or court rulings that are only later pronounced unconstitutional—must be
restored when the victim demands their return, regardless of whether the defendant
acted in good faith, and regardless of whether the defendant acted before the courts
had clearly established the illegality of its conduct. See, e.g., United States v. Windsor,
570 U.S. 744, 753, 775 (2013) (taxes); United States v. Lewis, 478 F.2d 835, 836 (5th

26

Cir. 1973) (fines);6 United States v. Venneri, 782 F. Supp. 1091, 1092 (D. Md. 1991)
(victim’s restitution); Wyatt v. Cole, 994 F.2d 1113, 1115 (5th Cir. 1993) (property
seized pursuant to an unconstitutional replevin statute); United States v. Rayburn
House Office Building Room 2113 Washington DC 20515, 497 F.3d 654, 656, 665 (D.C.
Cir. 2007) (property seized pursuant to an unconstitutional search warrant). Good
faith can provide an immunity from damages if the victim sues over the collateral
harms (such as emotional distress or economic loss) caused by the unconstitutional
seizure of her property. But it will never allow someone who takes another’s money
or property in violation of the Constitution to keep that property if the plaintiff sues
for its return.
The Third Circuit’s ruling not only allows the unions’ good faith to confer an immunity from damages, but it also allows the unions to escape restitution of the money
that they took from the plaintiffs in violation of their constitutional rights. The Third
Circuit’s ruling on this point—and the similar pronouncements that the Sixth,7 Seventh8 and Ninth9 Circuits have issued in post-Janus refund lawsuits—are incompatible with the court decisions that uniformly require the return of taxes, criminal fines,
victim’s restitution, and private property that a defendant seizes in violation of another’s constitutional rights but in good-faith reliance on statutes or court rulings

6 See

also DeCecco v. United States, 485 F.2d 372, 372–73 (1st Cir. 1973) (fines);
Neely v. United States, 546 F.2d 1059, 1061 (3d Cir. 1976) (fines); Pasha v. United
States, 484 F.2d 630, 632–33 (7th Cir. 1973) (fines); United States v. Summa, 362 F.
Supp. 1177, 1181 (D. Conn. 1972) (fines).
7 See Lee, 951 F.3d at 389–92.
8 See Mooney v. Illinois Education Ass’n, 942 F.3d 368, 370–71 (7th Cir. 2019).
9 See Danielson, 945 F.3d at 1098–1105.
27

that are only later pronounced unconstitutional. More importantly, they are incompatible with the other circuit court rulings that recognize and enforce a “good-faith
defense” for private defendants under 42 U.S.C. § 1983,10 because none of those rulings allowed a defendant to keep the money or property that it seized in violation of
another’s constitutional rights, even as they allowed the defendant to escape liability
for damages on account of its good faith. The Court should grant certiorari to resolve
this division of authority—and to ensure that public-sector unions are subject to the
same rules that govern other defendants who take money and property in violation
of the Constitution but in reliance on statutes or court rulings that purported to authorize their unconstitutional conduct.
CONCLUSION
For the forgoing reasons, the petition should be granted.
Dated: March 29, 2021

Respectfully Submitted,

10 See

Pinsky v. Duncan, 79 F.3d at 311–12; Jordan, 20 F.3d at 1275–78; Wyatt, 994
F.2d at 1118; Vector Research, 76 F.3d at 698–99; Clement, 518 F.3d at 1096–97.
28

Brian K. Kelsey
Counsel of Record
Reilly Stephens
Liberty Justice Center
208 South LaSalle Street, Suite 1690
Chicago, Illinois 60604
Telephone: 312-637-2280
Facsimile: 312-263-7702
bkelsey@libertyjusticecenter.org

William Messenger
National Right to Work Legal
Defense Foundation
8001 Braddock Rd., Suite 600
Springfield, VA 22160
Telephone (703) 321-8510
Facsimile (703) 321-9319
wlm@nrtw.org
Attorneys for the Wenzig Petitioners

Jonathan F. Mitchell
Mitchell Law PLLC
111 Congress Avenue, Suite 400
Austin, Texas 78701
(512) 686-3940 (phone)
(512) 686-3941 (fax)
jonathan@mitchell.law
Attorney for the Diamond Petitioners

29

APPENDIX

APPENDIX A

Case: 19-2812

Document: 74

Page: 1

Date Filed: 08/28/2020

PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
___________
Nos. 19-2812 and 19-3906

ARTHUR DIAMOND, on behalf of himself and others
similarly situated;
JEFFREY SCHAWARTZ; SANDRA H. ZIEGLER, on
behalf of themselves
others similar situated; MATTHEW SHIVELY; MATTHEW
SIMKINS;
DOUGLAS R. KASE; JUSTIN BARRY,
Appellants in case no. 19-2812
v.
PENNSYLVANIA STATE EDUCATION ASSOCIATION;
CHESTNUT RIDGE EDUCATION ASSOCIATION,
as representative of the class of all chapters and
affiliates of the Pennsylvania State Education Association;
NATIONAL EDUCATION ASSOCIATION; JOSH
SHAPIRO,
in his official capacity as Attorney General of Pennsylvania;
JAMES M. DARBY; ALBERT MEZZAROBA; ROBERT H.
SHOOP, JR.,
in their official capacities as chairman and members of the
Pennsylvania
Labor Relations Board; LESLEY CHILDER-POTTS, in her

Case: 19-2812

Document: 74

Page: 2

Date Filed: 08/28/2020

official capacity
as district attorney of Bedford County, and as representative
of the class
of all district attorneys in Pennsylvania with the authority to
prosecute violations
of 71 Pa. Stat. 575

JANINE WENZIG and CATHERINE KIOUSSIS,
Appellants in case no. 19-3906
v.
SERVICE EMPLOYEES INTERNATIONAL UNION
LOCAL 668

On Appeal from the United States District Court
for the Western District of Pennsylvania and the Middle
District of Pennsylvania
(District Court Nos.: 3-18-cv-00128 and 1-19-cv-01367)
District Judges: Honorable Kim Gibson and Honorable
Malachy E. Mannion

Argued April 24, 2020
(Opinion Filed: August 28, 2020)
Before: PHIPPS, RENDELL, and FISHER, Circuit Judges

2

Case: 19-2812

Document: 74

Page: 3

Date Filed: 08/28/2020

Joseph F. Canamucio, Esq.
Pennsylvania State Education Association
400 North Third Street
Harrisburg, PA 17101
Leon Dayan, Esq. [ARGUED]
Bredhoff & Kaiser
805 15th Street, N.W.
Suite 1000
Washington, DC 20005
Jacob Karabell, Esq.
Bredhoff & Kaiser
805 15th Street, N.W.
Suite 1000
Washington, DC 20005
John M. West, Esq.
Bredhoff & Kaiser
805 15th Street, N.W.
Suite 1000
Washington, DC 20005
Counsel for Appellees Pennsylvania State
Education Association, et al.
Daniel B. Mullen, Esq.
Office of Attorney General of Pennsylvania
1251 Waterfront Place
Mezzanine Level
Pittsburgh, PA 15222

3

Case: 19-2812

Document: 74

Page: 4

Date Filed: 08/28/2020

Counsel for Appellees Attorney General Joshua
D. Shapiro, et al.
Jonathan F. Mitchell, Esq. [ARGUED]
Direct: 512-686-3940
Email: jonathan@mitchell.law
Fax: 512-686-3941
[COR NTC Retained]
Suite 400
111 Congress Avenue
Austin, TX 78701
Counsel for Appellants Arthur Diamond, et al.
Meredith Johnson, Esq.
Altshuler Berzon
177 Post Street
Suite 300
San Francisco, CA 94108
Scott A. Kronland, Esq.
Altshuler Berzon
177 Post Street
Suite 300
San Francisco, CA 94108
P. Casey Pitts, Esq. [ARGUED]
Altshuler Berzon
177 Post Street
Suite 300
San Francisco, CA 94108

4

Case: 19-2812

Document: 74

Page: 5

Date Filed: 08/28/2020

Counsel for Appellee Service Employees
International Union Local 668
Charles O. Beckley, II, Esq.
Beckley & Madden
212 North Third Street
Suite 301
Harrisburg, PA 17108
Brian Kelsey, Esq. [ARGUED]
Liberty Justice Center
190 South LaSalle Street
Suite 1500
Chicago, IL 60603
William L. Messenger, Esq.
National Right to Work Legal Defense Foundation
8001 Braddock Road
Suite 600
Springfield, VA 22151
Counsel for Appellants Janine Wenzig and
Catherine Kioussis

O P I N I O N

RENDELL, Circuit Judge:
In reliance on a Pennsylvania statute and the Supreme
Court’s decision in Abood v. Detroit Bd. of Educ., 431 U.S. 209
(1977), Appellee Unions, the Service Employees International

5

Case: 19-2812

Document: 74

Page: 6

Date Filed: 08/28/2020

Union Local 668 and the Pennsylvania State Education
Association, collected “fair-share fees” from Appellants over
Appellants’ objections. But the Supreme Court overruled
Abood in Janus v. AFSCME Council 31, holding that state
legislation condoning public-sector fair-share fees was
unconstitutional. 138 S. Ct. 2448 (2018) (“Janus I”). Now,
Appellants bring these § 1983 lawsuits seeking reimbursement
of the sums they were required to pay. The District Courts,
joining a consensus of federal courts across the country,
dismissed Appellants’ claims for monetary relief, ruling that
because the Unions collected the fair-share fees in good faith
reliance on a governing state statute and Supreme Court
precedent, they are entitled to, and have successfully made out,
a good faith defense to monetary liability under § 1983. We
will affirm.
I
A.

Legal background

Labor laws in the United States have long authorized
employers and labor organizations to bargain for an “agency
shop,” an arrangement in which one union is allowed to
exclusively represent an entity’s employees on the condition
that the union represent all the entity’s employees—even those
who do not join the union. See, e.g., Janus I, 138 S. Ct. at 2460;
45 U.S.C. § 152 (Railway Labor Act); 29 U.S.C. § 159
(National Labor Relations Act). Agency shop arrangements
are intended to promote uniform bargaining, streamlined
administration, and other interests, but they also create an
incentive for employees to decline to join their union (and
therefore avoid paying dues) while still accruing the benefits
of union representation. See, e.g., Janus I, 138 S. Ct. at 246569 (describing the intended purpose of agency shops to create

6

Case: 19-2812

Document: 74

Page: 7

Date Filed: 08/28/2020

“labor peace” and describing the hypothetical potential for
“free rider” problems in agency shop arrangements). To
address this incentive, Congress often allowed unions and
employers who opt for an agency shop arrangement to require
all employees either to join the union and pay dues or, if an
employee does not join the union, to nonetheless contribute to
the costs of representation, bargaining, and administration of
bargaining agreements. This requirement that non-members
pay some form of union dues is often referred to as a “fairshare” fee, and is present in various pieces of federal
legislation, including, for instance, the Railway Labor Act, 45
U.S.C. § 152, and the National Labor Relations Act, 29 U.S.C.
§§ 157, 158(a)(3).
The Supreme Court has upheld the constitutionality of
these agency shop arrangements, including fair-share fees. For
instance, in Railway Employees’ Dep’t v. Hanson, the Supreme
Court ruled that the Railway Labor Act’s provisions allowing
agency shop arrangements and fair-share fees did not violate
the First Amendment. 351 U.S. 225, 236-38 (1956). Although
the employees in that case argued that the agency shop
“agreement forces men into ide[o]logical and political
associations which violate their right to freedom of conscience,
freedom of association, and freedom of thought protected by
the Bill of Rights,” id. at 236, the Court “h[e]ld that the
requirement for financial support of the collective-bargaining
agency by all who receive the benefits of its work . . . does not
violate” the First Amendment, id. at 238. The Supreme Court
later reaffirmed this ruling. See Int’l Ass’n of Machinists v.
Street, 367 U.S. 740, 749 (1961) (affirming the
constitutionality of the Railway Labor Act’s agency shop and
fair-share provisions).

7

Case: 19-2812

Document: 74

Page: 8

Date Filed: 08/28/2020

Eventually, state legislatures across the country passed
laws authorizing public-sector unions to collect fair-share fees
and bargain for agency shop arrangements with state
government employers. In Abood, the Supreme Court affirmed
the constitutionality of one such law, a Michigan statute
permitting state employers to negotiate for agency shop
arrangements and fair-share fees with the public-sector unions
that represented their employees. 431 U.S. at 224-26. The
Abood Court ruled that the important government interests in
creating functional and peaceful labor relations and preventing
the free rider problem “support the impingement upon
associational freedom created by the agency shop.” Id. at 225.
Although the Court recognized that the “government may not
require an individual to relinquish rights guaranteed [] by the
First Amendment as a condition of public employment,” id.
at 234, the Court held that there was no reason to distinguish
Abood from cases like Hanson that had upheld agency shop
arrangements in the private sector, id. at 232 (holding that the
“differences between public- and private-sector collective
bargaining simply do not translate into differences in First
Amendment rights”).
But the Abood Court also ruled that—as in the private
sector—non-members’ fair-share fees could only be used to
pay for union activities that were “germane to [the union’s]
duties as collective-bargaining representative,” but not the
union’s political or other work. Id. at 235. In the Abood
Court’s view, this limitation struck an appropriate balance
between the non-members’ speech rights under the First
Amendment and the government’s interests in regulating labor
relations. Id. at 237 (describing the Court’s ruling as
“preventing compulsory subsidization of ideological activity
by employees who object . . . without restricting the [u]nion’s

8

Case: 19-2812

Document: 74

Page: 9

Date Filed: 08/28/2020

ability to require every employee to contribute to the cost of
collective-bargaining activities”). Over the course of the
following four decades, the Supreme Court affirmed its
holding in Abood against similar challenges to the
constitutionality of state laws allowing for agency shop
arrangements between public-sector employers and publicsector unions. See, e.g., Lehnert v. Ferris Faculty Ass’n, 500
U.S. 507 (1991); Locke v. Karass, 555 U.S. 207 (2009);
Friedrichs v. Cal. Tchrs. Ass’n, 136 S. Ct. 1083 (2016) (per
curiam) (equally divided Court affirming without opinion).
In light of Abood, Pennsylvania enacted a law allowing
public-sector agency shop arrangements and authorizing
unions that serve as exclusive representatives to collect fairshare fees. See 71 Pa. Stat. and Cons. Stat. Ann. § 575 (West
2020). Under section 575(b), “[i]f the provisions of a
collective bargaining agreement so provide, each nonmember
of a collective bargaining unit shall be required to pay to the
exclusive representative a [fair-share] fee.” Fair-share fees
could consist of normal dues minus “the cost for the previous
fiscal year of [the union’s] activities or undertakings which
were not reasonably employed to implement or effectuate the
duties of the employe[e] organization as exclusive
representative.” Id. § 575(a). The law also set forth the
procedure by which fair-share fees would be deducted from
non-member employees’ paychecks, see id. § 575(c), and a
procedure through which non-member employees could obtain
information about how their fees were used, see § 575(d). If
this information reflected any improper uses, non-members
could challenge the fair-share fees. See id. § 575(e).
In 2018, the Supreme Court “overruled” Abood. Janus
I, 138 S. Ct. at 2460. Holding that Abood “was poorly
reasoned” and led to “practical problems and abuse,” the Court

9

Case: 19-2812

Document: 74

Page: 10

Date Filed: 08/28/2020

ruled that Abood was “inconsistent with other First
Amendment cases” and was not entitled to continued
precedential status. Id. The Janus I Court held that Abood had
mischaracterized the government’s interests in promoting
“labor peace” and preventing “free-riders.” Id. at 2465-70.
Whereas the Abood Court had decided that those interests
justified the fair-share fee laws’ impingement on the union
non-members’ speech rights, the Court in Janus I stated that,
instead, “‘labor peace’ can readily be achieved through means
significantly less restrictive of associational freedoms,” and
that “avoiding free riders is not a compelling interest.” Id. at
2466 (internal quotation marks and citations omitted).
Accordingly, “the First Amendment does not permit the
government to compel a person to pay for another party’s
speech just because the government thinks that the speech
furthers the interests of the person who does not want to pay.”
Id. at 2467. State legislation allowing public-sector employers
and public-sector unions to collect fair-share fees
unconstitutionally forced non-members “to subsidize a union,
even if they choose not to join and strongly object to positions
the union takes in collective bargaining and related activities,”
and thereby compelled non-members “to subsidize private
speech on matters of substantial public concern.” Id. at 245960. On this basis, the Court ruled that “[s]tates and publicsector unions may no longer extract agency fees from
nonconsenting employees.” Id. at 2486. Therefore, under
Janus I, Pennsylvania’s public sector agency shop law was no
longer constitutional.1
1

We assume without deciding that the right announced by the
Supreme Court in Janus I is retroactive. Janus v. AFSCME,
Council 31, 942 F.3d 352, 360 (7th Cir. 2019) (“Janus II”)

10

Case: 19-2812

Document: 74

Page: 11

Date Filed: 08/28/2020

B. Factual background
1.

Diamond facts

Plaintiff Arthur Diamond and his six co-plaintiffs (the
“Diamond Plaintiffs”) are current or former teachers in
Pennsylvania public schools. They were not members of the
Pennsylvania State Education Association (“PSEA”), the
union that exclusively represented their bargaining unit. But
PSEA’s collective bargaining agreement contained a fair-share
clause that required they pay fair-share fees to either the union
or to a union-approved nonreligious charity. See Diamond
Appellants’ Br. at 5 (citing D.A. 73-74). Only Diamond paid
his fair-share fee to PSEA. Id. at 6. The other six Plaintiffs
directed their fees to be diverted to nonreligious charities,
though Sandra H. Ziegler did not identify a charity. Id. at 5-6.
The fair-share fees were no longer collected after June 27,

(“Rather than wrestle the retroactivity question to the ground,
we think it prudent to assume for the sake of argument that the
right recognized” by the Supreme Court in Janus I is
retroactive.); Danielson v. Inslee, 945 F.3d 1096, 1099 (9th
Cir. 2019) (“[W]e will assume that the right delineated in
[Janus I] applies retroactively and proceed to a review of
available remedies.”); Lee v. Oh. Educ. Ass’n, 951 F.3d 386,
389 (6th Cir. 2020) (“[T]he most prudent course of action is to
assume without deciding that the right recognized in [Janus I]
has retroactive application.”). Even if Janus I is retroactive,
the good faith defense may constitute a “previously existing,
independent legal basis” for denying the Appellants’ claims.
See Reynoldsville Casket Co. v. Hyde, 514 U.S. 749, 759
(1995).

11

Case: 19-2812

Document: 74

Page: 12

Date Filed: 08/28/2020

2018, the date that the Supreme Court issued its decision in
Janus I. A. 74, 93-96.
The Diamond Plaintiffs originally sued PSEA on the
same theory as the plaintiffs in Janus I, but once the Supreme
Court ruled in that case, the Diamond Plaintiffs amended their
Complaint to seek repayment of the fair-share fees they had
previously paid to their union. See Diamond Appellants’ Br.
at 6. PSEA moved to dismiss the amended complaint, arguing
that because it had collected the fees in good faith reliance on
a Pennsylvania statute and pre-Janus I Supreme Court
precedent authorizing fair-share fees, they could not be held
liable for monetary damages. Id. at 7. The District Court
granted the motion to dismiss, ruling that because PSEA had
relied on a prevailing state statute and federal caselaw, they
were entitled to a good faith defense to § 1983 liability that
barred the Diamond Plaintiffs’ claims. D.A. 50-51. The
Diamond Plaintiffs timely appealed. D.A. 1.
2.

Wenzig facts

Janine Wenzig and Catherine Kioussis (the “Wenzig
Plaintiffs”) work for the Commonwealth of Pennsylvania.
W.A. 8. Like the Diamond Plaintiffs, they were forced to pay
fair-share fees to their union, the Service Employees
International Union Local 668, without their consent. Id.
Their bargaining unit’s CBA contained the following
provision:
The Employer further agrees to deduct a [fairshare] fee from all compensation paid to all
employees in the bargaining unit who are not
members of the Union. Authorization from nonmembers to deduct [fair-share] fees shall not be

12

Case: 19-2812

Document: 74

Page: 13

Date Filed: 08/28/2020

required. The amounts to be deducted shall be
certified to the Employer by the Union and the
aggregate deductions of all employees shall be
remitted together with an itemized statement to
the Union by the last day of the succeeding
month after such deductions are made.
Wenzig App. 42.
More than a year after Janus I was issued, the Wenzig
Plaintiffs filed suit on behalf of themselves and a putative class
of similarly situated employees to recover damages under
§ 1983 for the fair-share fees that they had paid to their union.
See Wenzig Appellants’ Br. at 3. They sought a declaratory
judgment that the union’s pre-Janus I collection of fair-share
fees violated the First Amendment and repayment of all fairshare fees that were collected. W.S.A. 9.
The SEIU filed a motion to dismiss their claims, which
the District Court granted. The District Court ruled the good
faith defense shielded the union from monetary liability for
collecting fair-share fees in good faith reliance on thenprevailing Supreme Court precedent. W.A. 16. The Wenzig
Plaintiffs timely appealed, and their case was consolidated for
argument and opinion with the Diamond Plaintiffs’ case.
W.A.1.
II
The District Courts had jurisdiction pursuant to 28
U.S.C. §§ 1331 and 1343. We have jurisdiction under 28
U.S.C. § 1291. We review the District Courts’ judgments
granting the Defendants’ motions to dismiss de novo. See, e.g.,

13

Case: 19-2812

Document: 74

Page: 14

Date Filed: 08/28/2020

Foglia v. Renal Ventures Mgmt., LLC, 754 F.3d 153, 154 n.1
(3d Cir. 2014).
III
We are not the first court of appeals to rule on this
question, and we join a growing consensus of our sister circuits
who, in virtually identical cases, have held that because the
unions collected the fair-share fees in good faith reliance on a
governing state statute and Supreme Court precedent, they are
entitled to a good faith defense that bars Appellants’ claims for
monetary liability under § 1983. See Janus v. AFSCME,
Council 31, 942 F.3d 352 (7th Cir. 2019) (“Janus II”); Mooney
v. Ill. Educ. Ass’n, 942 F.3d 368 (7th Cir. 2019); Danielson v.
Inslee, 945 F.3d 1096 (9th Cir. 2019); Lee v. Oh. Educ. Ass’n,
951 F.3d 386 (6th Cir. 2020); Ogle v. Ohio Civil Serv. Emps.
Ass’n, AFSCME Local 11, 951 F.3d 794 (6th Cir. 2020);
Wholean v. CSEA SEIU Local 2001, 955 F.3d 332 (2d Cir.
2020).
A.

Private parties may assert a good faith defense to
§ 1983 liability.

42 U.S.C. § 1983 creates a cause of action for plaintiffs
who are injured by a person who, acting “under color of any
statute . . . of any State,” causes the plaintiff to suffer “the
deprivation of any rights, privileges, or immunities secured by
the Constitution.” Appellants assert that the Unions—acting
under color of a Pennsylvania statute—caused them to be
deprived of their First Amendment rights when the Unions
collected fair-share fees from Appellants’ paychecks.
In Lugar v. Edmondson Oil Co., the Supreme Court held
that § 1983 allows suits against private parties acting under

14

Case: 19-2812

Document: 74

Page: 15

Date Filed: 08/28/2020

color of state law. 457 U.S. 922, 941 (1982). Under Lugar, a
private party may be liable under § 1983 when the privateparty defendant deprived the plaintiff of a constitutional right
by exercising “a right or privilege having its source in state
authority” and where the private-party defendant may be
“appropriately characterized as [a] ‘state actor[].’” Id. at 939.2
But while the Lugar Court confirmed that private-party
defendants may be subject to suit under § 1983, the Court also
recognized a “concern” that its ruling could unfairly subject
these private entities to liability even though the private parties
had “innocently [made] use of seemingly valid state laws.” Id.
at 942 n.23.
Despite voicing this “concern,” the Court in Lugar left
open the question of whether private parties may avail
themselves of immunity to suit. Id. In Wyatt v. Cole, the
Supreme Court answered this question, ruling that immunity is
reserved for governmental entities, not private parties subject
to suit under § 1983. 504 U.S. 158, 168 (1992). The Court
nonetheless noted—without explicitly ruling—that “principles
of equality and fairness may suggest . . . that private citizens
who rely unsuspectingly on state laws they did not create and
may have no reason to believe are invalid should have some
protection from liability.” Id. But the Court left the question
of whether private-party defendants are entitled to a “defense
based on good faith” for “another day.” Id. at 169. Later, the
2

Under Lugar, a private party may be appropriately
characterized as a state actor where the private party “is a state
official, . . . has acted together with or has obtained significant
aid from state officials, or [where its] conduct is otherwise
chargeable to the State.” Lugar, 457 U.S. at 937. Appellants
do not challenge the Unions’ statuses as state actors.

15

Case: 19-2812

Document: 74

Page: 16

Date Filed: 08/28/2020

Supreme Court again alluded to, without adopting, this good
faith defense. See Richardson v. McKnight, 521 U.S. 399, 414
(1997) (“Like the Court in Wyatt, . . . we do not express a view
on [the good faith defense].”).
We addressed this open question shortly after Wyatt was
issued. In Jordan v. Fox, Rothschild, O’Brien & Frankel, we
held that a “good faith defense is available” to private parties
who act under color of state law and are sued for monetary
liability under § 1983. 20 F.3d 1250, 1277 (3d Cir. 1994). We
stated our “basic agreement” that “private defendants should
not be held liable under § 1983 absent a showing of malice and
evidence that they either knew or should have known of the
statute’s constitutional infirmity.” Id. at 1276 (citations
omitted). We noted that good faith gives private defendants “a
defense that depends on their subjective state of mind, rather
than the more demanding objective standard of reasonable
belief that governs qualified immunity.” Id. at 1277.3
3

In his concurrence, JUDGE FISHER suggests that a historical
approach to the issue of good faith requires a complex analysis
based on common law. He asserts that the various opinions in
Wyatt imply “that any limitation on private-party liability must
be grounded in the common-law approach.” Fisher Op. at I.C.
JUDGE PHIPPS similarly urges that the good faith defense
should be available if and only if a “deeply rooted commonlaw tradition exists” to support it. See Phipps Op.
I can find no such implication, let alone any directive to that
effect. Indeed, the point—the very narrow ruling—of the
majority in Wyatt is that qualified immunity is uniquely a
creature of common law to which private parties are not
entitled. And the Wyatt concurrence’s statement (which Judge
Fisher quotes as the basis for this implication), that “[w]e may

16

Case: 19-2812

Document: 74

Page: 17

Date Filed: 08/28/2020

not transform what existed at common law based on our
notions of policy or efficiency,” 504 U.S. at 171-72, did no
more than provide support for the majority’s reasoning
rejecting an expansion of the concept of qualified immunity,
and speaks not at all to the issue of the good faith defense or its
contours.
JUDGE FISHER also suggests that my reading of Jordan is
“expansive[],” Fisher Op. at II.B., and JUDGE PHIPPS “does not
see a valid basis for recognizing such a defense,” Phipps Op.,
but urges that, instead, our adoption of the good faith defense
in Jordan was a “misnomer,” id.
I disagree. In Jordan, we embraced the good faith defense
and opined on the contours of its relatively modest
requirements. 20 F.3d at 1275-77. We concluded that good
faith gives private actors a defense that depends on their
“subjective state of mind,” id. at 1277, and looked to whether
the private party acted with “malice” or “either knew or should
have known of the statute’s constitutional infirmity,” id. at
1276. And I note that, importantly, in Jordan, we made no
mention of the common-law approach. Jordan is controlling
precedent as to the legal standard that we apply in this case.
And let us be clear: we are not talking about an across-theboard good faith defense to a § 1983 action that is inconsistent
with the common law. Instead, we are talking about
prohibiting monetary liability when a private-party defendant
acted in good faith reliance on a statute enacted in accordance
with binding Supreme Court precedent in a situation that has
no exact analogue at common law. Doesn’t the analogy to
abuse of process in note 4 below—or, in its own way, JUDGE
FISHER’s intensive historical analysis—make that very point?
See also, e.g., Janus II, 942 F.3d at 365 (noting that no common
law tort “is a perfect fit”).

17

Case: 19-2812

B.

Document: 74

Page: 18

Date Filed: 08/28/2020

Appellants’ § 1983 claims are barred by the Unions’
good faith defense.

Jordan therefore established that the good faith defense
is available to a private-party defendant in a § 1983 case if,
after considering the defendant’s “subjective state of mind,” id.
at 1277, the court finds no “malice” and no “evidence that [the
defendant] either knew or should have known of the statute’s
constitutional infirmity,” id. at 1276.
There was no such finding of malice or knowledge in Jordan,
and, similarly here, Appellants have not asserted that either of
these disqualifying factors is implicated. Indeed, as noted
above, the Unions’ collection of fair-share fees was authorized
by over four decades of Supreme Court precedent and a
Pennsylvania statute, 71 Pa. Stat. and Cons. Stat. Ann. § 575
(West 2020), that explicitly authorized fair-share fees for
public-sector unions like the Unions. Accordingly, in this case,
Appellants cannot possibly make any “showing of malice” or
demonstrate that the Unions “either knew or should have
known of [§ 575]’s constitutional infirmity.” Jordan, 20 F.3d
at 1276 (citation omitted). The Unions are therefore entitled to
the good faith defense under Jordan.

This is not the huge jurisprudential leap that my colleagues
urge. This is a reasonable way to afford private parties some
of the protection that government actors are afforded when
they act in a situation in which the existing state and federal
law explicitly condoned their behavior. Do we need to chart a
complex path to ensure that this underlying principle is
recognized? We did not in Jordan, and we do not need to do
so here.

18

Case: 19-2812

Document: 74

Page: 19

Date Filed: 08/28/2020

Moreover, “principles of equality and fairness,” Wyatt,
504 U.S. at 168, independently weigh in favor of the Unions
being protected from suit. It is fair—and crucial to the
principle of rule of law more generally—that private parties
like the Unions should be able to rely on statutory and judicial
authorization of their actions without hesitation or fear of
future monetary liability. Janus II, 942 F.3d at 366 (“The Rule
of Law requires that parties abide by, and be able to rely on,
what the law is . . . .”); Danielson, 945 F.3d at 1105 (finding
that the defendant unions did “exactly what we expect of
private parties: adhering to the governing law of its state and
deferring to the Supreme Court’s interpretations of the
Constitution”); Wholean, 955 F.3d at 336 (noting that unions
“cannot reasonably be deemed to have forecasted whether,
when, and how Abood might be overruled” and holding that
they “were entitled to rely on directly controlling Supreme
Court precedent”).
Appellants present numerous arguments that the good
faith defense should not bar their claims against the Unions.
First, Appellants urge us to rule that the good faith defense only
applies to § 1983 suits that allege theories of liability for which
the most analogous common law tort requires malice or
probable cause. We decline to do so for several reasons. First,
Wyatt applied this most analogous tort concept in considering
the way courts have analyzed immunity from suit under
§ 1983. The Wyatt Court did not mention this concept in
relation to the good faith defense and there is no reason to think
that it would apply a historical immunity analysis to what it
obviously considered to be a distinct good faith analysis. See
Wyatt, 504 U.S. at 168. Other courts have concurred in this
view. See Danielson, 945 F.3d at 1101 (observing that Wyatt’s
discussion of the most closely analogous common law tort

19

Case: 19-2812

Document: 74

Page: 20

Date Filed: 08/28/2020

“applies only to . . . qualified immunity” and not to the good
faith defense); Janus II, 942 F.3d at 365 (“[T]he Supreme
Court in Wyatt [] embarked on the search for the most
analogous tort only for immunity purposes—the Court never
said that the same methodology should be used for the goodfaith defense.”); Lee, 951 F.3d at 392. In any event, because
the legal basis for § 1983 immunity is distinct from the legal
basis for the good faith defense, we see no independent reason
to adopt the most analogous common law tort inquiry here. See
Danielson, 945 F.3d at 1101 (“The rationales behind
[immunity and the good faith defense], and their limitations,
are not interchangeable.”). Instead, as noted above, our
decision is based on the “principles of equality and fairness”
identified in Wyatt. 504 U.S. at 168.4

4

We note that the Appellants did not urge (or even suggest)
that we delve into the historical “common-law approach” with
the level of historical detail and specificity that JUDGE
FISHER’s concurrence would require, so we need not consider
it. Our sister circuits have construed what JUDGE FISHER refers
to broadly as the “common-law approach” as a narrower most
analogous common law tort approach, and, although they
ultimately reject the idea that this approach should be
incorporated into our analysis, they have uniformly determined
that, even if we were to adopt this mode of analysis, abuse of
process is the most analogous common law tort on these facts.
See Janus II, 942 F.3d at 365; Danielson, 945 F.3d at 1102;
Lee, 951 F.3d at 392 n.2; cf. Ogle, 951 F.3d at 797. Abuse of
process, which provides a “cause[] of action against private
defendants for unjustified harm arising out of the misuse of
governmental processes,” Wyatt, 504 U.S. at 164, corresponds
to the Unions’ use of a Pennsylvania statute to collect fair-share

20

Case: 19-2812

Document: 74

Page: 21

Date Filed: 08/28/2020

Next, Appellants cite numerous cases in which
defendants who have taken money or property in violation of a
plaintiff’s constitutional rights have been required to disgorge
or return the money or property. First, most of these cases
involved government defendants, not private parties. But in
addition, one of the main considerations in Abood was the
benefit conferred on plaintiffs by the union activities. This has
no role in the various cases cited by Appellants. But it does
play a role when we are considering fairness because
Appellants benefitted from the fair-share fees they paid. Thus,
we are not disputing that a cause of action for return of money
or property exists for Appellants. We are merely saying that
principles of fairness make this situation different.
Third, Appellants urge that the good faith defense does
not apply to claims for restitution, which they allegedly seek.
But contrary to their urging, Appellants’ claims do not
constitute claims for restitution. “[R]estitution in equity
typically involved enforcement of a constructive trust or an
equitable lien, where money or property identified as
belonging in good conscience to the plaintiff could clearly be
traced to particular funds or property in the defendant’s
possession.” Montanile v. Bd. of Trustees of Nat’l Elevator
Indus. Health Benefit Plan, 136 S. Ct. 651, 657 (2016)
fees through government employer payroll withholding.
Abuse of process also requires a showing of malice and
probable cause, which would support the availability of the
good faith defense here. Id.; see also Jordan, 20 F.3d at 127577. So, although JUDGE FISHER’s opinion goes well beyond an
analogy to abuse of process in its “common-law approach,” see
Fisher Op. at II.B.-III.B., I would not go so far, even if I were
to look to the common law for guidance on this issue.

21

Case: 19-2812

Document: 74

Page: 22

Date Filed: 08/28/2020

(quotation marks and citation omitted). In contrast, where a
plaintiff pursues a “personal claim against the defendant’s
general assets,” then that plaintiff is seeking “a legal remedy,
not an equitable one.” Id. at 658. Appellants have not
demonstrated that their lawsuit seeks recovery from anything
more specific than the Unions’ general assets, and therefore
they fail to persuade us that they are suing for restitution. See
also Mooney, 942 F.3d at 371 (finding that the plaintiff’s claim
was “[i]n substance . . . one for damages”); Danielson, 945
F.3d at 1102-03; Lee, 951 F.3d at 391.
Appellants next theorize that the Unions can only avoid
liability—even if there is a good faith defense—if they acted
appropriately to benefit Appellants as Abood reasoned. Thus,
they urge that the District Courts should not have dismissed
their claims without allowing discovery as to whether the
Unions’ conduct was consistent with what Abood required.
But because Appellants have pled an entitlement to return of
their money based on Janus I, not on the Unions’ conduct, this
argument falls flat. See Danielson, 945 F.3d at 1105 (noting
that because plaintiffs’ “claims arise from the [u]nion’s
reliance on Abood, not allegations that the [u]nion flouted that
authority, the [u]nion need not show compliance with Abood’s
strictures to assert successfully a good faith defense”); Lee, 951
F.3d at 392 (“[I]f Defendants improperly spent the fair-share
fees, Plaintiff would have an independent Abood claim but it
would not render the exaction of the fee an act in bad faith.”
(citation omitted)).
Finally, Appellants argue that an “entity”—as opposed
to an “individual”—cannot invoke the good faith defense. But
this argument is plainly contradicted by our ruling in Jordan,
which made the good faith defense available to a law firm.
Jordan, 20 F.3d at 1277; see also Danielson, 945 F.3d at 1100

22

Case: 19-2812

Document: 74

Page: 23

Date Filed: 08/28/2020

(rejecting argument that only individuals may invoke the good
faith defense). Appellants’ argument that the good faith
defense is incompatible with the text of § 1983 falls flat for the
same reason: Jordan involved a § 1983 cause of action.
Jordan, 20 F.3d at 1277.
IV
As Judge Wood noted in Janus II, the good faith defense
to section 1983 liability is “narrow” and “only rarely will a
party successfully claim to have relied substantially and in
good faith on both a state statute and unambiguous Supreme
Court precedent validating that statute.” 942 F.3d at 367. In
this unique circumstance, the good faith defense applies here
to protect the Unions from monetary liability under § 1983.
Accordingly, we will affirm the District Courts’ judgments.

23

Case: 19-2812

Document: 74

Page: 24

Date Filed: 08/28/2020

Diamond v. Pa. State Educ. Ass’n, No. 19-2812
Wenzig v. Serv. Emps. Int’l, No. 19-3906
FISHER, Circuit Judge, concurring in the judgment.
In April 1871, Congress passed, and President Grant
signed, an extraordinary act, variously called the Ku Klux Klan
Act, Third Force Act, or Civil Rights Act of 1871. On its face,
the first section of that act—what we now know as 42 U.S.C.
§ 1983—provided its violators no immunities from or defenses
to liability. See Act of Apr. 20, 1871, ch. 22, § 1, 17 Stat. 13,
13. Of course, the Supreme Court has since read immunities
and defenses into § 1983, but it has done so principally on the
conceit that they were available at common law in 1871, and
implicitly incorporated into the statute. While this approach
certainly limits the scope of liability, it also constrains judges
from straying too far from the statutory text. In only one
context has the Court invented a freestanding defense: the
qualified immunity of certain state officials. Whatever might
be said for that doctrine—and it is increasingly under
scrutiny—I believe that the precedent of neither the Supreme
Court nor our own Court warrants another divergence from the
common-law approach in the present context. And however
strongly considerations of equality and fairness might
recommend such action, it is beyond our remit to invent
defenses to § 1983 liability based on our views of sound policy.
I must, therefore, respectfully disagree with the reasoning of
JUDGE RENDELL’s opinion announcing the Court’s judgment.
Nevertheless, I concur in the affirmance of the District
Courts’ orders. There was available in 1871, in both law and
equity, a well-established defense to liability substantially
similar to the liability the unions face here. Courts consistently

1

Case: 19-2812

Document: 74

Page: 25

Date Filed: 08/28/2020

held that judicial decisions invalidating a statute or overruling
a prior decision did not generate retroactive civil liability with
regard to financial transactions or agreements conducted,
without duress or fraud, in reliance on the invalidated statute
or overruled decision. Because this defense comports with the
history and purposes of § 1983, I conclude that it is available
to the unions here and supports the dismissal of the plaintiffs’
complaints.
I
A
Section 1983 “cannot be understood in a historical
vacuum.” City of Newport v. Fact Concerts, Inc., 453 U.S. 247,
258 (1981). Despite the statute’s “general language,” Tenney v.
Brandhove, 341 U.S. 367, 376 (1951), creating a form of
liability in law and equity that seemingly “admits no
immunities,” Tower v. Glover, 467 U.S. 914, 920 (1984), the
Supreme Court has consistently construed § 1983 “in the light
of common-law principles that were well settled at the time of
its enactment,” Kalina v. Fletcher, 522 U.S. 118, 123 (1997).
Those principles “provide the appropriate starting point” for
“defining the elements of damages [under § 1983] and the
prerequisites for their recovery,” Carey v. Piphus, 435 U.S.
247, 257-58 (1978), including any available immunities and
defenses, see Pulliam v. Allen, 466 U.S. 522, 529 (1984).
The paradigm application of this common-law approach
has been the absolute immunity of legislators, judges, and
certain other state officials. Congress, the Supreme Court has
said, gave “no clear indication” in passing § 1983 that it “meant
to abolish wholesale all common-law immunities.” Pierson v.
Ray, 386 U.S. 547, 554 (1967); see also Bauers v. Heisel, 361
F.2d 581, 587-88 (3d Cir. 1966) (en banc). As a result, when an
official asserts absolute immunity, the Court has demanded “a

2

Case: 19-2812

Document: 74

Page: 26

Date Filed: 08/28/2020

considered inquiry into the immunity historically accorded the
relevant official at common law and the interests behind it.”
Imbler v. Pachtman, 424 U.S. 409, 421 (1976). This inquiry
involves “consult[ing] the common law to identify those
governmental functions that were historically viewed as so
important and vulnerable to interference by means of litigation
that some form of absolute immunity from civil liability was
needed.” Rehberg v. Paulk, 566 U.S. 356, 363 (2012); see also
Burns v. Reed, 500 U.S. 478, 484-86 (1991); Imbler, 424 U.S.
at 422-24; Pierson, 386 U.S. at 553-54; Tenney, 341 U.S. at
376. While the scope of immunity at common law in 1871 does
not exclusively define its scope under § 1983—the statute is
not “simply a federalized amalgamation of pre-existing
common-law claims,” Rehberg, 566 U.S. at 366—the inquiry
nevertheless remains grounded in historical analogy. Judges
“do not have a license to create immunities based solely on
[their] view of sound policy.” Id. at 363.
Even when absolute immunity does not apply, the Court
has still employed the common law approach. To “defin[e] the
contours and prerequisites of a § 1983 claim,” Manuel v. City
of Joliet, 137 S. Ct. 911, 920 (2017), it has read the statute
“against the background of tort liability that makes a man
responsible for the natural consequences of his actions.”
Monroe v. Pape, 365 U.S. 167, 187 (1961); see also Memphis
Cmty. Sch. Dist. v. Stachura, 477 U.S. 299, 305-06 (1986). In
particular, the Court has looked to “[t]he common-law cause of
action . . . [that] provides the closest analogy to claims of the
type considered” pursuant to § 1983. Heck v. Humphrey, 512
U.S. 477, 484 (1994); see also Nieves v. Bartlett, 139 S. Ct.
1715, 1726 (2019). Yet here too, the elements and limitations
of a § 1983 claim will not necessarily be co-extensive with the
most analogous common-law cause of action. “Common-law
principles are meant to guide rather than to control the

3

Case: 19-2812

Document: 74

Page: 27

Date Filed: 08/28/2020

definition of § 1983 claims,” and so “[i]n applying, selecting
among, or adjusting common-law approaches, courts must
closely attend to the values and purposes of the constitutional
right at issue.” Manuel, 137 S. Ct. at 921.
B
The singular exception to this practice is the doctrine of
qualified immunity. Early on, the Court did refer to the
common law. In Pierson, which concerned common-law and §
1983 claims against police officers, the Court held that because
“the defense of good faith and probable cause” was “[p]art of
the background of tort liability[] in the case of police officers
making an arrest,” it was available to the officers in the § 1983
action as well as the common-law action. 386 U.S. at 556-57
(citing Monroe, 365 U.S. at 187). Soon, however, as it
confronted cases involving other executive officials, the Court
generalized this defense without regard to its common-law
moorings. “[T]he relevant question” became “whether [the
official] ‘knew or reasonably should have known that the
action he took within his sphere of official responsibility would
violate the constitutional rights of [the plaintiff], or if he took
the action with the malicious intention to cause a deprivation
of constitutional rights or other injury to [the plaintiff].’”
O’Connor v. Donaldson, 422 U.S. 563, 577 (1975) (quoting
Wood v. Strickland, 420 U.S. 308, 322 (1975)); see also
Procunier v. Navarette, 434 U.S. 555, 561-62 (1978); Scheuer
v. Rhodes, 416 U.S. 232, 247 (1974).
This drift culminated in Harlow v. Fitzgerald, 457 U.S.
800 (1982), where “the Court completely reformulated
qualified immunity along principles not at all embodied in the
common law,” Anderson v. Creighton, 483 U.S. 635, 645

4

Case: 19-2812

Document: 74

Page: 28

Date Filed: 08/28/2020

(1987).1 The Court abandoned any reference to a subjective
good-faith standard, noting that such “[i]nquiries . . . can be
peculiarly disruptive of effective government.” Harlow, 457
U.S. at 817. Instead, the question was now purely one of
objective reasonableness, and it would apply “across the
board,” id. at 821 (Brennan, J., concurring) (citation omitted),
to all “government officials performing discretionary
functions,” id. at 818 (majority opinion).
Yet even as it departed from the common-law model,
the Court indicated its unwillingness to extend Harlow’s
policy-based rationale to other contexts. “We reemphasize,” it
said in 1986, “that our role is to interpret the intent of Congress
in enacting § 1983, not to make a freewheeling policy choice,
and that we are guided in interpreting Congress’ intent by the
common-law tradition.” Malley v. Briggs, 475 U.S. 335, 342
(1986); see also Filarsky v. Delia, 566 U.S. 377, 389 (2012)
(“Nothing about the reasons we have given for recognizing
immunity under § 1983 counsels against carrying forward the
common law rule.”). Outside of qualified immunity, the
“general approach” remained the same: a court first determines
“whether an official claiming immunity under § 1983 can point
to a common-law counterpart to the privilege he asserts”; if a
sufficiently analogous counterpart exists, the court is then to
“consider[] whether § 1983’s history or purposes nonetheless
counsel against recognizing the same immunity in § 1983
actions.” Malley, 475 U.S. at 339-40 (citation omitted).

Although Harlow arose under the cause of action created in
Bivens v. Six Unknown Named Agents of Federal Bureau of
Narcotics, 403 U.S. 388 (1971), the Court saw no reason to
distinguish between that context and § 1983, see Harlow, 457
U.S. at 818 n.30.
1

5

Case: 19-2812

Document: 74

Page: 29

Date Filed: 08/28/2020

C
This background informs the context we confront in
these cases—the far less developed area of private-party
liability under § 1983. Any limitation on such liability should,
as with official liability, “be dealt with . . . by establishing an
affirmative defense.” Lugar v. Edmondson Oil Co., 457 U.S.
922, 942 n.23 (1982); see also Adickes v. S.H. Kress & Co.,
398 U.S. 144, 174 n.44 (1970) (citing Pierson, 386 U.S. 547).
The Supreme Court has not, however, definitively stated what
such a defense might be. Rather, in Wyatt v. Cole, 504 U.S. 158
(1992), it refused to apply Harlow-style qualified immunity to
private parties sued under § 1983 for invoking a state replevin
statute later declared unconstitutional. And that is where the
doctrine remains. JUDGE RENDELL’s opinion suggests that in
rejecting the application of qualified immunity, Wyatt opened
the door to another freestanding, judge-made defense. In my
view, however, Wyatt stands for the proposition that the
common-law approach must guide any limitation on privateparty liability under § 1983.
The Wyatt defendants were private parties who invoked
a Mississippi statutory procedure that obliged state officials,
solely upon the declaration of the applicant, “to issue a writ of
replevin for the seizure of the property described in [the]
declaration.” Wyatt v. Cole, 710 F. Supp. 180, 182 (S.D. Miss.
1989). The plaintiff, whose property had been seized, filed an
action under § 1983 seeking damages and a declaratory
judgment on the statute’s constitutionality. The district court
declared the statute unconstitutional but declined to hold the
private defendants monetarily liable. Id. at 183. The Fifth
Circuit affirmed, finding the defendants entitled to qualified
immunity. Wyatt v. Cole, 928 F.2d 718, 721-22 (5th Cir. 1991)
(per curiam).

6

Case: 19-2812

Document: 74

Page: 30

Date Filed: 08/28/2020

In reversing, the Supreme Court distinguished between
post-Harlow qualified immunity and a good-faith defense. The
basic approach, the Court said, is the one grounded in the
common law: whether the “parties seeking immunity were
shielded from tort liability when Congress enacted the Civil
Rights Act of 1871”; and, if so, whether “§ 1983’s history or
purpose counsel against applying [the immunity] in §
1983 actions.” Wyatt, 504 U.S. at 164. The defendants in fact
argued along these lines, claiming a defense under Pierson
because they acted without malice and with probable cause. Id.
at 165. The Court’s response was telling: “Even if there were
sufficient common law support to conclude that [the
defendants] . . . should be entitled to a good faith defense, that
would still not entitle them to what they sought and obtained
in the courts below: the qualified immunity from suit accorded
government officials under Harlow.” Id. As to that issue, the
Court concluded that the “special policy concerns,” articulated
in Harlow, that “mandat[e] qualified immunity for public
officials are not applicable to private parties.” Id. at 167.
For present purposes, this holding has two relevant
implications. First, contrary to what some of our sister circuits
have said, the Court in Wyatt made no suggestion that the
common-law approach applies only in the context of immunity
and not in the context of a good-faith defense. See Janus v. Am.
Fed’n of State, Cnty. & Mun. Emps., Council 31, 942 F.3d 352,
365-66 (7th Cir. 2019) (Janus II); Danielson v. Inslee, 945 F.3d
1096, 1101 (9th Cir. 2019); Lee v. Ohio Educ. Ass’n, 951 F.3d
386, 391-92 (6th Cir. 2020). In fact, the implication was
precisely the opposite: “we do not foreclose the possibility,”
the Court wrote, “that private defendants . . . could be entitled
to an affirmative defense based on good faith and/or probable
cause.” Wyatt, 504 U.S. at 169. That is the same defense
Pierson recognized, explicitly deriving it by analogy from the

7

Case: 19-2812

Document: 74

Page: 31

Date Filed: 08/28/2020

common law. It was also the argument that the defendants in
Wyatt made before the Court, but which was “of no avail”
because it was neither sought nor ruled upon in the lower
courts. Id. at 165. And, accordingly, it was the basis of the Fifth
Circuit’s recognition of a good-faith defense on remand. See
Wyatt v. Cole, 994 F.2d 1113, 1120 (5th Cir. 1993) (Wyatt II).2
Second, in declining to extend qualified immunity to
private-party defendants, the Court did not imply, as today’s
opinion announcing our judgment holds, see Rendell Op. at
III.B, that alternative policy grounds might supply an
affirmative defense.
Although principles of equality and fairness may
suggest . . . that private citizens who rely
unsuspectingly on state laws they did not create
and may have no reason to believe are invalid
should have some protection from liability, as do
their government counterparts, such interests are
not sufficiently similar to the traditional
purposes of qualified immunity to justify such an
expansion.
Wyatt, 504 U.S. at 168. Rather than open the door to an
independent defense based on “principles of equality and
fairness,” this statement asserts that, at least in the context of
private-party § 1983 defendants, equality and fairness
Moreover, the distinction between immunities and defenses
is potentially misleading because qualified immunity is itself
“an affirmative defense that must be pleaded by a defendant
official.” Harlow, 457 U.S. at 815 (citing Gomez v. Toledo, 446
U.S. 635 (1980)). As I note above, the relevant distinction in
Wyatt is between Harlow-style qualified immunity and a goodfaith defense based on the common-law approach.
2

8

Case: 19-2812

Document: 74

Page: 32

Date Filed: 08/28/2020

considerations are not significant enough in themselves to
warrant divergence from the common-law model in the manner
of Harlow. Those concerns “may be well founded,” but courts
“do not have a license to establish immunities from § 1983
actions in the interests of what [they] judge to be sound public
policy.” Tower, 467 U.S. at 922-23.
Justice Kennedy’s concurrence in Wyatt, joined by
Justice Scalia, underlines both of these points. “Our immunity
doctrine,” he wrote, “is rooted in historical analogy, based on
the existence of common-law rules in 1871, rather than in
‘freewheeling policy choices.’” Wyatt, 504 U.S. at 170
(Kennedy, J., concurring) (alteration omitted) (quoting Malley,
475 U.S. at 342). Although Harlow “depart[ed] from history in
the name of public policy,” Justice Kennedy joined the Court’s
opinion in resisting “exten[sion] [of] that approach to other
contexts.” Id. at 171. “[W]e may not transform what existed at
common law based on our notions of policy or efficiency.” Id.
at 171-72. The implication is that any limitation on privateparty liability must be grounded in the common-law approach.
Justice Kennedy then went further than the Court in
laying out what such an inquiry, at least on the Wyatt facts,
should look like. All of the Justices, including those in dissent,
accepted that at common law in 1871 the tort actions “most
closely analogous” to the Wyatt action were “malicious
prosecution and abuse of process.” Id. at 164 (majority
opinion); see id. at 172 (Kennedy, J., concurring); id. at 176
(Rehnquist, C.J., dissenting). Both torts required the plaintiff
to prove that the defendant acted with malice and without
probable cause. Id. at 166 n.2 (majority opinion); id. at 172
(Kennedy, J., concurring); id. at 176 n.1 (Rehnquist, C.J.,
dissenting). For Justice Kennedy, proof of “subjective bad faith
on the part of the defendant”—rather than an objective
standard—went “far towards proving” both elements. Id. at

9

Case: 19-2812

Document: 74

Page: 33

Date Filed: 08/28/2020

173 (Kennedy, J., concurring). “[T]here is support in the
common law,” he observed, “for the proposition that a private
individual’s reliance on a statute, prior to a judicial
determination of unconstitutionality, is considered reasonable
as a matter of law; and therefore under the circumstances of
this case, lack of probable cause can only be shown through
proof of subjective bad faith.” Id. at 174 (citing Birdsall v.
Smith, 122 N.W. 626, 627 (Mich. 1909)). Further, five Justices
agreed that a “good-faith defense” in this context represented
both the plaintiff’s burden to prove the elements of the offense
and, relatedly, the defendant’s opportunity to avoid liability by
showing good faith. See id. at 175; id. at 176 n.1 (Rehnquist,
C.J., dissenting).
II
Under Wyatt, then, any defense to private-party liability
under § 1983 must derive from the common-law approach and
may not rest on freestanding policy grounds. The next question
is whether the defense suggested there—whether the defendant
acted with malice and without probable cause—is context
dependent or applies categorically to all cases involving
private-party defendants. Only the former view is faithful to
the common-law approach; the latter, like the Supreme Court’s
qualified-immunity standard in cases such as Procunier,
O’Connor, and Wood, generalizes a subjective good-faith
defense, unmooring it from its common-law origins. JUDGE
RENDELL’s opinion, in addition to its policy-based holding,
takes this latter view, relying upon our decision in Jordan v.
Fox, Rothschild, O’Brien & Frankel, 20 F.3d 1250 (3d Cir.
1994). See Rendell Op. at III.A-B. On my reading, however,
Jordan did not announce a categorical rule, and so we must
conduct an independent inquiry based on the common-law
approach. And on that score, I think that instead of determining
whether a pre-1871 tort is sufficiently analogous, resolution on

10

Case: 19-2812

Document: 74

Page: 34

Date Filed: 08/28/2020

an alternative ground, also based in the common-law approach,
is preferable.
A
Lugar and Wyatt both concerned “private defendants
charged with 42 U.S.C. § 1983 liability for invoking state
replevin, garnishment, and attachment statutes later declared
unconstitutional.” Wyatt, 504 U.S. at 159. So too did Jordan.
Pursuant to a cognovit clause in a commercial real estate lease,
the defendants obtained and executed a confessed judgment
against the plaintiffs in state court. Jordan, 20 F.3d at 1258.
Along with their complaint, the defendants invoked a
Pennsylvania procedure that required the prothonotary of the
court to issue a writ ordering the court’s sheriff to garnish the
plaintiffs’ bank account. Jordan v. Fox, Rothschild, O’Brien &
Frankel, 787 F. Supp. 471, 473-74 (E.D. Pa. 1992) (Fox
Rothschild). The law required neither pre-deprivation notice
nor issuance of a writ of service, and indeed the plaintiffs
received notice only after the seizure. Id. Unsurprisingly
aggrieved, the plaintiffs thereafter sought, among other things,
a declaratory judgment that the Pennsylvania procedure was
unconstitutional and damages under § 1983.
The district court held that the post-judgment
garnishment phase of the procedure violated due process, id. at
477-78, but it dismissed the § 1983 action, determining that the
defendants were entitled to qualified immunity, id. at 479-80.
While the case was pending on appeal, however, the Supreme
Court decided Wyatt. Our question, then, was whether the
defendants were entitled to a good-faith defense. Jordan, 20
F.3d at 1276. We held that they were, declaring ourselves “in
basic agreement” with the Fifth Circuit’s holding on remand in
Wyatt that “[p]rivate defendants should not be held liable under
§ 1983 absent a showing of malice and evidence that they

11

Case: 19-2812

Document: 74

Page: 35

Date Filed: 08/28/2020

either knew or should have known of the statute’s
constitutional infirmity.” Id. (quoting Wyatt II, 994 F.2d at
1120).
In my view, Jordan’s holding is best read as limited to
the context before it. Immediately after announcing our
agreement with the Fifth Circuit, we clarified that by “malice”
we had in mind “a creditor’s subjective appreciation that its act
deprives the debtor of his constitutional right to due process.”
Id. To support this standard, we cited Justice Kennedy’s
reference, in his Wyatt concurrence, to Birdsall v. Smith. Id. at
1276 n.30. That case concerned a malicious-prosecution action
brought by a milk vendor who had been charged, solely on the
basis of a report filed with state officials, under a state statute
later declared unconstitutional. See 122 N.W. at 626-27. We
also referred to “Pennsylvania cases that place state law
limitations on the use of judgment by confession” because we
thought they may “sometimes be relevant on the good faith
issue.” Jordan, 20 F.3d at 1277. This all suggests that we had
in mind the factual circumstances of the immediate case—
circumstances essentially similar to those of Lugar and Wyatt.
B
Because Jordan cannot be read as expansively as JUDGE
RENDELL’s opinion suggests, the proper question is whether
the abuse-of-process and malicious-prosecution torts, from
which the Wyatt defense is derived, are sufficiently analogous
to the present action, such that our recognition of that defense
in Jordan is applicable here. For their part, our sister circuits
that have confronted the question have so far uniformly
concluded that those torts do provide the best analogy. See,
e.g., Janus II, 942 F.3d at 365; Danielson, 945 F.3d at 1102;
Lee, 951 F.3d at 392 n.2. I think that view is worth questioning,

12

Case: 19-2812

Document: 74

Page: 36

Date Filed: 08/28/2020

at least to the extent that it supplies the unions a good-faith
defense here.
In both Wyatt and Jordan, the private-party defendants
invoked a generally available state procedure. Upon the
defendants’ independent initiative, state officials were
compelled to seize or garnish property of the plaintiffs. That
mandate was what rendered the state laws unconstitutional in
each case. See Fox Rothschild, 787 F. Supp. at 477-78; Cole,
710 F. Supp. at 183. Here, Pennsylvania law required the public
employer to deduct the fair-share fee from the nonmembers’
paychecks, if the collective-bargaining agreement so provided.
Yet (and this is the key difference) the agreements triggering
collection of the fees were not the fruit of the unions’
independent initiative—the relevant public employer was a
party to them and necessarily had to agree to them. See 71 Pa.
Stat. § 575(b)-(c); see also 43 Pa. Stat. § 1101.901 (the
collective-bargaining
agreement
is
“between
the
representatives of the public employes and the public
employer”). And the collection of the fees—the compelled
subsidization of speech—was the constitutional violation. See
Janus v. Am. Fed’n of State, Cnty. & Mun. Emps., Council 31,
138 S. Ct. 2448, 2464, 2478 (2018).
Thus, the relevant state action in our cases stems not
merely from the involvement of state officials in
unconstitutional conduct, see Lugar, 457 U.S. at 941, but also,
to some extent, from the command or express authorization of
the state to engage in that conduct, see Blum v. Yaretsky, 457
U.S. 991, 1004 (1982). From this perspective, the torts of abuse
of process and malicious prosecution provide at best attenuated
analogies. It seems apparent that we are not dealing here
simply with a civil “process . . . willfully made use of for a
purpose not justified by the law,” Thomas M. Cooley, A
Treatise on the Law of Torts 189 (1876), let alone “the

13

Case: 19-2812

Document: 74

Page: 37

Date Filed: 08/28/2020

malicious institution of a civil suit,” id. at 187. Insofar as the
state establishes a law’s justified purposes, we confront the use
of a procedure for a purpose that the state in part set.3
It may be, as the Seventh Circuit observed in Janus II,
that abuse of process and malicious prosecution are the most
analogous torts, however imperfect the analogy. See 942 F.3d
at 365. But it does not necessarily follow that they therefore
supply the basis of a defense. By that logic, a defense is
potentially always available, no matter how attenuated the
connection between the common-law cause of action and the
injury alleged. We must remember that “[c]ommon-law
principles are meant to guide rather than to control the
definition of § 1983 claims.” Manuel, 137 S. Ct. at 921. True
commitment to the common-law approach may eventually
require deciding where to draw the line between analogous and
non-analogous causes of action. But at least in this case, I find
it unnecessary to do so.
In what follows, I describe an alternative basis for a
defense, well established at both common law and equity in
1871, and providing a closer similarity to the facts that we
confront. Resolving these cases on this ground would both
avoid the knotty problems raised by a most-analogous-tort test
and preserve the notion, accepted by six Justices in Wyatt, that
Harlow was an exception that should not swallow the
common-law rule. Indeed, in my view, that latter benefit is
especially compelling, given the recent cogent critiques of
It follows from this argument that the parties’ other proposed
torts—conversion, defamation, tortious interference with
contract, and intentional infliction of emotional distress—are
also insufficiently analogous. Their elements are even further
afield than those of abuse of process and malicious
prosecution.
3

14

Case: 19-2812

Document: 74

Page: 38

Date Filed: 08/28/2020

qualified immunity as incongruent with the principles of
statutory interpretation. See, e.g., Ziglar v. Abbasi, 137 S. Ct.
1843, 1871-72 (2017) (Thomas, J., concurring in part and
concurring in the judgment); Baxter v. Bracey, 140 S. Ct. 1862,
1864 (2020) (Thomas, J., dissenting from the denial of
certiorari); William Baude, Is Qualified Immunity Unlawful?,
106 Calif. L. Rev. 45 (2018).
III
“An unconstitutional act is not a law; . . . it is, in legal
contemplation, as inoperative as though it had never been
passed.” Norton v. Shelby County, 118 U.S. 425, 442 (1886).
Derived from the common law, see Robinson v. Neil, 409 U.S.
505, 507 (1973), this principle from the late nineteenth century
was premised on the then-prevalent legal theory that judges
“find” or “declare” rather than “make” law, see Linkletter v.
Walker, 381 U.S. 618, 622-23 (1965); Kuhn v. Fairmont Coal
Co., 215 U.S. 349, 370 (1910) (Holmes, J., dissenting). That
theory fell out of fashion in the early twentieth century, but the
Norton principle nevertheless proved remarkably influential.
See, e.g., Ex Parte Young, 209 U.S. 123, 159 (1908). Most
notably, it underlies the Supreme Court’s more recent
retroactivity jurisprudence—and thus the plaintiffs’ theory of
liability in the present cases. See Harper v. Va. Dep’t of Tax’n,
509 U.S. 86, 95-97 (1993); James B. Beam Distilling Co. v.
Georgia, 501 U.S. 529, 540 (1991) (opinion of Souter, J.);
Griffith v. Kentucky, 479 U.S. 314, 326-29 (1987).
Yet there was a contemporaneous exception to this
general view, in which a judicial decision either voiding a
statute or overruling a prior decision does not generate
retroactive civil liability with regard to financial transactions
or agreements conducted, without duress or fraud, in reliance
on the invalidated statute or overruled decision. See, e.g.,

15

Case: 19-2812

Document: 74

Page: 39

Date Filed: 08/28/2020

Benjamin N. Cardozo, The Nature of the Judicial Process 14647 (1921); Oliver P. Field, The Effect of an Unconstitutional
Statute 221-28 (1935); Note, The Effect of Overruled and
Overruling Decisions on Intervening Transactions, 47 Harv. L.
Rev. 1403 (1934). An assessment of the cases applying this
exception demonstrates its applicability in the present context.
The exception appears to have developed as a sort of
corollary to originally English legal and equitable doctrines.
One such doctrine is that voluntary payments made upon an
illegal demand are not recoverable except where the payments
were made under an immediate and urgent necessity. See, e.g.,
Valpy v. Manley (1845), 135 Eng. Rep. 673, 677; 1 C. B. 594,
602-03 (Tindal, C.J.) (citing and quoting Fulham v. Down
(1798), 170 Eng. Rep. 820 n.; 6 Esp. 26 n. (Kenyon, C.J.));
Brisbane v. Dacres (1813), 128 Eng. Rep. 641, 645; 5 Taunt.
143, 152 (Gibbs, J.). Another is that money paid pursuant to a
contract may not be recovered if the contract was formed under
a mutual mistake of law. See, e.g., Bilbie v. Lumley (1802) 102
Eng. Rep. 448, 449-50; 2 East 469, 472. Although nineteenthcentury American courts straightforwardly applied these
doctrines in the contexts in which they originated, see, e.g.,
Bank of U.S. v. Daniel, 37 U.S. (12 Pet.) 32, 55-56 (1838); Hunt
v. Rhodes, 26 U.S. (1 Pet.) 1, 15 (1828); Sprague v. Birdsall, 2
Cow. 419, 421 (N.Y. Sup. Ct. 1823), they also invoked them
when confronting the effects of the practice of judicial review.
Two lines of cases—one at law, the other in equity—are
especially notable.
A
At common law, money extracted illegally by taxes or
fees could be recovered through an action of assumpsit. See,
e.g., 3 William Blackstone, Commentaries on the Laws of
England *158-59 (describing as a form of assumpsit an action

16

Case: 19-2812

Document: 74

Page: 40

Date Filed: 08/28/2020

to recover tax or fee payments to a government or other body
of which one is a member).4 As noted, in Janus the
unconstitutional act was the compelled subsidization of speech
through the payment of the fair-share fees. The plaintiffs here
seek a repayment of the fees they paid prior to Janus and whose
extraction only became illegal as a result of that decision.
Several pre-1871 state cases address a similar situation, where
repayment of a tax, fee, or other expenditure is sought when
the law or court decision under which it was made is declared
unconstitutional or overruled. The courts in these cases
developed a limitation on such liability, uniformly barring
repayment where the initial expenditure was made voluntarily
and without duress.
The most succinct formulation of this doctrine came in
an 1846 decision of the Maryland high court:
It is now established, by an unbroken series of
adjudications in the English and American
Although the Supreme Court has often referred specifically to
tort law when enunciating the common-law approach to § 1983
immunities and defenses, it has never suggested that
application of that approach is limited to tort, rather than
contract, law where the latter is most applicable. Moreover, the
assumpsit action was in fact a form of the writ of trespass on
the case—the fountainhead of modern tort law—that officially
came to supplant actions in debt due to the institutional rivalry
of the Courts of Common Pleas and King’s Bench. See David
Ibbetson, Sixteenth Century Contract Law: Slade’s Case in
Context, 4 Oxford J. Legal Stud. 295 (1984). Assumpsit treats
misperformance or nonperformance of an implied agreement
as a tort-like wrong. See John H. Langbein et al., History of the
Common Law: The Development of Anglo-American Legal
Institutions 252 (2009).
4

17

Case: 19-2812

Document: 74

Page: 41

Date Filed: 08/28/2020

courts, that where money is voluntarily and fairly
paid, with a full knowledge of the facts and
circumstances under which it is demanded, it
cannot be recovered back in a court of law, upon
the ground, that the payment was made under a
misapprehension of the legal rights and
obligations of the party.
City of Baltimore v. Lefferman, 4 Gill 425, 431 (Md. 1846). The
operative legal fiction—consistent with the Supreme Court’s
later statement in Norton—is that a statute or ordinance
subsequently declared unconstitutional is void even at the time
the money is transacted pursuant to it, thus creating the
“misapprehension.” The burden, however, is on the payor to
establish more than mere reliance on the law’s presumptive
validity. As the California Supreme Court put it: “The illegality
of the demand paid constitutes of itself no ground for relief.
There must be in addition some compulsion or coercion
attending its assertion, which controls the conduct of the party
making the payment.” Brumagim v. Tillinghast, 18 Cal. 265,
266 (1861). The payment, according to the Ohio Supreme
Court, “can only be considered involuntary when it is made to
procure the release of the person or property of the party from
detention, or when the other party is armed with apparent
authority to seize upon either, and the payment is made to
prevent it.” Mays v. City of Cincinnati, 1 Ohio St. 268, 278
(1853). Simply because the law was assumed valid at the time
of the payment, and therefore that non-payment might result in
legal enforcement proceedings, was not enough. See Town
Council of Cahaba v. Burnett, 34 Ala. 400, 404 (1859); see also
Town of Ligonier v. Ackerman, 46 Ind. 552, 559 (1874),
overruled in part on other grounds by Jennings v. Fisher, 2
N.E. 285, 288 (Ind. 1885).

18

Case: 19-2812

Document: 74

Page: 42

Date Filed: 08/28/2020

The Pennsylvania Supreme Court at midcentury also
adopted this general doctrine. See Taylor v. Phila. Bd. of
Health, 31 Pa. 73, 75 (1855); Borough of Allentown v. Saeger,
20 Pa. 421 (1853). In Saeger, the Court stated in dictum that
“[i]f [the money] had been paid under protest, that is, with
notice that [the payor] would claim it back, this would repel the
implication of an assent, and give rise to the right of
reclamation.” 20 Pa. at 421. It is unclear, however, if this
standard required the payor actually to bring the threatened
legal action. Other courts were more explicit in imposing this
requirement. See, e.g., Burnett, 34 Ala. at 405 (“[T]he case is
not altered by the fact, that the party so paying protests that he
is not answerable, and gives a notice that he shall bring an
action to recover the money back. He has an opportunity in the
first instance to contest th[e] claim at law.” (quoting Benson v.
Monroe, 61 Mass. (7 Cush.) 125, 131 (1851))).5
Finally, although the United States Supreme Court did
not, during this period, have a factually similar case, it did
approvingly recite this doctrine in analogous situations. For
example, in an 1877 case involving payments to Confederate
The Alabama Supreme Court’s adoption of Benson’s
language is significant. Benson, also an assumpsit action, more
nearly approximates abuse of process because the plaintiffs,
who were ship owners, only paid after their vessel was
attached. Nevertheless, the Massachusetts Supreme Judicial
Court still denied recovery. The plaintiffs had the choice of
either paying or litigating. Benson, 61 Mass. at 131. Burnett’s
importation of Benson’s standard suggests the similarity
between the sort of cases described here and abuse-of-process
situations (though still litigated in assumpsit). It suggests the
closeness of this rule to the one Wyatt suggested and our Court
adopted in Jordan.
5

19

Case: 19-2812

Document: 74

Page: 43

Date Filed: 08/28/2020

officials for the right to export cotton, the Court said that to
“justify an action against [the payees], either for the return of
the money paid . . . or for damages of any kind,” “the doctrine
established by the authorities is[] that ‘a payment is not to be
regarded as compulsory, unless made to emancipate the person
or property from an actual and existing duress imposed upon it
by the party to whom the money is paid.’” Radich v. Hutchins,
95 U.S. 210, 212-13 (1877) (quoting Lefferman, 4 Gill. at 436,
and citing Brumagim, 18 Cal. at 265; and Mays, 1 Ohio St. at
268); see also Elliott v. Swartwout, 35 U.S. (10 Pet.) 137, 15355 (1836). This voluntariness rule remains the applicable
standard. See McKesson Corp. v. Div. of Alcoholic Beverages
& Tobacco, 496 U.S. 18, 38 n.21 (1990).
B
The doctrine was also applied in equitable actions,
usually involving not the payment of a tax or fee, but rather a
financial transaction between private parties. Its most wellknown enunciation was by Chancellor Kent in 1815: “A
subsequent decision of a higher Court, in a different case,
giving a different exposition of a point of law from the one
declared and known when a settlement between parties takes
place, cannot have a retrospective effect, and overturn such
settlement.” Lyon v. Richmond, 2 Johns. Ch. 51, 60 (N.Y. Ch.
1815), rev’d on other grounds, Lyon v. Tallmadge, 14 Johns.
501 (N.Y. 1817). In addition to general policy grounds, the key
principle was, again, that parties may not be relieved of “acts
and deeds fairly done on a full knowledge of facts, though
under a mistake of the law.” Id.; see also Shotwell v. Murray, 1
Johns. Ch. 512, 515-16 (N.Y. Ch. 1815). Later state equity
courts adopted or followed this doctrine, see, e.g., Doll v.
Earle, 59 N.Y. 638, 638 (1874); Hardigree v. Mitchum, 51 Ala.
151, 155-56 (1874); Harris v. Jex, 55 N.Y. 421, 424 (1874);
Kenyon v. Welty, 20 Cal. 637, 642 (1862), as did at least one

20

Case: 19-2812

Document: 74

Page: 44

Date Filed: 08/28/2020

federal court, see In re Dunham, 8 F. Cas. 37, 38-39 (D.N.J.
1872).
***
When Congress in 1871 enacted the law that became §
1983, it was well established at both law and equity that court
decisions that invalidated a statute or overruled a prior
decision, and thereby affected transactional relationships—
between private parties and government officials or
representatives, or between private parties alone—established
in reliance on that statute or decision, did not generate civil
liability for repayment except where duress or fraud was
present. Whatever the nature of the state action in the present
cases—whether the state “act[ed] jointly with” the unions or
“compel[led] the [unions] to” collect the fees, Manhattan
Cmty. Access Corp. v. Halleck, 139 S. Ct. 1921, 1928 (2019)—
the factual circumstances underlying this doctrine bear a
substantial similarity to those we confront here. Therefore, in
my view the doctrine constitutes “a previously existing,
independent legal basis” sufficient to limit the unions’ liability
under § 1983. Reynoldsville Casket Co. v. Hyde, 514 U.S. 749,
759 (1995).6 I know of no authority on “§ 1983’s history or
purposes” that might “counsel against” recognition of this
defense, Tower, 467 U.S. at 920, and the consistency of its
application in law and equity safely permits the conclusion that
Congress did not wish to “impinge” on it “by covert inclusion
The Diamond appellants argue strenuously that this is a case
of restitution. Even if it is, every case upon which they rely can
be explained according this doctrine. Moreover, they cite cases
only from the mid-twentieth century or later. There is no
suggestion that the principle they claim was established in
1871. The reverse, in fact, seems to be the case.
6

21

Case: 19-2812

Document: 74

Page: 45

Date Filed: 08/28/2020

in the general language” of § 1983, Tenney, 341 U.S. at 376.
IV
It may be tempting, in cases like the present, to read
precedent broadly, or appeal to freestanding principles such as
the rule of law and basic notions of fairness. But we must
interpret and apply § 1983 as we would any other statute,
always prepared for the faithful execution of that duty to result
in a seemingly extreme outcome. For even when that does not
occur, there is value in adhering to the well-established
principles of interpretation.
Because the plaintiffs in these cases have not pleaded
any facts, suggesting that their payments were either
sufficiently involuntary or exacted on a fraudulent basis,7 to
permit a reasonable person to infer that the unions might be
liable, I concur in the affirmance of the orders granting the
unions’ motions to dismiss.

JUDGE PHIPPS asserts that, even accepting the standard I adopt
here, the plaintiffs’ payments were not voluntary. I think it
apparent that none of the plaintiffs have pleaded anything
approaching the kind of involuntariness or duress articulated in
the cases I discuss.
7

22

Case: 19-2812

Document: 74

Page: 46

Date Filed: 08/28/2020

Diamond v. Pa. State Educ. Ass’n, No. 19-2812
Wenzig v. Serv. Emps. Int’l, No. 19-3906
PHIPPS, Circuit Judge, dissenting.
The central question presented in these consolidated
cases, which seek recovery of agency fees garnished from the
wages of non-union members, is whether a good faith
affirmative defense exists to a First Amendment compelled
speech claim under 42 U.S.C. § 1983. I do not see a valid basis
for recognizing such a defense. A good faith affirmative
defense was not firmly rooted in the common law in 1871 when
§ 1983 was enacted, and nothing else compels recognition of
such a defense today. For that reason, I would reverse the
orders dismissing these cases and remand them for further
proceedings.
My colleagues see it differently. Judge Rendell
recognizes such a defense from precedent and out of
consideration of “principles of equality and fairness.” Rendell
Op. at III.B. In concurring in the judgment only, Judge Fisher
does not rely on a good faith defense. Instead, from an
examination of pre-1871 common law, he identifies another
limitation on the § 1983 cause of action: it may not be used to
collect voluntary payments. See Fisher Op. at III.A. I disagree
with these perspectives and respectfully dissent.
The Supreme Court has articulated standards for
supplementing the plain text of § 1983, which itself identifies
no immunities or defenses. Such supplementation requires a
tradition “so firmly rooted in the common law and . . .
supported by such strong policy reasons that ‘Congress would
have specifically so provided had it wished to abolish the

Case: 19-2812

Document: 74

Page: 47

Date Filed: 08/28/2020

doctrine.’” Owen v. City of Independence, 445 U.S. 622, 637
(1980) (quoting Pierson v. Ray, 386 U.S. 547, 555 (1967)).
Even if such a deeply rooted common-law tradition exists, that
will still not permit supplementation of § 1983 in a manner
inconsistent with the statute’s history or purpose. See Wyatt v.
Cole, 504 U.S. 158, 164 (1992) (“[I]rrespective of the common
law support, we will not recognize an immunity available at
common law if § 1983’s history or purpose counsel against
applying it in § 1983 actions.”).
I.

A GOOD FAITH DEFENSE WAS NOT FIRMLY ROOTED IN
THE COMMON LAW IN 1871 WHEN CONGRESS ENACTED
§ 1983.

The specific inquiry here focuses on whether a good
faith defense was firmly rooted in the common law in 1871.
But as an initial point of reference, the good faith affirmative
defense is not firmly rooted in the common law today – either
generally or for any specific cause of action.
In articulating 18 affirmative defenses that must be
raised in a responsive pleading, Rule 8(c) of the Federal Rules
of Civil Procedure does not include good faith. See Fed. R.
Civ. P. 8(c). The rule’s listing is not exhaustive, and leading
treatises supplement those 18 listed defenses, but those
treatises do not identify a common-law good faith affirmative
defense. See, e.g., Arthur R. Miller et al., Federal Practice and
Procedure § 1271 (3d ed., Apr. 2020 Update) (recognizing no
common-law good faith affirmative defense); 2 Jeffrey A.
Parness, Moore’s Federal Practice § 8.08 (3d ed. 2020) (listing
affirmative defenses, such as immunities, but not including
good faith). If a good faith affirmative defense were deeply
rooted in the common law, such as defenses like statute of

2

Case: 19-2812

Document: 74

Page: 48

Date Filed: 08/28/2020

limitations, laches, or accord and satisfaction, then one would
expect to find it listed in Rule 8(c) – or at least to make a
showing in a leading treatise.
Similarly, a review of other statutory causes of action
reveals that Congress has not understood good faith to be so
deeply rooted as to go unspoken. Rather, when Congress
wants to include good faith as an affirmative defense, it does
so expressly.1 And that begs the question: if the good faith
defense were so well established that it could be assumed “that
Congress [in enacting § 1983] would have specifically so
provided had it wished to abolish the doctrine,” then why did
Congress find the need to expressly provide for the defense in
many other statutes but not in § 1983? Pierson, 386 U.S. at
555.
In sum, the absence of a good faith affirmative defense
from Rule 8(c) along with its presence as a defense in other
federal statutes suggests that today the good faith affirmative
defense is not firmly rooted in the common law.

1

See, e.g., 15 U.S.C. § 78r (providing a good faith defense to
securities fraud); 15 U.S.C. § 1115(b) (providing a good faith
defense to trademark infringement); 15 U.S.C. §§ 1640,
1691e(e), 1692k(e), 1693m(d) (providing a good faith defense
to claims related to consumer credit protection); 16 U.S.C
§ 1540(a)(3), (c)(3) (providing a good faith defense to certain
claims under the Endangered Species Act); 29 U.S.C. § 259(a)
(providing a good faith defense to certain claims under the Fair
Labors Standards Act); 29 U.S.C. § 2617(a)(1)(iii) (providing
a good faith defense to a liquidated damages claim under the
Family Medical Leave Act).

3

Case: 19-2812

Document: 74

Page: 49

Date Filed: 08/28/2020

That conclusion, of course, is not dispositive – it could
be that a good faith affirmative defense was deeply entrenched
in the common law in 1871 but has lost traction over time. But
cf. Fed. R. Civ. P. 8(c) (continuing to identify the virtually
obsolete affirmative defense of injury to fellow servant). To
make such a showing would require proof similar to that
adduced in Tenney v. Brandhove, 341 U.S. 367 (1951),
wherein the Supreme Court determined that legislative
immunity applied to § 1983 claims. See id. at 377-78. In
reaching that conclusion, the Supreme Court relied on evidence
of that immunity dating back to sixteenth and seventeenth
century English law, provisions of the Articles of
Confederation and the Constitution, as well as protections
specifically articulated in 41 of the then 48 admitted States.
See id. at 372-76.
By contrast no such evidence is present here. No party
identifies a pre-1871 case recognizing a common-law good
faith affirmative defense – either as a general matter or in the
context of any particular cause of action. Judge Rendell’s
opinion does not identify any common-law basis for such a
defense. Nor do any of the other courts applying a good faith
defense to agency fee cases identify any grounding in common
law for such an affirmative defense.2

2

See Wholean v. CSEA SEIU Local 2001, 955 F.3d 332, 33436 (2d Cir. 2020); Lee v. Ohio Educ. Ass’n, 951 F.3d 386, 392
n.2 (6th Cir. 2020); Ogle v. Ohio Civil Serv. Emps. Ass’n,
AFSCME Local 11, 951 F.3d 794, 797 (6th Cir. 2020) (per
curiam); Danielson v. Inslee, 945 F.3d 1096, 1102 (9th Cir.
2019); Janus v. Am. Fed. of State, Cty. & Mun. Emps., Council
31, 942 F.3d 352, 364 (7th Cir. 2019) (finding “no common-

4

Case: 19-2812

Document: 74

Page: 50

Date Filed: 08/28/2020

The strongest case for such a defense comes from Chief
Justice Rehnquist’s dissenting opinion in Wyatt v. Cole. There,
he viewed the good faith defense as “something of a
misnomer” because it actually referred to elements of the
common-law torts of malicious prosecution and abuse of
process. 504 U.S. 158, 176 & n.1. That perspective is telling.
Chief Justice Rehnquist identified no authority for the
proposition that good faith functions as a transsubstantive
affirmative defense – applicable across a broad class of claims,
such as the defenses of accord and satisfaction, laches, and res
judicata. See id. at 175-80. Nor did his dissenting opinion
recognize good faith as a claim-specific affirmative defense,
such as the defenses of assumption of risk, contributory
negligence, or duress. See id. At most, Chief Justice Rehnquist
determined that the elements of two common-law tort claims
could be defeated by proof of subjective good faith. See id. at
176 & n.1.
Judge Fisher picks up on that theme. From an
examination of the common law, he concludes that in 1871 no
cause of action allowed for later recovery of voluntary
payments. See Fisher Op. at III.A. But unlike the cases he
relies upon, the agency fee payments at issue here were not
voluntary – they were wage garnishments that were paid to
unions.3 More fundamentally, Judge Fisher’s approach is
law history before 1871 of private parties enjoying a good-faith
defense to constitutional claims”).
3

See 71 Pa. Stat. and Cons. Stat. Ann. § 575(c) (West 1988)
(requiring employers to garnish wages for fair-share agency
fees for transmittal to unions); see also Wenzig Compl. ¶¶ 910 (Wenzig App. 42) (alleging that non-union members were

5

Case: 19-2812

Document: 74

Page: 51

Date Filed: 08/28/2020

analogous to the one that the Supreme Court did not adopt in
Wyatt – which prompted Chief Justice Rehnquist’s dissent.
Section 1983 created a new statutory cause of action, not one
pre-defined by the common law. Thus, it is immaterial that no
pre-1871 cause of action permitted recovery for voluntary
payments that were subsequently declared unconstitutional:
the Civil Rights Act of 1871 established a new cause of action
in part to provide “a remedy where state law was inadequate.”
Monroe v. Pape, 365 U.S. 167, 173 (1961), overruled on other
grounds by Monell v. Dep’t of Soc. Servs. of N.Y., 436 U.S. 658
(1977).
For these reasons, I do not see the common law as
limiting the scope of a § 1983 claim for compelled speech –
either through a good faith affirmative defense or through a
separate limitation on the statutory cause of action.
II.

BOTH THE HISTORY AND THE PURPOSE OF § 1983
COUNSEL AGAINST RECOGNITION OF A GOOD FAITH
AFFIRMATIVE DEFENSE.

For completeness, even supposing that the common law
did recognize good faith as an affirmative defense in 1871,
more would be required. Before a deeply rooted affirmative
“forced to pay” fair-share agency fees and that those fees were
deducted from nonmembers’ wages “without their consent”);
Diamond Second Am. Compl. ¶ 24 (Diamond App. 74)
(alleging that the class representatives were “compelled . . . to
pay a financial penalty for exercising their constitutional right
to not join a union”), ¶ 39 (Diamond App. 77) (defining the
putative class as persons who were “compelled to pay money .
. . as a condition of employment”).

6

Case: 19-2812

Document: 74

Page: 52

Date Filed: 08/28/2020

defense can apply to a § 1983 action, it must also be “supported
by such strong policy reasons that Congress would have
specifically so provided had it wished to abolish the doctrine.”
Owen, 445 U.S. at 637 (internal quotation marks omitted). Put
differently, a common-law defense will not be read into § 1983
when it is inconsistent with the history or the purpose of
§ 1983. See Wyatt, 504 U.S. at 164. And neither the history
nor the purpose of § 1983 supports the recognition of good
faith as an affirmative defense for violations of every
constitutional right.
A good faith defense is inconsistent with the history of
the Civil Rights Act of 1871. As the Supreme Court has
explained, that statute is predicated on the understanding that
“Congress has the power to enforce provisions of the
Fourteenth Amendment against those who carry a badge of
authority of a State and represent it in some capacity, whether
they act in accordance with their authority or misuse it.”
Monroe, 365 U.S. at 171-72 (emphasis added). As this
statement makes clear, the history behind the Civil Rights Act,
which Congress enacted pursuant to the Enabling Clause of the
Fourteenth Amendment,4 demonstrates the need to remedy
actions taken in accordance with state law. And thus a good
faith affirmative defense – that a state actor was merely
following state law – is an especially bad fit as an atextual
addition to § 1983.

4

See Civil Rights Act of 1871, Pub. L. 42-22, 17 Stat. 13, 13
(Apr. 20, 1871) (entitling the legislation as “[a]n Act to enforce
the [p]rovisions of the Fourteenth Amendment . . . and for other
[p]urposes”).

7

Case: 19-2812

Document: 74

Page: 53

Date Filed: 08/28/2020

Nor can a good faith affirmative defense be reconciled
with the purpose of the Civil Rights Act of 1871. The Supreme
Court has identified “three main aims” for § 1983. Monroe,
365 U.S. at 173. Those were (i) “to override certain kinds of
state laws”; (ii) to provide “a remedy where state law was
inadequate”; and (iii) “to provide a federal remedy where the
state remedy, though adequate in theory, was not available in
practice.” Id. at 173-74. Each of those purposes reflects a
dissatisfaction with the redress provided by state law for
constitutional violations. It would seem, then, that state law
would be the last place to look for limitations on the redress
§ 1983 allows – the whole point of the statute was to overcome
the limitations of state law. Thus, absent some foundation in
federal law, incorporating a defense rooted only in state
common law into § 1983 is inconsistent with the purpose of
that statute.
The later enactment of § 1988 also supports this
conclusion. There, Congress allowed for consideration of state
common law, but only to supplement “deficienc[ies] in the
provisions necessary to furnish suitable remedies and punish
offenses against law.” 42 U.S.C. § 1988. That is quite
different than looking to state common law to limit the
remedies permitted by § 1983.
Thus, even if it were firmly entrenched in the common
law, a good faith affirmative defense should not be grafted onto
the text of § 1983 – either as a transsubstantive defense (such
as accord and satisfaction or res judicata) or a cause-of-action
specific defense (such as assumption of the risk or duress).

8

Case: 19-2812

III.

Document: 74

Page: 54

Date Filed: 08/28/2020

THE ROLE OF GOOD FAITH IN § 1983 LITIGATION DOES
NOT RISE TO THE LEVEL OF AN AFFIRMATIVE DEFENSE.

Although good faith does not operate as an affirmative
defense, it still may have a role in § 1983 litigation. As this
Circuit recognized, proof of good faith may negate an element
of a § 1983 claim. See Jordan v. Fox, Rothschild, O’Brien &
Frankel, 20 F.3d 1250, 1277-78 (3d Cir. 1994). Specifically,
the gross negligence mental state element required for a
procedural due process claim can be rebutted by a showing of
subjective good faith through adherence to then-existing law.
See id. at 1278. That holding was context specific, and it
recognized good faith as a means to disprove a mental state
requirement. See id. at 1277-78. Consistent with Chief Justice
Rehnquist’s observation, the Jordan decision used the term
‘good faith defense’ as a misnomer – it was actually applying
good faith to negate a specific element of a cause of action, as
opposed to asserting it as an affirmative defense. See id.; see
generally Affirmative Defense, Black’s Law Dictionary (11th
ed. 2019) ( “A defendant’s assertion of facts and arguments
that, if true, will defeat the plaintiff’s or prosecution’s claim,
even if all the allegations in the complaint are true.”). Thus, I
do not read our precedent as recognizing good faith as an
across-the-board affirmative defense, or even as cause-ofaction specific affirmative defense. At most, a showing of
good faith can negate a mental state element of a claim – such
as gross negligence required for a procedural due process
claim. See Jordan, 20 F.3d at 1277-78. But that is of no
moment here because a claim for compelled speech does not
have a mens rea requirement. See Janus v. Am. Fed’n of State,
Cty. & Mun. Emps., Council 31, 138 S. Ct. 2448, 2464 (2018)
(“[T]he compelled subsidization of private speech seriously

9

Case: 19-2812

Document: 74

Page: 55

Date Filed: 08/28/2020

impinges on First Amendment rights[.]”); see also United
States v. United Foods, Inc., 533 U.S. 405, 408, 416 (2001);
Wooley v Maynard, 430 U.S. 705, 717 (1977); W. Va. State Bd.
of Educ. v. Barnette, 319 U.S. 624, 642 (1943).
Beyond Jordan, Judge Rendell relies on “principles of
equality and fairness” to justify a good faith defense. Rendell
Op. at III.B. But in full context, the Supreme Court made clear
that “principles of equality and fairness” were insufficient to
establish immunity:
Although principles of equality and fairness may
suggest . . . that private citizens who rely
unsuspectingly on state laws they did not create
and may have no reason to believe are invalid
should have some protection from liability, as do
their government counterparts, such interests are
not sufficiently similar to the traditional
purposes of qualified immunity to justify such an
expansion.
Wyatt, 504 U.S. at 168. Nothing about that quotation validates
“principles of equality and fairness” as standards for evaluating
potential affirmative defenses. As explained above, the
appropriate inquiry looks instead to the common law.
But even still, principles of equality and fairness would
not carry the day here. Neither equality nor fairness
overwhelmingly favors the reliance interests of the unions in
pre-existing law over the free speech rights of non-members
who were compelled to support the unions. The Supreme
Court in Janus already accounted for those reliance interests in
overturning Abood. See Janus, 138 S. Ct. at 2484-86; see also

10

Case: 19-2812

Document: 74

Page: 56

Date Filed: 08/28/2020

Abood v. Detroit Bd. of Educ., 431 U.S. 209 (1977). Those
considerations need not be double-counted under the guise of
a good faith affirmative defense. And that is to say nothing of
the text, history, and purpose § 1983, which make it
particularly ill-suited to a construction that elevates reliance
interests over the vindication of constitutional rights.
***
Good faith was not firmly rooted as an affirmative
defense in the common law in 1871, and treating it as one is
inconsistent with the history and the purpose of § 1983. Nor
does our precedent or even principles of equality and fairness
favor recognition of good faith as an affirmative defense to a
compelled speech claim for wage garnishments. I respectfully
dissent and vote to reverse the orders dismissing the complaints
and to remand these cases.

11

APPENDIX B

Case 1:19-cv-01367-MEM Document 33 Filed 12/10/19 Page 1 of 25

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF PENNSYLVANIA
JANINE WENZIG and
CATHERINE KIOUSSIS,
Plaintiffs,

:
:
:

v.

:

SERVICE EMPLOYEES
INTERNATIONAL UNION
LOCAL 668,

:

Defendant

CIVIL ACTION NO. 1:19-1367
(JUDGE MANNION)

:
:
MEMORANDUM

Pending before the court is the motion to dismiss the first amended
complaint (“FAC”), (Doc. 19), of plaintiffs Janine Wenzig and Catherine
Kioussis filed by defendant Service Employees International Union Local 668
(“SEIU”), (Doc. 25). Defendant’s motion seeks dismissal of this case for
failure to state a claim upon which relief may be granted pursuant to
Fed.R.Civ.P. 12(b)(6). SEIU contends that plaintiffs’ First Amendment claims
against it, in this putative class action, for retrospective monetary relief under
42 U.S.C. §1983 should be dismissed since it relied in good faith on the
formerly valid Pennsylvania law and longstanding United States Supreme
Court precedent that allowed it to collect fair-share fees from public-sector
employees who were not members of the union. For the reasons that follow,
SEIU’s motion to dismiss under Rule 12(b)(6) will be GRANTED and,
plaintiffs’ federal claims against SEIU will be DISMISSED WITH PREJUDICE.

1

Case 1:19-cv-01367-MEM Document 33 Filed 12/10/19 Page 2 of 25

I.

BACKGROUND
Plaintiffs bring this civil rights action pursuant to 42 U.S.C. §1983.1

Plaintiffs are both employed by the Commonwealth of Pennsylvania. Wenzig
is employed by the Department of Human Services as a Licensing Supervisor
and Kioussis is an Income Maintenance Supervisor. SEIU is a labor union
with its headquarters in Harrisburg, Pennsylvania, and it is the exclusive
representative for several bargaining units in the state, including plaintiffs’
bargaining unit. As members of the bargaining unit represented by SEIU,
plaintiffs received the benefits of the Collective Bargaining Agreement (“CBA”)
between SEIU and Pennsylvania. However, even though plaintiffs were not
members of SEIU, they allege that the union was legally allowed to collect fair
share fees from them under Pennsylvania’s Public Employee Fair Share Fee
Law, “43 Pa.Stat.Ann. §1102.3”, since it represented them in collective
bargaining.2 Under state law, SEIU negotiated with the state for the collection
1

The facts alleged in plaintiffs’ FAC must be accepted as true in
considering defendant SEIU’s motion to dismiss. See Dieffenbach v. Dept. of
Revenue, 490 Fed.Appx. 433, 435 (3d Cir. 2012); Evancho v. Evans, 423
F.3d 347, 350 (3d Cir. 2005).
Also, since the legal standard to state a claim under §1983 is correctly
stated in the briefs of the parties, the court will not repeat it herein. See also
Kneipp v. Tedder, 95 F.3d 1199, 1204 (3d Cir. 1996) (To state an actionable
claim under §1983, a plaintiff must prove that someone deprived her of a
constitutional right while acting under the color of state law.).
2

SEIU notes that since plaintiffs were public employees employed by
Pennsylvania, they were subject to its “agency-shop statute” [i.e., the fair
share fee law], namely, 71 Pa.Stat.Ann. §575. See also Diamond v.
Pennsylvania State Education Association, 399 F.Supp.3d 361, 371 (W.D.Pa.
July 8, 2019).
The court also notes that the Public Employee Relations Act (“PERA”),
2

Case 1:19-cv-01367-MEM Document 33 Filed 12/10/19 Page 3 of 25

of fair share fees from nonmembers, including plaintiffs.
In particular, Article 3, Section 3 of the CBA, which was effective from
July 1, 2016 through June 30, 2019, provided:
The Employer further agrees to deduct a fair share fee from all
compensation paid to all employees in the bargaining unit who
are not members of the Union. Authorization from non-members
to deduct fair share fees shall not be required. The amounts to be
deducted shall be certified to the Employer by the Union and the
aggregate deductions of all employees shall be remitted together
with an itemized statement to the Union by the last day of the
succeeding month after such deductions are made.
Thus, under the CBA, prior to June 27, 2018, all employees in the
collective bargaining units who were represented by SEIU and who were not
union members, such as plaintiffs, were forced to pay “fair-share fees” to
SEIU as a condition of their public employment. Plaintiffs further allege that
before June 27, 2018, government employers covered by the CBA “deducted
fair share fees from Plaintiffs’ and other nonmembers’ wages without their
consent and, ..., transferred those funds to SEIU, which collected those
funds.” Plaintiffs also allege that “[a]s of 2018, agency fees were assessed by
SEIU at 0.85% of an employee’s gross income; union member paid dues of
1.39% of gross income.”
As such, plaintiffs aver that “SEIU should have known that its seizure
of fair share fees from non-consenting employees likely violated the First

43 Pa.Stat.Ann. §§1101.101 et seq., “delineates the [Pennsylvania Labor
Relations Board’s] authority with regard to public employers”, such as the
Commonwealth, but the PERA does not contain any provision that gives the
PLRB authority to enforce 71 Pa.Stat.Ann. §575. Id. at 382 (citation omitted).
3

Case 1:19-cv-01367-MEM Document 33 Filed 12/10/19 Page 4 of 25

Amendment.”
Plaintiffs also seek to bring this case as a class action under
Fed.R.Civ.P. 23(b)(3) for themselves and for all others similarly situated. They
define the proposed class as “all current and former employees from whom
SEIU collected fair share fees pursuant to its collective bargaining agreement
with the Commonwealth of Pennsylvania.”
Plaintiffs raise one claim in their FAC, namely, a First Amendment claim.
Specifically, plaintiffs allege that “SEIU violated [their] and class members’
First Amendment rights to free speech and association, as secured against
state infringement by the Fourteenth Amendment to the United States
Constitution and 42 U.S.C. §1983, by requiring the payment of fair share fees
as a condition of employment and by collecting such fees.”
As relief, plaintiffs request declaratory judgment, pursuant to 28 U.S.C.
§2201(a), “declaring that SEIU violated Plaintiffs’ and class members’
constitutional rights by compelling them to pay fair share fees as a condition
of their employment and by collecting fair-share fees from them without
consent.” Additionally, plaintiffs seek monetary damages “in the full amount
of fair share fees and assessments seized from their wages”, as well as costs
and attorneys’ fees under 42 U.S.C. §1988.
Plaintiffs are proceeding on her FAC filed on October 28, 2019. (Doc.
19). On November 5, 2019, SEIU filed its motion to dismiss plaintiffs’ FAC,
(Doc. 25), and its brief in support, (Doc. 26). On November 19, 2019, plaintiffs
filed their brief in opposition. (Doc. 31). SEIU filed its reply brief on December
4

Case 1:19-cv-01367-MEM Document 33 Filed 12/10/19 Page 5 of 25

3, 2019. (Doc. 32).
The court has jurisdiction over this case pursuant to 28 U.S.C. §1331
and 28 U.S.C. §1343(a) because plaintiffs aver a violation of their rights under
the U.S. Constitution. Venue is appropriate in this court since the parties are
located in this district and the alleged constitutional violations occurred in this
district. See 28 U.S.C. §1391.

II.

DISCUSSION
Plaintiffs instituted this case after the Supreme Court decided Janus.3

Plaintiffs are state employees who, before Janus, were required to pay
fair-share fees to SEIU for collective bargaining representation.4 Specifically,
the CBA contained a fair share fee provision which required plaintiffs to pay
fair-fair share fees to SEIU. However, after the Janus decision SEIU stopped
receiving fair-share fees from non-members, including plaintiffs. In this action,
plaintiffs seek SEIU to repay themselves, as well as a putative class of all
non-union state employees, all the fair-share fees that the union received prior
to Janus.
As a backdrop, prior to Janus, unions representing government
employees could use “agency shop” clauses in collective bargaining

3

Janus v. American Federation of State, County, and Municipal
Employees, Council 31, — U.S. —, 138 S. Ct. 2448 (2018).
4

Fair share fees are charges non-union member employees had to pay
unions prior to Janus to finance the union’s collective bargaining activities.
See Diamond, 399 F.Supp.3d at 370.
5

Case 1:19-cv-01367-MEM Document 33 Filed 12/10/19 Page 6 of 25

agreements “which required every employee represented by a union, even
those who declined to become union members for political or religious
reasons, to pay union dues.” Diamond, 399 F.Supp.3d at 370-71. In Abood
v. Detroit Board of Education, 431 U.S. 209, 97 S.Ct. 1782 (1977), the
Supreme Court “held that the charges were constitutional to the extent they
were

used

to

finance

the

union’s

collective-bargaining,

contract-administration, and grievance activities.” Id. at 370. “[T]he Court [in
Abood] also concluded that the agency-shop clause and fees were
unconstitutional insofar as the clause compelled non-member teachers to pay
fees to the union that supported the union’s political activities.” Id.
In accordance with Abood, Pennsylvania enacted its own
agency-shop statute for public employees in 1988, 71 Pa. Stat.
§575. According to Section 575, if mandated by the provisions of
a collective-bargaining agreement, non-members of
public-employee unions must pay fair-share fees to the unions. Id.
§575(b). These fees consist of the regular union-membership
dues less “the cost for the previous fiscal year of [the unions’]
activities or undertakings which were not reasonably employed to
implement or effectuate the duties of the employee organization
as exclusive representative.” Id. §575(a).
Id. at 371.
Thus, prior to Janus, Pennsylvania law expressly allowed a labor union
which was the representative of a bargaining unit of public employees to
collect fair share fees from the employees who were members of the
bargaining unit but who did not join the union, as a condition of their
employment. See 71 P.S.A. §575; 43 P.S.A. §1102.3. Further, based on
Abood, “the general propriety of the fair-share fees permitted under Section
6

Case 1:19-cv-01367-MEM Document 33 Filed 12/10/19 Page 7 of 25

575 withstood constitutional scrutiny for many years.” Diamond, 399
F.Supp.3d at 370. Id. (string citations omitted).
In Janus, the Supreme Court overruled Abood, and held that “a state
law requiring non-union-member public employees to pay fees to the union
to compensate the union for costs incurred in the collective-bargaining
process” was unconstitutional. Id. at 372. Thus, the Court in Janus, 138 S. Ct.
at 2486, held that “States and public-sector unions may no longer extract
agency fees from nonconsenting employees.” Id. Further, the Court held that
“[n]either an agency fee nor any other payment to the union may be deducted
from a non[-]member’s wages, nor may any other attempt be made to collect
such a payment, unless the employee affirmatively consents to pay.” Id. See
also Babb v. California Teachers Association, 378 F.Supp.3d 857, 867
(C.D.Ca. 2019) (In Janus, the Supreme Court “overruled Abood [ ] and its
progeny, holding that no form of payment to a union, including agency fees,
can be deducted or attempted to be collected from an employee without the
employee’s affirmative consent.”) (citing Janus, 138 S.Ct. at 2486).
Additionally, the Supreme Court in Janus, 138 S.Ct. at 2459, 2486, held
that it was a violation of the First Amendment for public sector unions to
require non-members to pay fair share fees as a condition of public
employment. Following Janus, Pennsylvania’s statute allowing the collection
of “fair share” fees from non-members by unions is no longer enforceable.
See Hartnett v. Pennsylvania State Education Association, 390 F.Supp.3d
600 (M.D.Pa. May 17, 2019). In Diamond, 399 F.Supp.3d at 385, the court
7

Case 1:19-cv-01367-MEM Document 33 Filed 12/10/19 Page 8 of 25

held that the issue of “whether Union Defendants could constitutionally collect
fair-share fees from Plaintiffs pursuant to Section 575” “was mooted by the
intervening

Janus

decision,

which

held

that

fair-share

fees

are

unconstitutional.”
Plaintiffs essentially argue that they suffered injury from the pre-Janus
agency-shop arrangements because they were forced to pay SEIU fair-share
fees as a condition of their employment with the state even though they
declined union membership. They basically contend that their constitutional
right to withhold money from the union was violated and that this inflicted an
injury upon them that can be redressed under §1983 by an award of money
damages for the violation of their First Amendment rights to free speech and
association by forcing them to pay SEIU fair-share fees as a condition of their
employment.
Plaintiffs strenuously assert that the good faith defense should not apply
to their claim for damages under §1983 since they contend it is contrary to the
statute and is incompatible with the statutory basis for qualified immunity.
SEIU contends that it is entitled to assert a good faith defense to
plaintiffs’ §1983 claim seeking retrospective monetary relief for their payments
of the fair-share fees based on “Pennsylvania statute and then-controlling and
directly on-point United States Supreme Court precedent that expressly
authorized fair-share fees.”5 There is no dispute that before Janus the

5

In their FAC, plaintiffs allege that SEIU “acted under color of state law
and in concert with [Pennsylvania] when it compelled [them] to pay fair share
8

Case 1:19-cv-01367-MEM Document 33 Filed 12/10/19 Page 9 of 25

collection of fair-share fees by SEIU was permitted by Pennsylvania law as
well as by the Supreme Court which repeatedly held that fair-share fees were
constitutional and that public employees who were non-union members could
be compelled to pay such fees that financed the union’s collective bargaining
activities. Abood, 431 U.S. at 225. Thus, requiring non-union member public
employees to pay fair-share fees as a condition of their public employment
was undoubtedly deemed constitutional in Abood, 431 U.S. at 232. As such,
SEIU contends that since it acted “in good-faith reliance on presumptively
valid state laws [in collecting pre-Janus fair-share fees], [it] ha[s] a complete
defense to §1983 liability” and cannot be held retrospectively liable to plaintiffs
in this case.
SEIU points out that “[n]ineteen district courts, including this Court, and
fees.” Although SEIU does not argue in this case that it was not acting under
“color of state law”, since plaintiffs are proceeding under §1983, SEIU must
be considered a state actor. In Oliver v. Service Employees International
Union Local 668, — F.Supp.3d —, 2019 WL 5964778, *4-5 (E.D.Pa. Nov. 12,
2019), the court found that SEIU Local 668 is not a “state actor” for the
purposes of §1983 since it “is not an actor controlled by the state, is not
performing a function delegated by the state, and is not entwined with
government policies or management.” However, in Janus v. AFSCME, 942
F.3d 352, 2019 WL 5704367 (7th Cir. Nov. 5, 2019), the Seventh Circuit found
that union’s conduct amounted to state action and union was a proper
defendant under §1983 since “[the union] was a joint participant with the state
in the agency-fee arrangement”, and the state human resources department
“deducted fair-share fees from the employees’ paychecks and transferred that
money to the union.” Also, in LaSpina v. SEIU Pennsylvania State Counsel,
2019 WL 4750423 (M.D.Pa. Sept. 30, 2019), this court found that the plaintiff
sufficiently alleged that SEIU was a state actor. (citing Lugar v. Edmondson
Oil Co., Inc., 457 U.S. 922, 942 n.23, 102 S.Ct. 2744 (1982) (“the Supreme
Court held that private parties using a process established by state statute
can be considered state actors for purposes of §1983.”)). As such, the court
finds that for purposes of the instant motion SEIU is a state actor.
9

Case 1:19-cv-01367-MEM Document 33 Filed 12/10/19 Page 10 of 25

the Seventh Circuit have already rejected the same §1983 claim Plaintiffs
bring here” based on the good-faith defense.6 Despite plaintiffs’ arguments in
their brief in opposition as to why the good faith defense should not bar their
suit for damages under §1983, the court finds the many cases to which SEIU
cites persuasive and concurs with their conclusion that the good faith defense
shields the union from liability with respect to plaintiffs’ post-Janus claims for
damages under §1983.
In fact, this court noted in LaSpina, 2019 WL 4750423, at *6 n.77:
[A]lthough “statutory and contractual provisions authorizing
fair-share requirements are no longer enforceable after Janus”,
see Diamond, [399 F.Supp.3d 361] 2019 WL 2929875, at *14, the
good-faith defense would apply to relieve SPL and [SEIU] from
liability under §1983 since they reasonably relied on the
constitutionality of Pennsylvania’s fair-share fee law, §575, and
the Supreme Court’s decision in Abood which permitted such
fees. See id. at *25-29 (citing, in part, Akers, 376 F.Supp.3d at
571-72 (“explaining that the plaintiffs could assert a good-faith
defense because they complied with and relied on
presumptively-valid state law and controlling Supreme Court
precedent”; Crockett v. NEA-Alaska, 367 F. Supp. 3d 996, 1006
(D. Alaska) (“discussing the inequity of holding the union
defendants liable for pre-Janus fair-share fees when they
collected the fees in accordance with state law and then-binding
Supreme Court precedent”); Akers v. Maryland State Educ.
Assoc., 376 F.Supp. 3d 563 (D.Md. 2019).
As this court noted in LaSpina, and based on the numerous cases cited
6

Since SEIU correctly cites to the cases in its brief, (Doc. 26 at 11 n. 4),
which have held that the good-faith defense precluded recovery in §1983
actions similar to the instant case, the court does not re-cite all of the
applicable cases. See also note 9 below.
7

The plaintiff in LaSpina filed an appeal to the Third Circuit which is
currently pending.
10

Case 1:19-cv-01367-MEM Document 33 Filed 12/10/19 Page 11 of 25

herein, the court finds that SEIU can raise the good-faith defense with respect
to plaintiffs’ First Amendment claim under §1983 for the repayment of the
fair-share fees that they paid the union. As SEIU states, “Plaintiffs’ §1983
claim seeks a retrospective refund of fair-share fees collected before Janus
issued, at a time when Pennsylvania statutes and controlling U.S. Supreme
Court precedent expressly allowed the collection of such fees.” (Doc. 26 at
14-15) (citing Otto v. Pennsylvania State Educ. Association-NEA, 330 F.3d
125 (3d Cir. 2003) (“upholding statutory fair-share fee system and collective
bargaining agreement incorporating fair share fee requirement”)).
In Wyatt v. Cole, 504 U.S. 158, 159, 168, 112 S.Ct. 1827 (1992), “[t]he
Court determined that private individuals threatened with liability under §1983
cannot take advantage of the qualified immunity that protects government
officials”, but “explained that ‘principles of equality and fairness may suggest
... that private citizens who rely unsuspectingly on state laws they did not
create and may have no reason to believe are invalid should have some
protection from liability [under §1983], as do their government counterparts.’”
Diamond, 399 F.Supp.3d at 395. Subsequently, “the Third Circuit adopted the
good-faith defense for private parties [facing §1983 liability] in Jordan v. Fox,
Rothschild, O'Brien & Frankel, 20 F.3d 1250 (3d Cir. 1994). Id. at 396. In
Jordan, 20 F.3d at 1276, the Third Circuit held that “[p]rivate defendants
should not be held liable under §1983 absent a showing of malice and
evidence that they either knew or should have known of the statute’s
constitutional infirmity.” Id. (citation omitted). Thus, despite plaintiffs’
11

Case 1:19-cv-01367-MEM Document 33 Filed 12/10/19 Page 12 of 25

contentions, the court finds that SEIU can assert a good-faith defense in this
case in which plaintiffs seek to impose liability against it for violations of their
First Amendment rights under §1983.
After examining the good-faith defense in detail, the court in Diamond
then concluded that “it was objectively reasonable for Union Defendants to
rely on Section 575 and Abood [when collecting fair-share fees from Plaintiffs]
before the Supreme Court’s decision in Janus”, id. at 398, and, thus found
that “the good-faith defense applies to Plaintiffs’ claims [under §1983] for
repayment of previously paid fair-share fees as a matter of law.” Id. at 39899.8
8

The court notes that plaintiffs also address the argument raised in
some cases that, based on Wyatt, “the good-faith defense only applies if the
most analogous common-law tort would have conferred similar immunities
when §1983 was enacted.” Diamond, 399 F.Supp. 3d at 397-98. Plaintiffs
contend that while the good faith defense has been held to “defeat the malice
and probable cause elements of a constitutional claim arising from an abuse
of judicial process”, “[the] cases did not recognize an across-the-board good
faith defense—i.e., that any defendant that relies on a statute is exempt from
paying damages under Section 1983.” Plaintiffs state that since malice and
probable cause are not elements of or defenses to their claim, i.e., “a First
Amendment compelled speech violation”, “it is irrelevant which common law
tort may be most analogous to such [a] claim[].” As such, plaintiffs contend
that their First Amendment compelled-speech claim has no common law
analogue”, and that SEIU should not be allowed to assert the good faith
defense to their claim.
Since this court, as did the court in Diamond, 399 F.Supp. 3d at 398,
“agrees with the opinions of various district courts that have determined —
when presented with indistinguishable facts — that the applicability of the
good-faith defense does not require analyzing the most analogous
common-law tort”, it does not conduct such an analysis herein. (string
citations omitted). In fact, “when the Third Circuit adopted the good-faith
defense in Jordan, the Third Circuit did not indicate whether the application
of the good-faith defense depends on an analogous common-law tort”, “[a]nd
district court cases applying Jordan have not relied on common-law-tort
12

Case 1:19-cv-01367-MEM Document 33 Filed 12/10/19 Page 13 of 25

More recently, in Oliver v. Service Employees International Union Local
668, — F.Supp.3d —, 2019 WL 5964778 (E.D.Pa. Nov. 12, 2019), the court
considered a case similar to the present case. In Oliver, plaintiff was an
employee of the Pennsylvania Department of Human Services working as an
Income Maintenance Caseworker and she was represented in collective
bargaining by SEIU Local 668. When plaintiff's was hired, there existed a CBA
between Local 668 and the Commonwealth. Plaintiff was told that she could
“either enroll in Local 668 as a member and have full membership dues
deducted regularly from her pay, or decline membership and contribute a
reduced amount in the form of agency fees.” Id. at *2. Given this choice,
plaintiff joined as a member in Local 668 and dues were deducted from her
pay. After Janus, plaintiff Oliver resigned from Local 668 and requested that
deductions from her pay for union dues cease. The deductions were then
stopped. Plaintiff then filed an action for damages against SEIU under §1983
for the dues she paid to SEIU from the beginning of her employment through
her resignation. Plaintiff also sought “a declaratory judgment that certain
provisions of Pennsylvania’s Public Employee Relations Act (PERA) are
unconstitutional as applied to her.” Id. at *1.
The court in Oliver, id. at *4, found that “Local 668 is not a ‘state actor’
for the purposes of §1983”, and that “[e]ven if there were sufficient state
action to permit a §1983 suit against the Union to proceed, Local 668 would
nonetheless prevail based upon its good-faith belief that it was complying with
analogs.” Id. (string citations omitted).
13

Case 1:19-cv-01367-MEM Document 33 Filed 12/10/19 Page 14 of 25

statutory and constitutional law prior to Janus.” Id. at *7. The court indicated
that “[n]umerous federal courts have held that good-faith reliance on prior
precedent defeats refund claims brought in the aftermath of Janus.” Id.9
The court in Oliver, id. at *7, then explained that “[t]he Third Circuit, ...,
has found that ‘private defendants should not be held liable under §1983
absent a showing of malice and evidence that they either knew or should
have known of the statute’s constitutional infirmity.’” (citing Jordan, 20 F.3d
at 1274 n. 29). Thus, the court in Oliver, id., concluded that since “Plaintiff
would need to prove that [SEIU] had a ‘subjective’ understanding that it was
violating her rights or displayed ‘gross negligence’ in maintaining a belief that
9

The court in Oliver, 2019 WL 5964778, *7 n. 13, cited to the following
cases to support its finding that the good faith defense precluded plaintiff’s
§1983 case against SEIU:
Janus v. AFSCME, 942 F.3d 352 (7th Cir. Nov. 5, 2019); Danielson v.
AFSCME Council 28, 340 F. Supp. 3d 1083, 1086 (W.D. Wash. 2018);
Carey v. Inslee, 364 F. Supp. 3d 1220, 1232 (W.D. Wash. 2019); Cook
v. Brown, 364 F. Supp. 3d 1184, 1193 (D. Or. 2019); Crockett v.
NEA-Alaska, 367 F. Supp. 3d 996, 1006 (D. Alaska 2019); Hough v.
SEIU Local 521, 2019 WL 1274528 at *1 (N.D. Cal. Mar. 20, 2019),
amended, 2019 WL 1785414 (N.D. Cal. Apr. 16, 2019); Lee v. Ohio
Educ. Ass’n, 366 F. Supp. 3d 980, 981 (N.D. Ohio 2019); Mooney v.
Illinois Educ. Ass’n, 372 F. Supp. 3d 690, 706 (C.D. Ill. 2019);
Bermudez v. SEIU Local 521, 2019 WL 1615414 at *1 (N.D. Cal. Apr.
16, 2019); Akers v. Maryland Educ. Ass’n, 376 F. Supp. 3d 563, 572 (D.
Md. 2019); Wholean v. CSEA SEIU Local 2001, 2019 WL 1873021 at
*3 (D. Conn. Apr. 26, 2019); Babb, 378 F. Supp. 3d at 870; Hernandez
v. AFSCME Cal., 386 F. Supp. 3d 1300, 1304 (E.D. Cal. 2019) (since
unions had authorization from the Supreme Court and state statute, the
unions that followed the previously valid law were “entitled to the
good-faith defense as a matter of law.”); Diamond v. Pa. State Educ.
Ass’n, 399 F.Supp.3d 361, ––––, 2019 WL 2929875 at *29 (W.D. Pa.
2019); Ogle v. Ohio Civil Svc. Employees Ass’n, AFSCME, Local 11,
397 F. Supp. 3d 1076, 1087-88 (S.D. Ohio 2019).
14

Case 1:19-cv-01367-MEM Document 33 Filed 12/10/19 Page 15 of 25

its conduct was lawful”, “Plaintiff will not be able to do so” because “[t]he
CBA’s agency shop provisions were lawful under PERA, and ..., were
sanctioned by the Supreme Court in Abood.” (internal citations omitted). The
court also noted that since the CBA’s agency shop provisions “had been
considered and upheld by the Supreme Court multiple times after Abood,
including most recently in Harris v. Quinn, 573 U.S. 616, 134 S.Ct. 2618
(2014)”, and since “Janus was decided by a five-to-four majority, with a
powerful dissent grounded in the doctrine of stare decisis”, “it would be
unreasonable to hold that [SEIU] should have known of the constitutional
infirmity of agency shop provisions.”
In the instant case, although plaintiffs allege in their FAC that “SEIU
should have known that its seizure of fair share fees from non-consenting
employees likely violated the First Amendment”, (Doc. 19 at ¶13), pre-Janus,
the law was clear that “[t]he CBA’s agency shop provisions were lawful under
PERA”, and were authorized by Abood. Oliver, id. at *7. As such, under the
Third Circuit’s standard, plaintiffs cannot defeat SEIU’s good faith defense in
this case.
In fact, plaintiffs recognize that very recently the Seventh Circuit in
Janus v. AFSCME, 942 F.3d 352, 2019 WL 5704367 (7th Cir. Nov. 5, 2019)
(“Janus III”), issued the first appellate opinion on point with their case, i.e., to
decide “whether a union may raise [the good faith defense] against its liability
for the fair-share fees it collected before Janus [].” In Janus III, plaintiff was
an Illinois State employee who was not a member of the union and he filed a
15

Case 1:19-cv-01367-MEM Document 33 Filed 12/10/19 Page 16 of 25

§1983 action, after the Supreme Court decided his previous case in Janus,
against the union seeking to recover the fair-share fees he was required to
pay to the union. The Seventh Circuit found that the good faith defense
precluded the state employee’s claim for monetary damages for alleged past
violations of his First Amendment rights. The Seventh Circuit stated that
“every federal appellate court to have decided the question has held that,
while a private party acting under color of state law does not enjoy qualified
immunity from suit, it is entitled to raise a good-faith defense to liability under
section 1983.” Janus III, 942 F.3d at 362 (citations omitted). The Seventh
Circuit included the Third Circuit’s decision in Jordan, 20 F.3d at 1275-78, as
a case that supported the union’s ability to assert a good-faith defense to
§1983 liability.
After the Seventh Circuit “recogniz[ed] that, under appropriate
circumstances, a private party that acts under color of law for purposes of
section 1983 may defend on the ground that it proceeded in good faith”, the
court then considered the question of whether the good faith defense was
available to the union with respect to plaintiff’s First Amendment claim seeking
to hold it liable for the fair-share fees the union collected from him before
Janus. The Seventh Circuit recognized “a good-faith defense in section 1983
actions when the defendant reasonably relies on established law.”Janus III,
942 F.3d at 366. The Court then held that although “the good-faith defense
to section 1983 liability is narrow”, “[u]ntil [the Supreme Court in Janus] said
otherwise, [the union] had a legal right to receive and spend fair-share fees
16

Case 1:19-cv-01367-MEM Document 33 Filed 12/10/19 Page 17 of 25

collected from nonmembers as long as it complied with state law and the
Abood line of cases.” Id. The Court also found that “the union did not
demonstrate bad faith when it followed these rules.” Id.
This court finds the Seventh Circuit’s decision in Janus III compelling
and concurs with it. As such, since SEIU “relied substantially and in good faith
on both a [PA] state statute and unambiguous Supreme Court precedent
[Abood] validating that statute”, id. at 367(emphasis original), SEIU can assert
the good faith defense to plaintiffs’ First Amendment claim seeking to hold it
liable under §1983.
Plaintiffs also argue that the Supreme Court’s decision in Janus is
retroactive under Harper v. Va. Dep’t of Taxation, 509 U.S. 86, 97 (1993), and
Reynoldsville Casket Co. v. Hyde, 514 U.S. 749, 752 (1995), and that the
good faith defense is incompatible with the retroactivity principles under
Reynoldsville Casket. Plaintiffs further contend that even if SEIU could raise
the good faith defense to their claims under §1983, SEIU knew or should have
known, based on Harper, that a later Supreme Court decision holding the
collection of agency fees to be unconstitutional would be retroactive and thus,
SEIU had no reasonable basis for believing it could keep their money if the
Supreme Court held those fees to be unconstitutional.
No doubt that “when the Supreme Court applies a new rule of federal
law to the parties before it, other courts must apply that decision
retroactively.” Diamond 399 F.Supp. 3d at 395 (citing Harper v. Va. Dep’t of
Taxation, 509 U.S. 86, 90, 97, 113 S.Ct. 2510 (1993)). In Diamond, id. at 396,
17

Case 1:19-cv-01367-MEM Document 33 Filed 12/10/19 Page 18 of 25

the court found that “Harper’s retroactivity rule applies to Janus” since “Janus
overruled ‘clear past precedent’ (Abood), announced a new rule regarding the
unconstitutionality of fair-share fees, and applied that rule to the case by
reversing the Seventh Circuit’s dismissal of the plaintiffs’ complaint.” (citing
Janus, 138 S.Ct. at 2460, 2462). The court in Diamond, id. at 396, then
concluded that since “a court may find ‘a previously existing, independent
legal basis (having nothing to do with retroactivity) for denying [retroactive]
relief’, “there is an independent legal basis in this case for otherwise denying
retroactive relief: the good-faith defense available to private parties [i.e., the
state teacher’s union] who are sued under §1983.” (citing Jordan, 20 F.3d at
1276).
In the instant case, the court concurs with the rationale and conclusion
in Diamond, id. at 395-96, and finds that although “Harper’s retroactivity rule
applies to Janus”, “the good-faith defense to §1983 liability for damages
provides an independent legal basis” for precluding plaintiffs’ claim for
retroactive relief from SEIU.
Moreover, in Janus III, 942 F.3d at 359, the Seventh Circuit considered
the retroactivity argument and pointed out that if Janus is not retroactive, “that
is the end of the line for [plaintiff], because the union’s collection of fair-share
fees was expressly permitted by state law and Supreme Court precedent from
the time he started his covered work until the Court’s decision [in Janus].” In
Janus III, id., the Seventh Circuit also stated that “the Supreme Court’s
opinion [in Janus] did not address retroactivity in so many words.” The
18

Case 1:19-cv-01367-MEM Document 33 Filed 12/10/19 Page 19 of 25

Seventh Circuit further noted that in decisions after Reynoldsville Casket and
Harper, the Supreme Court “has stated that the ‘general practice is to apply
the rule of law we announce in a case to the parties before us ... even when
we overrule a case.’” Id. at 360 (citing Agostini v. Felton, 521 U.S. 203, 237,
117 S.Ct. 1997 (1997). The Seventh Circuit, also recognized that “retroactivity
and remedy are distinct questions” and, that “the Supreme Court has
acknowledged that the retroactive application of a new rule of law does not
‘deprive[ ] respondents of their opportunity to raise ... reliance interests
entitled to consideration in determining the nature of the remedy that must be
provided.’” Id. at 362 (quoting James B. Beam Distilling Co. v. Georgia, 501
U.S. 529, 544, 111 S.Ct. 2439 (1991)).
In any event, since it is not clear if the Supreme Court’s decision in
Janus is to be applied retroactively, as in Janus III, the court finds that the
retroactivity issue does not need to be decided in this case. Rather, similar to
Janus III, the court has addressed the “broader question whether [plaintiffs]
[are] entitled to the remedy [they] seek[]”, and whether the union can assert
the good-faith defense to §1983 liability in this case. Id. at 360-61.
Another recent case also supports SEIU’s assertion of the good-faith
defense to plaintiffs’ claims under §1983. In Hamidi v. Service Employees
International Union Local 1000, 2019 WL 5536324, *2 (E.D.Cal. Oct. 25,
2019), the court stated that “[t]he Supreme Court in Janus ‘itself did not
specify whether the plaintiff was entitled to retrospective monetary relief for
conduct the Supreme Court had authorized for the previous forty years.’”
19

Case 1:19-cv-01367-MEM Document 33 Filed 12/10/19 Page 20 of 25

(citing Cooley v. California Statewide Law Enf’t Ass’n, 385 F. Supp. 3d 1077,
1081 (E.D.Cal. 2019) (citing Janus, 138 S. Ct. at 2486)). However, the court
in Hamidi noted that “the controlling law in the Ninth Circuit”, similar to the
controlling law in the Third Circuit, see Jordan, 20 F.3d at 1275-78,
“recognizes a good faith defense in shielding private defendants from liability
in §1983 actions.” Id. The court in Hamidi, id. at *3, then concurred with “every
district court to consider whether unions that collected agency fees prior to
Janus have a good-faith defense to §1983 liability [that] have answered in the
affirmative”, and stated the standard was, “in the agency fee context, a
union’s compliance with then-existing law indeed suffices to find good faith.”
Thus, the court held that since the union’s “compliance with what was then
the law is sufficient for a finding of good faith”, the union could avail itself of
the good faith defense to §1983 liability for fair share fees collected before the
Supreme Court’s decision in Janus. Id. at *4.
In short, this court concurs with the numerous cases which have found
that unions, such as SEIU, that collected fair-share fees from nonmembers
prior to Janus, and pursuant to state law and Abood, can assert the good-faith
defense to §1983 liability for the First Amendment claims raised by plaintiffs.
Thus, the court will grant SEIU’s motion and dismiss with prejudice
plaintiffs’ First Amendment claims seeking to hold the union retrospectively
liable under §1983. Based on the foregoing, the court finds futility in allowing
plaintiffs leave to file a second amended complaint. See Janus, III, supra;
Diamond, supra; Babb, 378 F.Supp. 3d at 872 (“[E]very district court to
20

Case 1:19-cv-01367-MEM Document 33 Filed 12/10/19 Page 21 of 25

consider whether unions that collected agency fees prior to Janus have a
good-faith defense to §1983 liability [has] answered in the affirmative.”)
(citations omitted).
Plaintiffs next contend that even if SEIU acted in good faith in receiving
fair-share fees, it could not have a good faith belief that if Abood was
overruled, it could keep the fair-share fees that it previously collected. Thus,
plaintiffs assert that they have an equitable claim for the return of the fairshare fees SEIU collected from them before Janus. SEIU counters that
plaintiffs have no equitable claim for the return of the fees they paid prior to
Janus.
Last month, the Seventh Circuit in Mooney v. Illinois Education
Association, 942 F.3d 368, 370-71 (7th Cir. 2019), considered a similar
contention and stated:
[Plaintiff] believes that even if she concedes that a good-faith
defense protects the union against a damages award, an
equitable demand for restitution cannot be defeated on good-faith
grounds. She argues that there is nothing unfair about requiring
the union to return monies that, according to Janus, should never
have been deducted from her paychecks in the first place. In fact,
she concludes, the union would receive a windfall based on its
violations of her constitutional rights if no restitution were ordered.
In explaining that although §1983 allows for remedies at law or in equity
and that “the district court has discretion to tailor an appropriate remedy for
the constitutional violation”, the Seventh Circuit in Mooney, id. at 370, found
that plaintiff’s claim was a legal claim and not an equitable claim. In Mooney,
id., the union argued that plaintiff’s suit was “one for damages flowing from a

21

Case 1:19-cv-01367-MEM Document 33 Filed 12/10/19 Page 22 of 25

First Amendment violation”, and that “[t]he gravamen of [plaintiff’s] complaint
is that her First Amendment rights were violated by the fair-share requirement
because she was compelled to furnish financial support to union activities with
which she disagreed.” The Seventh Circuit in Mooney agreed with the
analysis of the district court which found that “Plaintiff’s claim lies in law rather
than equity, and there is consequently no reason to consider whether the
good-faith defense applies where the claim is for equitable restitution.” Id. The
Seventh Circuit then stated that since plaintiff failed to “point to an identifiable
fund and show that her fees specifically are still in the union’s possession”,
‘[h]er claim is against the general assets of the union, held in its treasury, and
can only be characterized as legal.” Id. at 371.
SEIU points out that in the present case, “plaintiffs do not have a viable
claim for equitable relief because fair-share fees already paid for collective
bargaining representation that Local 668 provided to the entire unit.” (citing
Babb v. California Teachers Ass’n, 378 F. Supp. 3d 857 (C.D.Cal. 2019).
SEIU also states that plaintiffs have already received benefits from their
collective bargaining representation which was paid for by the fair-share fees
they paid and that “it would be inequitable for force [it] to repay plaintiffs’
agency fees.” (quoting Babb, 378 F.Supp.3d at 876).
As in Mooney, 942 F.3d at 371, the plaintiffs’ claim in this case is one
for damages and is “against the general assets of the union, held in its
treasury”, and thus, “can only be characterized as legal.” (citing Montanile v.
Bd. of Trustees of Nat. Elevator Indust. Health Benefit Plan, ––– U.S. ––––,
22

Case 1:19-cv-01367-MEM Document 33 Filed 12/10/19 Page 23 of 25

136 S. Ct. 651, 658 (2016) (“Where a plaintiff seeks ‘recovery from the
beneficiaries’ assets generally’ because her specific property has dissipated
or is otherwise no longer traceable, the claim ‘is a legal remedy, not an
equitable one.’”) (emphasis in original) (internal quotation marks omitted)).
Finally, in Diamond, 399 F.Supp. 3d at 385, 389, the court also held
that plaintiffs’ claims for declarative and injunctive relief with respect to fairshare fees were moot based on the Janus decision and union defendants’
compliance with it. (citing collection of cases). See also Hartnett, 390
F.Supp.3d at 600-02 (court found claims for declaratory and injunctive relief
moot post-Janus since “[p]laintiffs face no realistic possibility that they will be
subject to the unlawful collection of ‘fair share’ fees”). Declaratory judgment
is not meant to adjudicate alleged past unlawful activity. There is no
question that a plaintiff can request declaratory relief to remedy alleged
ongoing violations of her constitutional rights. See Blakeney v. Marsico, 340
Fed.Appx. 778, 780 (3d Cir. 2009)(Third Circuit held that to satisfy the
standing requirement of Article III, a party seeking declaratory relief must
allege that there is a substantial likelihood that he will suffer harm in the
future)(citations omitted).
The court concurs with the courts in Diamond and Hartnett, and holds
that our plaintiffs’ claim for declarative judgment is moot based on Janus and,
based on the undisputed fact that SEIU stopped collecting fair-share fees
from state non-union member employees, including plaintiffs, following the
Janus decision. See also Oliver, 2019 WL 5964778, *7 (holding “Plaintiff's
23

Case 1:19-cv-01367-MEM Document 33 Filed 12/10/19 Page 24 of 25

claims for declaratory and injunctive relief regarding the application of 43 P.S.
§§1101.301(18), 1101.401, and 1101.705 suffers from lack of standing and
mootness.”).
Also, as in Diamond, 399 F.Supp. 3d at 391-93, the court find that the
voluntary-cessation exception to the mootness doctrine does not apply in this
case since “[t]he circumstances of this case make it clear that the
undisputedly wrongful behavior — the collection of fair-share fees — is not
reasonably likely to recur [after Janus’s changing of the law and the reason
that SEIU stopped collecting fair-share fees from public employees in
Pennsylvania].” Indeed, “[c]omplying with a Supreme Court decision cannot
be considered ‘voluntary cessation.’” Id. (citing Lamberty v. Conn. State Police
Union, 2018 WL 5115559, at *9 (D.Conn. Oct. 19, 2018) (“explaining that
there was ‘nothing voluntary’ about the union’s decision to comply with Janus,
as Janus ‘announced a broad rule invalidating every state law permitting
agency fees to be withheld’”). As such, “compliance with an intervening
Supreme Court decision does not implicate the voluntary-cessation exception
to the mootness doctrine.” Id., at 392.
Thus, the court will grant SEIU’s motion and dismiss with prejudice
plaintiffs’ request for declaratory judgment under 28 U.S.C. §2201.

III.

CONCLUSION
Based on the foregoing reasons, the court will GRANT the Rule 12(b)(6)

24

Case 1:19-cv-01367-MEM Document 33 Filed 12/10/19 Page 25 of 25

motion to dismiss plaintiffs’ FAC, (Doc. 19), filed by SEIU, (Doc. 25), and
plaintiffs’ First Amendment claims and request for declaratory judgment shall
be DISMISSED WITH PREJUDICE. Further, this case will be CLOSED. An
appropriate order shall issue.

s/ Malachy E. Mannion
MALACHY E. MANNION
United States District Judge
Date: December 10, 2019
19-1367-01.wpd

25

APPENDIX C

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 1 of 67

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA
ARTHUR DIAMOND, on behalf of himself )
and others similarly situated, et al.,
)

Case No. 3:18-cv-128

)

Plaintiffs,

)

JUDGE KIM R. GIBSON

)

)

~

)

PENNSYLVANIA STATE EDUCATION
ASSOCIATION, et al.,

)
)
)

Defendants.

)
MEMORANDUM OPINION

I.

Introduction

Plaintiffs Arthur Diamond, Justin Barry, Douglas R. Kase, Jeffrey Schwartz, Matthew
Shively, Matthew Simkins, and Sandra H. Ziegler (collectively, "Plaintiffs") bring this purported
class-action lawsuit against the Pennsylvania State Education Association, the Chestnut Ridge
Education Association, and the National Education Association (collectively, "Union
Defendants"), as well as Pennsylvania Attorney General Josh Shapiro, Chairman of the
Pennsylvania Labor Relations Board James M. Darby, Members of the Pennsylvania Labor
Relations Board Albert Mezzaroba and Robert H. Shoop, Jr., and Bedford County, Pennsylvania,
District Attorney Lesley Childers-Potts (collectively, "Commonwealth Defendants"). Plaintiffs,
who are all current or retired Pennsylvania public-school teachers, allege that Union Defendants
violated Plaintiffs' constitutional rights by forcing Plaintiffs to pay fees to unions as a condition
of their employment ("fair-share fees") under 71 Pa. Stat. § 575 ("Section 575"), even though
Plaintiffs chose not to join the Pennsylvania State Education Association or its affiliate unions.

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 2 of 67

Plaintiffs also claim that Commonwealth Defendants, who are charged in various ways with
enforcing Pennsylvania's laws, must be enjoined from enforcing Section 575 in an
unconstitutional manner. The outcome of this case turns in significant part on the application of
]anus v. American Federation of State, County, and Municipal Employees, Council 31, 138 S. Ct. 2448
(2018), which was decided by the Supreme Court on June 27, 2018, less than two weeks after
Plaintiffs filed their original Complaint in this matter. (See ECF No.1.)
Pending before the Court are two Motions to Dismiss filed by Commonwealth Defendants
and Union Defendants. (ECF Nos. 38, 40.) These Motions have been fully briefed (ECF Nos. 38,
39, 40, 41, 48, 51) and are now ripe for disposition.
For the reasons that follow, this Court will GRANT Defendants' Motions to Dismiss (ECF
Nos. 38, 40).

II.

Venue1
Because a substantial part of the events giving rise to Plaintiffs' claims occurred in the

Western District of Pennsylvania, venue is proper in this District pursuant to 28 U.S.C.

§ 1391(b)(2).

III.

Background
A. Background on the Constitutionality of Fair-Share Fees
Before discussing Plaintiffs' claims, the Court will briefly describe the law on the

constitutionality of fair-share fees.

1

Issues with subject-matter jurisdiction are discussed in Section V.

2

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 3 of 67

1. Abood v. Detroit Board of Education

In 1977, the Supreme Court issued a decision in Abood v. Detroit Board of Education, 431
U.S. 209 (1977).

In Abood, the Court confronted a Michigan statute that allowed unions

representing local-government employees to utilize "agency-shop" clauses in collectivebargaining agreements. Id. at 211. These clauses required every employee represented by a
union, even those who declined to become union members for political or religious reasons, to
pay union dues. Id. at 212. Pursuant to this statute, a union that represented teachers employed
by the Detroit Board of Education (the "Board") entered into a collective-bargaining agreement
with the Board that required non-union-member teachers to pay a charge to the union equal to
the regular dues paid by union members. Id. The non-member teachers sued, alleging that the
charges paid under the agency-shop clause were used to support political activities, as opposed
to simply being used to defray the costs of the union's collective-bargaining activities, and that
the clause thus violated the teachers' First Amendment rights. Id. at 213.
The Court held that the charges were constitutional to the extent they were used to finance
the union's collective-bargaining, contract-administration, and grievance activities. Id. at 225.
The Court explained:
A union-shop arrangement has been thought to distribute fairly the cost of
[collective-bargaining] activities among those who benefit, and it counteracts the
incentive that employees might otherwise have to become 'free riders' to refuse to
contribute to the union while obtaining benefits of union representation that
necessarily accrue to all employees.
Id. at 221-22. Furthermore, the Court reasoned that agency-shop arrangements promote what

later case law has dubbed "labor peace." Janus, 138 S. Ct. at 2465. The Court explained that
designating one union as the exclusive representative of a group of employees "frees the
3

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 4 of 67

employer from the possibility of facing conflicting demands from different unions, and permits
the employer and a single union to reach agreements and settlements that are not subject to attack
from rival labor organizations." Abood, 431 U.S. at 221.
However, the Court also concluded that the agency-shop clause and fees were
unconstitutional insofar as the clause compelled non-member teachers to pay fees to the union
that supported the union's political activities. Id. at 234-36. Writing for the majority, Justice
Stewart explained that "at the heart of the First Amendment is the notion that an individual
should be free to believe as he will, and that in a free society one's beliefs should be shaped by
his mind and his conscience, rather than coerced by the State." Id. at 234-35. Based on these First
Amendment principles, the Court held that the Constitution prohibited the union from requiring
a non-member "to contribute to the support of an ideological cause he may oppose as a condition
of holding a job as a public school teacher." Id. at 235. The Court elaborated:
We do not hold that a union cannot constitutionally spend funds for the expression
of political views, on behalf of political candidates, or toward the advancement of
other ideological causes not germane to its duties as collective-bargaining
representative. Rather, the Constitution requires only that such expenditures be
financed from charges, dues, or assessments paid by employees who do not object
to advancing those ideas and who are not coerced into doing so against their will
by the threat of loss of governmental employment.

Id. at 235-36.
2. 71 Pa. Stat. § 575

In accordance with Abood, Pennsylvania enacted its own agency-shop statute for public
employees in 1988, 71 Pa. Stat. § 575. According to Section 575, if mandated by the provisions of
a collective-bargaining agreement, non-members of public-employee unions must pay fair-share
fees to the unions. Id. § 575(b ). These fees consist of the regular union-membership dues less "the
4

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 5 of 67

cost for the previous fiscal year of [the unions'] activities or undertakings which were not
reasonably employed to implement or effectuate the duties of the employe organization as
exclusive representative." Id. § 575(a).
Section 575 also contains provisions (1) indicating how the public employer is to deduct
the fair-share fees from non-members' paychecks, (2) describing union notice obligations to nonmembers, and (3) providing procedures for non-members to challenge the propriety of fair-share
fees or the payment of fair-share fees on religious grounds. Id. § 575(c)-(h). In the event of a
challenge on religious grounds, the non-member objector must pay the equivalent of the fairshare fee. ld. § 575(h). However, the union does not receive that payment-the fee goes "to a
nonreligious charity agreed upon by the non[-]member and the [union]." Id.
Finally, Section 575 contains penalty provisions.

Particularly, "[a]ny employe

organization which violates the provisions of this section or fails to file any required report or
affidavit or files a false report or affidavit shall be subject to a fine of not more than two thousand
dollars ($2,000)." Id. § 575(1). In addition, "[a]ny person who willfully violates this section, or
who makes a false statement knowing it to be false, or who knowingly fails to disclose a material
fact shall be fined not more than one thousand dollars ($1,000) or undergo imprisonment for not
more than thirty (30) days, or both." Id. § 575(m).
Consistent with Abood, the general propriety of the fair-share fees permitted under Section
575 withstood constitutional scrutiny for many years. See Hohe v. Casey, 740 F. Supp. 1092, 1094
(M.D. Pa. 1989) ("It is beyond doubt that agency shop fair-share fees, accompanied by appropriate
procedural safeguards, are constitutional." (citing Chi. Teachers Union, Local No. 1 v. Hudson, 475
U.S. 292 (1986); Ellis v. Ry. Clerks, 466 U.S. 435 (1984); Abood, 431 U.S. at 209)), vacated in part on

5

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 6 of 67

other grounds, 956 F.2d 399 (3d Cir. 1992). However, the Supreme Court slowly began to question
its holding in Abood. See Harris v. Quinn, 134 S. Ct. 2618, 2627, 2632-38 (2014); Knox v. Serv. Emps.

Int'l Union, Local 1000, 567 U.S. 298, 311 (2012) ("Acceptance of the free-rider argument as a
justification for compelling non[-]members to pay a portion of union dues represents something
of an anomaly ...."). Then, the Court overruled Abood in June 2018 in Janus. See Janus, 138 S. Ct.
at 2460. Based on Janus, the constitutionality of Section 575 is now challenged.
3. ]anus v. American Federation of State1 County1 and Municipal Employees/
Council31
In Janus, the Court dealt again with a state law requiring non-union-member public
employees to pay fees to the union to compensate the union for costs incurred in the collectivebargaining process. See id. at 2460-61. The Court held that the state law was unconstitutional. Id.
at 2478, 2486.
The Court rejected the rationale in Abood because, among other reasons, Abood's free-rider
justification did not support upholding the fees. Id. at 2469. Specifically, the Court explained:
In simple terms, the First Amendment does not permit the government to compel
a person to pay for another party's speech just because the government thinks that
the speech furthers the interests of the person who does not want to pay.

Id. at 2467.
Moreover, the Court rejected Abood's "labor peace" argument. I d. at 2465-66. The Court
explained that the Abood Court falsely assumed a close relationship between the designation of a
union as the exclusive representative of a group of employees and the fees. Id. The Court noted
that today, there are groups of public employees who are exclusively represented by one union
but who are not compelled to pay such fees. ld. at 2466. "It is [thus] now undeniable that 'labor

6

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 7 of 67

peace' can readily be achieved 'through means significantly less restrictive of associational
freedoms' than the assessment of agency fees." ld.
After concluding that the doctrine of stare decisis did not prohibit overruling Abood, the
Court held that "States and public-sector unions may no longer extract agency fees from
nonconsenting employees." ld. at 2486. "Neither an agency fee nor any other payment to the
union may be deducted from a non[-]member's wages, nor may any other attempt be made to
collect such a payment, unless the employee affirmatively consents to pay." ld.
Plaintiffs bring the present claims within this context.
B. Factual and Procedural Background2

Plaintiffs Arthur Diamond, Justin Barry, Douglas R. Kase, Jeffrey Schwartz, Matthew
Shively, and Matthew Simkins are public-school teachers in various Pennsylvania school
districts. (ECF No. 62 <JI<JI 17-22.) Plaintiff Sandra H. Ziegler is a retired public-school teacher who
taught in a Pennsylvania school district for 24 years. (Id. <JI 23.) Plaintiffs represent two distinct
classes: the "agency-fee payers" and the "religious objectors," described below. (ld. at 2.)
Plaintiffs bring this purported class-action lawsuit against the following Defendants: the
Pennsylvania State Education Association (the "PSEA"), a labor union; the Chestnut Ridge
Education Association (the "CREA"), a local union chapter affiliated with the PSEA; the National
Education Association (the "NEA"), a labor union affiliated with the PSEA; Josh Shapiro, the
attorney general of Pennsylvania, in his official capacity; James M. Darby, the chairman of the
Pennsylvania Labor Relations Board (the "PLRB"), in his official capacity; Albert Mezzaroba and

z The factual allegations are taken from Plaintiffs' Second Amended Complaint. (ECF No. 62.)

7

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 8 of 67

Robert H. Shoop, Jr., members of the PLRB, in their official capacities; and Lesley Childers-Potts,
the district attorney of Bedford County, Pennsylvania, in her official capacity and as a
representative of the class of all district attorneys in Pennsylvania with the authority to prosecute
violations of Section 575. (ld. <[<[ 11-16.)
Mr. Diamond, who represents the agency-fee-payer class, refuses to join the PSEA or its
affiliates because he disapproves of their political advocacy and the salaries paid to their
members. (Id. <[ 17.) However, the collective-bargaining agreements negotiated by the PSEA
compelled Mr. Diamond and others like him to pay a fair-share fee to the PSEA and its affiliates
as a condition of their employment. (Id. <[<[ 24-25.) Pennsylvania law authorized the PSEA and
its affiliates to extract these fair-share fees. (Id. <[ 31); see 71 Pa. Stat. § 575.
Mr. Barry, Mr. Kase, Mr. Schwartz, Mr. Shively, Mr. Simkins, and Ms. Ziegler3 represent
the second class of Plaintiffs-the religious objectors. (ECF No. 62 at 2.) These Plaintiffs refuse
to join the PSEA or its affiliates because the union advocates for policies that contradict their
religious beliefs. (Id. <[<[ 18-23.) The collective-bargaining agreements negotiated by the PSEA
compelled Plaintiffs and their fellow religious objectors to pay a fee for choosing not to join the
union. (Id. <[ 24.) Specifically, the religious-objector Plaintiffs paid the equivalent of a fair-share
fee to nonreligious charities approved by the union. (Id.) This option was available only to those
who objected to the union's activities on "bona fide religious grounds" and is also authorized by
Pennsylvania law. (Id. 1124, 31); see 71 Pa. Stat.§ 575.

Ms. Ziegler differs slightly from the other religious objectors. When she became subject to fair-share fees
and chose to be treated as a religious objector, Ms. Ziegler refused to specify a charity to which her fees
would be donated and refused to authorize the union to release the fees it had taken from her paycheck.
(ECF No. 62 'li 27.) Shortly before her retirement, Ms. Ziegler received a letter from the union informing
her that her previously paid fair-share fees were in an account waiting to be donated. (Id.)

3

8

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 9 of 67

Plaintiffs claim that Union Defendants' "compelled extraction of money from the
representative plaintiffs and their fellow class members violated their constitutional rightsregardless of whether the union kept the money for themselves or directed it toward a unionapproved charity." (ECF No. 62

1r 28.) Plaintiffs bring this class-action lawsuit under 42 U.S.C.

§ 1983 and the Declaratory Judgment Act, 28 U.S.C. § 2201. (Id. 1f 53.) Plaintiffs also bring statelaw causes of action against Union Defendants, including conversion, trespass to chattels,
replevin, unjust enrichment, and restitution. (Id. 1f 54.) Plaintiffs request that this Court:
(1) Certify plaintiff classes of agency-fee payers and religious objectors and defendant
classes of all chapters and affiliates of the PSEA and of all district attorneys in
Pennsylvania with the authority to prosecute violations of Section 575 (id. 1f 55(a)(d));
(2) Declare that Plaintiffs have a constitutional right to decline to join or financially
support a public-employee union and that they cannot be penalized or forced to
pay money to a union or third-party entity as a consequence of exercising this
constitutional right (id. 1f 55(e));
(3) Declare that all collective-bargaining agreements that compel non-union members
to pay fair-share fees violate Plaintiffs' constitutional rights (id. 1f 55(o));
(4) Declare Section 575 unconstitutional to the extent it allows public-employee
unions to extract fair-share fees from non-members' salaries without first securing
their consent (id. 1f 55(g)-(h)) and to the extent it delineates punishments for those
who refuse to join or financially support a public-employee union or pay money
to a union-approved charity (id. 1f 55(n));
(5) Declare Section 575 unconstitutional because it forces religious objectors to pay
fees to union-approved charities and penalizes them for exercising their
constitutional right not to join or financially support a union, and also because it
disqualifies religious charities from receiving a non-union member's fair-share
fees (id. '1I 55(1)-(m));
(6) Declare the objection and arbitration provisions of Section 575 unconstitutional (id.
ljf 55(i)-(k) );

9

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 10 of 67

(7) Enjoin the PSEA and its affiliates from enrolling Plaintiffs in union membership
unless the union informs them of their constitutional rights and secures a waiver
of those rights (id. 1[ 55(q));
(8) Enjoin the PSEA from entering into collective-bargaining agreements that compel
employees to pay money to a union as a condition of employment, compel
employees who decline union membership to pay money to third-party entities,
or allow a union to enroll employees in union membership without informing
them of their constitutional rights and securing a waiver (id. 1[ 55(r));
(9) Enjoin Defendants from enforcing provisions of collective-bargaining agreements
that require payment as a consequence of exercising one's constitutional right not
to join or financially support a public-employee union (id. 1[ 55(s));
(10)

Enjoin Commonwealth Defendants from enforcing Section 575 in an
unconstitutional manner (id. 1[ 55(g)-(n), (s));

(11)

Order the PSEA, NEA, and their affiliates and chapters to repay all fairshare fees they extracted from Plaintiffs, regardless of whether Union Defendants
kept those funds for themselves or diverted them to charities (id. 1[ 55(p )); and

(12)

Award costs and attorneys' fees (id. 1[ 55(t)).

Plaintiffs initiated this lawsuit on June 15, 2018, by filing their Class Action Complaint.
(ECF No. 1.) On August 20, 2018, Commonwealth Defendants and Union Defendants filed
separate Motions to Dismiss with accompanying briefs. (ECF Nos. 30, 31, 32, 33.) In response,
Plaintiffs filed a First Amended Complaint. (ECF No. 37.) Commonwealth Defendants and
Union Defendants filed new Motions to Dismiss under Federal Rules of Civil Procedure 12(b)(1)
and 12(b)(6) and briefs in support on September 19, 2018. 4 (ECF Nos. 38, 39, 40, 41.) Plaintiffs
responded with their Brief in Opposition to the Defendants' Motions to Dismiss First Amended
Complaint (ECF No. 48) on October 10, 2018. After receiving leave of court (see ECF No. 50),
Union Defendants filed a Reply Brief in Support of Motion to Dismiss First Amended Complaint

Upon receipt of the new Motions to Dismiss, the Court denied the original Motions to Dismiss as moot.
(See ECF No. 42.)

4

10

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 11 of 67

(ECF No. 51) on October 30,2018. Union Defendants also submitted two Notices of Supplemental
Authority (ECF Nos. 52, 53), directing this Court's attention to relevant cases that were decided
after Union Defendants submitted their Reply Brief.
On January 7, 2019, Plaintiffs filed a Motion for Leave to File a Second Amended ClassAction Complaint (ECF No. 58) and brief in support (ECF No. 59). After Union Defendants
opposed the Motion (ECF No. 60), the Court granted in part and denied in part Plaintiffs' Motion
on January 31, 2019. (See ECF No. 61.) Plaintiffs then filed their Second Amended Complaint
(ECF No. 62) on February 5, 2019. Per the Court's January 31, 2019, Memorandum Order, the
Court treats the Motions to Dismiss Plaintiffs' First Amended Complaint (ECF Nos. 38, 40) as
Motions to Dismiss Plaintiffs' Second Amended Complaint. (See ECF No. 61 at 5.) Since the filing
of the Second Amended Complaint, Union Defendants have filed ten Notices of Supplemental
Authority (ECF Nos. 63, 64, 65, 66, 67, 68, 69, 70, 71, 72) identifying new decisions that purportedly
support Union Defendants' position in this matter.
IV.

Standard of Review
A. Federal Rule of Civil Procedure 12(b)(l)
A motion to dismiss under Federal Rule of Civil Procedure 12(b)(1), under which a

complaint may be dismissed for lack of subject-matter jurisdiction, puts the court's "very power
to hear the case" at issue. Petruska v. Gannon Univ., 462 F.3d 294, 302 (3d Cir. 2006) (quoting

Mortensen v. First Fed. Sav. & Loan Ass'n, 549 F.2d 884, 891 (3d Cir. 1977)). There are two types of
Rule 12(b)(1) challenges: facial and factual. In re Horizon Healthcare Servs. Inc. Data Breach Litig.,
846 F.3d 625, 632-33 (3d Cir. 2017); Hartig Drug Co. Inc. v. Senju Pharm. Co. Ltd., 836 F.3d 261, 268
(3d Cir. 2016).
11

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 12 of 67

A facial challenge "attacks the complaint on its face without contesting its alleged facts."

Hartig, 836 F.3d at 268. This type of challenge is treated like a Rule 12(b)(6) motion, discussed
infra, in that the court must assume that the complaint's well-pleaded factual allegations are true.
Davis v. Wells Fargo, 824 F.3d 333, 346 (3d Cir. 2016); Hartig, 836 F.3d at 268. Facial challenges
address issues such as whether the complaint presents a question of federal law or pleads
diversity jurisdiction, and such attacks can occur before the moving party has filed an answer.

Constitution Party of Pa. v. Aichele, 757 F.3d 347, 358 (3d Cir. 2014).
In contract a factual attack "is an argument that there is no subject matter jurisdiction
because the facts of the case ... do not support the asserted jurisdiction." ld. This challenge
"allows the defendant to present competing facts," id.; see Davis, 824 F.3d at 346, and the court
does not assume that the plaintiff's allegations are true. Davis, 824 F.3d at 346. For example,
"while diversity of citizenship might have been adequately pleaded by the plaintiff, the
defendant can submit proof that, in fact diversity is lacking." Constitution Party, 757 F.3d at 358.
In order to tell the difference between a facial and factual attack, the court looks to the
stage of the proceedings: if a complaint is challenged under Rule 12(b)(1) before the defendant
answered the complaint or otherwise presented competing facts, it is a facial attack. Id; Davis, 824
F.3d at 2016.
Here, Commonwealth Defendants have not yet filed an answer or presented competing
facts; therefore, their Motion to Dismiss, to the extent it is based on Rule 12(b)(l), must be treated
as a facial attack on this Court's subject-matter jurisdiction, a conclusion with which they agree.

(See ECF No. 39 at 3.)

12

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 13 of 67

In contrast, in support of their Motion to Dismiss, Union Defendants submitted various
sworn declarations. (ECF Nos. 41-1, 41-2, 41-3, 41-4, 41-5, 41-6, 41-7.) Union Defendants seem to
assert that based on the submission of these declarations, their Motion to Dismiss under Rule
12(b)(1) must be treated as a factual attack on this Court's subject matter jurisdiction. (See ECF
No. 41 at 10 n.1 (citing Gould Elecs. v. United States, 220 F.3d 169, 176-77 (3d Cir. 2000), which
discussed treating a 12(b)(1) motion as a factual attack).) And Plaintiffs do not challenge this
assertion. Therefore, when evaluating Union Defendants' 12(b)(1) grounds for dismissal, the
Court may consider Union Defendants' affidavits.
B. Federal Rule of Civil Procedure 12(b)(6)

A complaint may be dismissed under Federal Rule of Civil Rule 12(b)(6) for "failure to
state a claim upon which relief can be granted." Connelly v. Lane Constr. Corp., 809 F.3d 780, 786
(3d Cir. 2016). But detailed pleading is not generally required. Id. The Rules demand only "a
short and plain statement of the claim showing that the pleader is entitled to relief" to give the
defendant fair notice of what the claim is and the grounds upon which it rests. Bell Atl. Corp. v.

Twombly, 550 U.S. 544, 555 (2007) (quoting Fed. R. Civ. P. 8(a)(2)).
Under the pleading regime established by Twombly and Iqbal, a court reviewing the
sufficiency of a complaint must take three steps. 5 First, the court must "tak[e] note of the elements
[the] plaintiff must plead to state a claim." Ashcroft v. Iqbal, 556 U.S. 662, 675 (2009). Second, the
court should identify allegations that, "because they are no more than conclusions, are not

Although the Supreme Court described the process as a "two-pronged approach," Ashcroft v. Iqbal, 556
U.S. 662, 679 (2009), the Court noted the elements of the pertinent claim before proceeding with that
approach, id. at 675-79. 1hus, the Third Circuit has described the process as a three-step approach. See
Connelly, 809 F.3d at 787; Burtch v. Milberg Factors, Inc., 662 F.3d 212, 221 n.4 (3d Cir. 2011) (citing Santiago
v. Warminster Twp., 629 F.3d 121, 130 (3d Cir. 2010)).

5

13

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 14 of 67

entitled to the assumption of truth." Id. at 679; see also Burtch v. Milberg Factors, Inc., 662 F.3d 212,
224 (3d Cir. 2011) ("Mere restatements of the elements of a claim are not entitled to the
assumption of truth." (citation omitted)).

Finally, "[w]hen there are well-pleaded factual

allegations, [the] court should assume their veracity and then determine whether they plausibly
give rise to an entitlement to relief." Iqbal, 556 U.S. at 679. "A claim has facial plausibility when
the plaintiff pleads factual content that allows the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged." Id.; see also Connelly, 809 F.3d at 786. Ultimately,
the plausibility determination is "a context-specific task that requires the reviewing court to draw
on its judicial experience and common sense." Iqbal, 556 U.S. at 679.
V.

Discussion
A. Commonwealth Defendants' Motion to Dismiss is granted.

In Commonwealth Defendants' Motion to Dismiss Amended Complaint (ECF No. 38) and
brief in support thereof (ECF No. 39), Commonwealth Defendant move to dismiss Plaintiffs'
Second Amended Complaint because (1) Plaintiffs' § 1983 claim fails to specify which
constitutional rights are at issue, (2) Plaintiffs' claims against Commonwealth Defendants are
barred by the Eleventh Amendment, and (3) the chairman and members of the PLRB and
Attorney General Shapiro are not appropriate defendants to this action. (Id.)
1. Plaintiffs' § 1983 claim states a claim even though it does not explicitly
state which constitutional rights are at issue.

As an initial matter, the Court rejects Commonwealth Defendants' assertion that
Plaintiffs' failure to specify the constitutional rights at issue is fatal to Plaintiffs'§ 1983 claim. The
Federal Rules of Civil Procedure require only that a complaint state "a short and plain statement

14

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 15 of 67

of the claim showing that the pleader is entitled to relief." Fed. R. Civ. P. 8(a)(2). Detailed factual
allegations are not required -the complaint must simply contain enough information to give the
defendants fair notice of the claim and the facts upon which the claim is based. Twombly, 550 U.S.
at 555. Plaintiffs' Second Amended Complaint clearly gives notice of the constitutional rights at
issue through its factual allegations and its reliance on Janus. The cases to which Commonwealth
Defendants cite are inapposite, as they involved factual allegations that were not clear enough to
implicate specific constitutional rights. See, e.g., Culver v. Pennsylvania, Civil No. 3:10-CV-382,
2010 WL 11531289, at *4 (M.D. Pa. May 19, 2010) ("Culver's claims against the Commonwealth of
Pennsylvania do not allege in an intelligible fashion any cognizable violation of specific rights
guaranteed by the Constitution or laws of the United States upon which relief can be granted."),

report and recommendation adopted by 2010 WL 11537607 (M.D. Pa. July 28, 2010). Therefore, based
on the Court's experience and common sense, Iqbal, 556 U.S. at 679, the Court declines to dismiss
Plaintiffs' § 1983 claim as to Commonwealth Defendants for failure to specify the constitutional
rights on which the claim is based.

2. Based on Eleventh Amendment immunity, Plaintiffs' claims against
Commonwealth Defendants are dismissed.
Commonwealth Defendants next move to dismiss Plaintiffs' claims against them because
they are barred by the Eleventh Amendment. (ECF No. 39 at 6.) Commonwealth Defendants
explain that the Eleventh Amendment protects Commonwealth Defendants from this lawsuit and
that no exception to Eleventh Amendment immunity applies. (ld. at 8-10.)
In response, Plaintiffs do not dispute that Eleventh Amendment immunity generally
applies to Commonwealth Defendants.

Instead, Plaintiffs assert that their claims against

15

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 16 of 67

Commonwealth Defendants fall within the Ex parte Young exception to Eleventh Amendment
immunity because Plaintiffs seek prospective relief to enjoin violations of federal law. (ECF No.
48 at 29.)

a. The Eleventh Amendment

The Eleventh Amendment states that "[t]he Judicial power of the United States shall not
be construed to extend to any suit in law or equity, commenced or prosecuted against one of the
United States by Citizens of another State, or by Citizens or Subjects of any Foreign State." 6 U.S.
Const. amend. XI. The Supreme Court "has long 'understood the Eleventh Amendment to stand
not so much for what it says, but for the presupposition ... which it confirms."' Kimel v. Fla. Bd.

of Regents, 528 U.S. 62/ 72-73 (2000) (citations omitted) (quoting Seminole Tribe of Fla. v. Florida, 517
U.S. 44, 54 (1996)). This presupposition is that "the States entered the federal system with their
sovereignty intact [and] that the judicial authority in Article III is limited by this sovereignty."

Blatchford v. Native Vill. of Noatak & Circle Vill., 501 U.S. 775, 779 (1991) (citing Welch v. Tex. Dep't
of Highways and Pub. Transp., 483 U.S. 468,472 (1987)). "Accordingly, for over a century now, [the
Supreme Court has] made clear that the Constitution does not provide for federal jurisdiction
over suits against nonconsenting States." Kimel, 528 U.S. at 73 (citing Coll. Sav. Bank v. Fla. Prepaid

Postsecondary Ed. Expense Bd., 527 U.S. 666, 669-70 (1999)).
But "a state's Eleventh Amendment protection from federal suits-whether brought by

The Supreme the Court has long held that "the Eleventh Amendment bars a citizen from bringing suit
against the citizen's own State in federal court, even though the express terms of the Amendment refer only
to suits by citizens of another State." Welch v. Tex. Dep't of Highways & Pub. Transp., 483 U.S. 468, 472 (1987)
(citing Hans v. Louisiana, 134 U.S. 1, 10 (1890)). Furthermore, courts have also extended Eleventh
Amendment protection to state agencies, departments, and officials when the state is the real party in
interest. Pa. Fed'n of Sportsmen's Clubs, Inc. v. Hess, 297 F.3d 310, 323 (3d Cir. 2002).

6

16

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 17 of 67

citizens of their state or another-is not absolute." Koslow v. Pennsylvania, 302 F.3d 161, 168 (3d
Cir. 2002).

Federal courts recognize three exceptions to Eleventh Amendment sovereign

immunity: (1) congressional abrogation, Bd. of Trs. of Univ. of Ala. v. Garrett, 531 U.S. 356, 363
(2001); (2) waiver by the state, Koslow, 302 F.3d at 168 (citing Coil. Sav. Bank, 527 U.S. at 670); and
(3) "suits against individual state officers for prospective injunctive and declaratory relief to end
an ongoing violation of federal law," which is the doctrine of

parte Young, 209 U.S. 123 (1908),7

Pa. Fed'n of Sportsmen's Clubs, Inc. v. Hess, 297 F.3d 310, 323 (3d Cir. 2002); see Kentucky v.
Graham, 473 U.S. 159, 167 (1985) (explaining that "official-capacity actions for prospective relief
are not treated as actions against the State"); see also Edelman v. Jordan, 415 U.S. 651, 677 (1974)
(holding that "a federal court's remedial power, consistent with the Eleventh Amendment, is
necessarily limited to prospective injunctive relief").
Here, Commonwealth Defendants assert that Congress did not abrogate states' immunity
for the claims in this case and that the Commonwealth of Pennsylvania has not consented to suit.
(ECF No. 39 at 8-9.) Plaintiffs do not contest these assertions. (ECF No. 48 at 29.) Therefore, the
only dispute between Plaintiffs and Commonwealth Defendants is whether the Ex parte Young
exception to sovereign immunity permits Plaintiffs to seek prospective relief from
Commonwealth Defendants under the circumstances of this case.

7 As the Supreme Court has noted, Ex Parte Young rests on the "obvious fiction" that an official-capacity
suit seeking prospective injunctive relief "is not really against the State, but rather against an individual
who has been 'stripped of his official representative character' because of his unlawful conduct." Va. Office
for Prot. & Advocacy v. Stewart, 563 U.S. 247, 267 (2011) (quoting Ex Parte Young, 209 U.S. at 159-60.) Thus,
"Ex parte Young also rests on the 'well-recognized irony that an official's unconstitutional conduct
constitutes state action under the Fourteenth Amendment but not the Eleventh Amendment."' Stewart, 563
U.S. at 272 (quotation marks omitted) (quoting Pennhurst State Sch. & Hasp. v. Halderman, 465 U.S. 89, 105
(1984)).

17

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 18 of 67

"In determining whether the Ex Parte Young doctrine avoids an Eleventh Amendment bar,
the Supreme Court has made it quite clear that 'a court need only conduct a "straightforward
inquiry into whether [the] complaint alleges an ongoing violation of federal law and seeks relief
properly characterized as prospective.""' Hess, 297 F.3d at 324 (quoting Verizon Md., Inc. v. Pub.

Serv. Comm'n of Md., 535 U.S. 635, 645 (2002)).
b. Plaintiffs do not allege an ongoing violation of federal law with
respect to Commonwealth Defendants.
Commonwealth Defendants argue that Plaintiffs fail to allege an ongoing violation of
federal law with respect to Commonwealth Defendants. (ECF No. 39 at 10.) They contend that
"[t]here is no claim that the Attorney General or any member of the PLRB has done or is doing
anything to violate Plaintiffs' federal constitutional rights."

(Id.)

Plaintiffs do not directly

respond to this argument, except to note that "[P]laintiffs' claims falls [sic] squarely within the Ex

parte Young exception to sovereign immunity, as they seek prospective relief to enjoin violations
of federal law." (ECF No. 48 at 30.)
The Court agrees with Commonwealth Defendants. Plaintiffs have not alleged any
ongoing violations of federal law with respect to Commonwealth Defendants in the Second
Amended Complaint. For example, Plaintiffs have not alleged that Commonwealth Defendants
have enforced or continue to enforce Section 575 in an unconstitutional manner. See Burns v.

Alexander, 776 F. Supp. 2d 57, 74 (W.D. Pa. 2011) (describing ongoing violations of federal law as
"the continued enforcement of statutory provisions alleged to be unconstitutional"); Haagensen v.

Pa. State Police, Civil Action No. 08-727, 2009 WL 3834007, at *14 (W.D. Pa. Oct. 22, 2009) ("The
complaint does not in fact allege an ongoing violation; rather, it contains only Plaintiff's opinion

18

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 19 of 67

that the statute as written could be applied to her again (and to others) in the manner in which it
was applied to her."), report and recommendation adopted in relevant part by 2009 WL 3834004, at *3
(Nov. 16, 2009) (finding that the plaintiff "has not established an ex parte Young exception to the
immunity because she has not pointed to any ongoing violations" but instead "relies only on the
actions underlying her own case, which occurred in 2001"). The Second Amended Complaint
simply claims that Commonwealth Defendants are charged with enforcing Section 575 (ECF No.
62 1114-16) which does not implicate the Ex parte Young exception to Eleventh Amendment
immunity.
Because Plaintiffs sue Commonwealth Defendants without alleging that those Defendants
continue to enforce an unconstitutional Pennsylvania statute, the Second Amended Complaint
"is nominally against individual officers, [but] the state is the real, substantial party in interest
and the suit in fact is against the state." Hess, 297 F.3d at 324. Therefore, this Court must dismiss
Plaintiffs' claims against Commonwealth Defendants because there is no allegation of an ongoing
violation of federal law, and the Eleventh Amendment thus bars suit against Commonwealth
Defendants. See Christ the King Manor, Inc. v. Sec'y U.S. Dept. of Health & Human Servs., 730 F.3d
291, 319 (3d Cir. 2013) (affirming the district court's grant of summary judgment to the state
defendants because the plaintiffs did "not identify any ongoing conduct by the Secretary of DPW
that must be enjoined to ensure the supremacy of federal law").
Accordingly, the Court will dismiss Plaintiffs' claims against Commonwealth Defendants.
3. Plaintiffs' claims against Attorney General Shapiro and the members
and chairman of the PLRB are also dismissed because these state officials
are inappropriate defendants.
Commonwealth Defendants also argue that the members and chairman of the PLRB and
19

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 20 of 67

Attorney General Shapiro must be dismissed from the lawsuit because they are not appropriate
defendants in Plaintiffs' challenge to Section 575. (ECF No. 39 at 10.) Commonwealth Defendants
assert that Section 575 does not impose any specific enforcement obligations on Attorney General
Shapiro or the PLRB. (Id.) Moreover, if Plaintiffs seek relief against Attorney General Shapiro
and the members and chairman of the PLRB' s general enforcement powers, Commonwealth
Defendants contend that (1) the PLRB and attorney general are not authorized to initiate criminal
prosecutions under Section 575, and (2) there are no allegations attributing any specific conduct
to Commonwealth Defendants with regard to the enforcement of Section 575. (Id. at 11-12.)
Therefore, Commonwealth Defendants claim that Plaintiffs cannot seek injunctive and
declaratory relief against them because there is no "close official connection" between the
attorney general and PLRB and the enforcement of Section 575. 8 (Id. at 13-17.)
Plaintiffs disagree, claiming that "[t]he PLRB defendants enforce the State's collective
bargaining laws, which include the agency shop provisions that the plaintiffs have challenged,
and the attorney general is charged with enforcing all of the State's laws as the State's chief law
enforcement officer." (ECF No. 48 at 30.)
According to Ex parte Young:
In making an officer of the state a party defendant in a suit to enJOin the
enforcement of an act alleged to be unconstitutional, it is plain that such officer
must have some connection with the enforcement of the act, or else it is merely
making him a party as a representative of the state, and thereby attempting to
make the state a party.

s The Court notes that Commonwealth Defendants do not appear to seek dismissal of the claims against
Ms. Childer-Potts, the district attorney of Bedford County, Pennsylvania, on these bases. (See ECF No. 39
at 17 (arguing that the claims against the members of the PLRB and the attorney general must be
dismissed).) Therefore, the Court will not address whether Ms. Childer-Potts is an appropriate defendant
in this case.

20

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 21 of 67

It has not, however, been held that it was necessary that such duty should be

declared in the same act which is to be enforced. In some cases, it is true, the duty
of enforcement has been so imposed ... , but that may possibly make the duty
more clear; if it otherwise exist it is equally efficacious. The fact that the state
officer, by virtue of his office, has some connection with the enforcement of the act,
is the important and material fact, and whether it arises out of the general law, or
is specially created by the act itself, is not material so long as it exists.

Ex parte Young, 209 U.S. at 157.
The Third Circuit has elaborated that, in order for a state officer to have "some connection
with the enforcement of the act," there must be "realistic potential" that the officer's "general
power to enforce the laws of the state would have been applied" against the plaintiffs. See Rode
v. Dellarciprete, 845 F.2d 1195, 1208 (3d Cir. 1988). Specifically, "[aJ plaintiff challenging the

validity of a state statute may bring suit against the official who is charged with the statute's
enforcement only if the official has either enforced, or threatened to enforce, the statute against
the plaintiffs." 151 Westco Corp. v. Sch. Dist. of Phila., 6 F.3d 108, 113 (3d Cir. 1993). "General
authority to enforce the laws of the state is not sufficient to make government officials the proper
parties to litigation challenging the law." Id.
Attorney General Shapiro has no connection with the enforcement of Section 575.
There is no enforcement role for the attorney general in the penalty provisions of Section
575. See 71 Pa. Stat. § 575(1) ("Any employe organization which violates the provisions of this
section or fails to file any required report or affidavit or files a false report or affidavit shall be
subject to a fine of not more than two thousand dollars ($2,000)."); id. § 575(m) ("Any person who
willfully violates this section, or who makes a false statement knowing it to be false, or who
knowingly fails to disclose a material fact shall be fined not more than one thousand dollars
($1,000) or undergo imprisonment for not more than thirty (30) days, or both. Each individual
21

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 22 of 67

required to sign affidavits or reports under this section shall be personally responsible for filing
such report or affidavit and for any statement contained therein he knows to be false.").
Under Ex parte Young, a state official's enforcement role need not be set out in the statute
itself-the connection to enforcement may come from a different source, including "the general
law." See Ex parte Young, 209 U.S. at 157. Yet, in this case, the attorney general's general authority
to enforce the laws of the Commonwealth does not extend to Section 575. The attorney general's
power comes from the Commonwealth Attorneys Act, 71 Pa. Stat. §§ 732-301 et seq. See 71 Pa.
Stat.§ 732-201(a) ("The Attorney General shall exercise such powers and perform such duties as
are hereinafter set forth."); Commonwealth v. Carsia, 517 A.2d 956, 958 (Pa. 1986) (quoting 71 Pa.
Stat. § 732-201(a) and explaining that "[t]his provision expressly states that the powers of the
Attorney General are those which are set forth in the [Commonwealth Attorneys] Act itself"). No
provisions of this Act would give the attorney general the authority to enforce Section 575 under
the circumstances of this case.
For example, the attorney general's authority to initiate criminal prosecutions is governed
by 71 Pa. Stat. § 732-205. See Carsia, 517 A.2d at 958 (explaining that 71 Pa. Stat. § 732-205
delineates the kinds of cases over which the attorney general has prosecutorial authority). But
none of the provisions of 71 Pa. Stat. § 732-205 give the attorney general the power to initiate a
prosecution based on Section 575's penalty provisions, at least without a request from a district
attorney or permission from a court. See 71 Pa. Stat.§ 732-205. And Plaintiffs do not point to any
provision of 71 Pa. Stat. § 732-205, the Commonwealth Attorneys Act in general, or other law that
would give the attorney general an enforcement role in Section 575.
Moreover, even assuming that the attorney general would have general enforcement
22

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 23 of 67

authority over violations of Section 575, Plaintiffs do not allege that the attorney general has
enforced or threatened to enforce Section 575 against Plaintiffs. Without plausible allegations of
enforcement or threat thereot the attorney general is not an appropriate defendant in this matter.

See 1" Westco Corp., 6 F.3d at 113 (explaining that "[a] plaintiff challenging the validity of a state
statute may bring suit against the official who is charged with the statute's enforcement only if
the official has either enforced, or threatened to enforce, the statute against the plaintiffs").
Plaintiffs argue-with no citations to authority

that the attorney general is charged with

enforcing all of the Commonwealth of Pennsylvania's laws. (ECF No. 48 at 30.) They assert that
the attorney general's general enforcement powers make the attorney general an appropriate
defendant, at least at the motion-to-dismiss stage. (ECF No. 48 at 30.)
The Court disagrees. As explained above, Plaintiffs have failed to identify any connection
between the attorney general and the enforcement of Section 575. The conclusory allegation that
the attorney general is charged with enforcing Section 575 is insufficient to survive a motion to
dismiss. Without factual allegations that the attorney general has enforced or threatened to
enforce Section 575 or citations that show that the attorney general has some connection to the
enforcement of Section 575, this suit is simply another case of" a high policy official with a general
duty to uphold the law [that] has been made a party to a suit where there is little likelihood that
he actually would have enforced the particular statute at issue." 1'1 Westco Corp., 6. F.3d at 115.
In sum, the claims for declaratory and injunctive relief against Attorney General Shapiro
must be dismissed because the attorney general is not an appropriate defendant in this challenge.
The Court also finds that Mr. Darby, the chairman of the PLRB, and Mr. Mezzaroba and
Mr. Shoop, members of the PLRB, must be dismissed as defendants for similar reasons. Section

23

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 24 of 67

575 does not provide any role for the PLRB, its chairman, or its members in enforcing its
provisions. See 71 Pa. Stat. § 575. Moreover, the PLRB does not have the power to enforce Section
575 pursuant to any other statutory provision. The Public Employe Relations Act (the "PERA"), 9
43 Pa. Stat. §§ 1101.101 et seq., which delineates the PLRB's authority with regard to public
employers, specifies that the PLRB "shall exercise those powers and perform those duties which
are specifically provided for in this act." Id. § 1101.501. The Court cannot locate any PERA
provision that would give the PLRB authority to enforce Section 575, nor have the parties
identified any such provision. See Lutz v. Morrisville Educ. Assoc., 31 PPER r.rr 31003 (P.L.R.B. 1999)
(dismissing a charge of unfair practices filed with the PLRB alleging violations of Section 575
because "[n]othing in [Section 575] or in PERA vests the Board with jurisdiction to enforce the
various provisions of the fair share fee legislation"). Further, Plaintiffs failed to plausibly allege
that the PLRB chairman or its members have enforced or threatened to enforce Section 575 against
Plaintiffs. See Jst Westco Corp., 6 F.3d at 113. Therefore, the members and chairman of the PLRB
are not appropriate defendants in this action, as they lack "some connection" with the
enforcement of Section 575.
In summary, beyond Commonwealth Defendants' immunity, the claims against Attorney

While Commonwealth Defendants cite to the Pennsylvania Labor Relations Act (the "PLRA"), 43 Pa. Stat.
§§ 211.1 et seq., as delineating the PLRB's authority in this case, the PLRA applies to private employers, not
public employers. See id. § 211.3(c) (defining "employer" but excluding "the Commonwealth, or any
political subdivision thereof, or any municipal authority" from the definition). The PERA specifies the
PLRB's authority in the context of public employers. See 43 Pa. Stat.§ 1101.301(1); Lutz v. Morrisville Educ.
Assoc., 31 PPER 'j[ 31003 (P.L.R.B. 1999) (discussing the application of the PERA in the context of a publicschool union). However, even if the PLRA applies to the PLRB in this case, the PLRB stilt does not have
the authority to enforce Section 575. Under the PLRA, the PLRB is empowered "to prevent any person
from engaging in any unfair labor practice." 43 Pa. Stat.§ 211.8(a). "Unfair labor practice[s]" are defined
by Section 211.6, and none of this Section's provisions relate to the collection of fair-share fees under Section
575. See id. § 211.6.
9

24

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 25 of 67

General Shapiro, Mr. Darby, Mr. Mezzaroba, and Mr. Shoop must be dismissed because these
individuals are inappropriate defendants to this action.

B. Union Defendants' Motion to Dismiss is granted.
Union Defendants move to dismiss Plaintiffs' claims for declaratory and injunctive relief
due to mootness and lack of standing. (ECF No. 41 at 12-18.) Furthermore, Union Defendants
seek dismissal of Plaintiffs' request for reimbursement of pre-Janus fair-share fees based on the
good-faith defense to liability.

(Id. at 18-25.)

Union Defendants also request dismissal of

Plaintiffs' state-tort-law claims because the Second Amended Complaint fails to state a claim in
tort and the claims are barred by the good-faith defense. Finally, Union Defendants argue that
Ms. Ziegler lacks standing to bring any claims and must be dismissed.

1. Plaintiffs' claims for declaratory and injunctive relief are moot and the
demands for relief in paragraphs 55(q) and 55(r)(iii) of the Second
Amended Complaint are dismissed for lack of standing.
Under Article III of the U.S. Constitution, federal court jurisdiction extends only to" cases"
and "controversies." U.S. Canst. art. III,§ 2; see Susan B. Anthony v. Driehaus, 134 S. Ct. 2334,2341
(2014); Already, LLC v. Nike, Inc., 568 U.S. 85, 90 (2013); Friends of the Earth, Inc. v. Laidlaw Envtl.
Servs. (TOC), Inc., 528 U.S. 167, 180 (2000); Arizonans for Official English v. Arizona, 520 U.S. 43, 64
(1997); N.J. Turnpike Auth. v. Jersey Cent. Power & Light, 772 F.2d 25, 30 (3d Cir. 1985). "In our
system of government, courts have 'no business' deciding legal disputes or expounding on law
in the absence of such a case or controversy." Already, 568 U.S. at 90. This "case or controversy"
requirement encompasses, inter alia, two doctrines that are relevant to the present dispute:
mootness and standing. See Susan B. Anthony, 134 S. Ct. at 2341; Friends of the Earth, 528 U.S. at
180; Arizonans for Official English, 520 U.S. at 64, 67; Iron Arrow Honor Soc'y v. Heckler, 464 U.S. 67,
25

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 26 of 67

70 (1983).
Union Defendants argue that Plaintiffs' claims for declaratory and injunctive relief with
respect to the constitutionality of fair-share fees are moot because of the Supreme Court's decision
in Janus. (ECF No. 41 at 12-17.) Furthermore, Union Defendants contend that Plaintiffs have no
standing to seek to impose conditions on the enrollment of union members. (Id. at 17-18.) The
Court will thus address the doctrines of mootness and standing, in turn.

a. Plaintiffs' claims for declaratory and injunctive relief are moot due
to the Supreme Court's decision in ]anus and Union Defendants'
compliance with that decision.
Union Defendants argue that Plaintiffs' claims for declaratory and injunctive relief (ECF
No. 62 <J[ 55(e)-(o), (r), (s)) are moot because of Janus. (ECF No. 41 at 6.) Union Defendants explain
that they immediately acted to conform with Janus following the Supreme Court's decision. 10 (Id.
at 7.)
On the day of the Janus decision, the PSEA notified every school employer with which a

PSEA affiliate had a contractual fair-share clause of the Janus decision and instructed them to
immediately cease deducting fair-share fees from their employees' paychecks. (ECF No. 41-1

<J[

S(a).) Where school employers had already deducted and transmitted the portions of their
employees' fees attributable to the period after the Janus decision, or were unable to modify a

post-Janus payroll, the PSEA established a procedure to refund the fees to the non-member

10

The following facts are taken from the affidavits submitted with the Brief in Support of Union
Defendants' Motion to Dismiss First Amended Complaint (ECF No. 41). The Court may consider these
affidavits pursuant to the rules regarding factual challenges under Federal Rule of Civil Procedure 12(b)(1 ),
discussed supra. The Court notes that Plaintiffs do not contest the accuracy of the affidavits. (See, e.g., ECF
No. 48 at 7 ("The union defendants were enforcing an unconstitutional agency shop when the plaintiffs
sued, and they stopped while the litigation was ongoing."); id. at 8 ("The unions chose to conform their
conduct to Janus to avoid these post-Janus lawsuits.").)

26

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 27 of 67

feepayers (including religious objectors) with interest. (Id. 1[ 5(b)-(c).)
On July 2, 2018, the PSEA sent a letter to every fair-share feepayer explaining the Janus
decision. (Id. 1[ 5(d); id. at 7-8.) The letter informed them that the PSEA had asked employers to
immediately stop fair-share-fee payroll deductions and that any fees that had been paid for the
period after June 27, 2018, would be promptly refunded. (Id. 1[ 5(d); id. at 7-8.) Letters went to all
Plaintiffs except Ms. Ziegler, who retired in 2013 and has not paid fair-share fees since then. (ECF
No. 41-21[1[ 5-7.) Plaintiffs were sent checks refunding the fair-share fees that had been deducted
and transmitted by their school-district employers prior to June 27, 2018, but that were
attributable to the period from June 27 to August 31, 2018. (ECF No. 41-11[1[ 6-11.)
The school employers have recognized that statutory and contractual provisions
authorizing fair-share requirements are no longer enforceable after Janus. (ECF No. 41-31[ 3; ECF
No. 41-41[ 3; ECF No. 41-513; ECF No. 41-613; ECF No. 41-713.) Representatives of the school
districts that employ or employed plaintiffs have provided affidavits attesting that, as a result of
the Janus decision, they have ceased deducting and transmitting fair-share fees and will not
deduct and transmit such fees in the future. (ECF No. 41-3115-6; ECF No. 41-411[ 5-6; ECF No.
41-5115-6; ECF No. 41-6115-6; ECF No. 41-71[1[ 5-6.)
Union Defendants argue that Plaintiffs' claims for declaratory and injunctive relief are
moot based on this response to Janus and the Supreme Court's determination in Janus that "States
and public-sector unions may no longer extract agency fees from nonconsenting employees."

Janus, 138 S. Ct. at 2486. Union Defendants assert that they and the school-district employers
agree that the collection of fair-share fees by public-sector unions is unconstitutional. (ECF No.
41 at 13.)

Further, Union Defendants assert that the voluntary-cessation exception to the
27

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 28 of 67

mootness doctrine does not apply because Union Defendants did not voluntarily stop collecting
fair-share fees in order to circumvent this Court's jurisdiction in the present lawsuit-they
stopped collecting the fees in order to comply with the intervening Supreme Court decision in
Janus. (Id. at 14.)
In response, Plaintiffs argue that Union Defendants' conduct post-Janus was voluntary
and does not moot Plaintiffs' claims for injunctive and declaratory relief. (ECF No. 48 at 7.)
Plaintiffs contend that Union Defendants' response was voluntary because (1) court rulings do
not impose legal obligations on non-parties (id. at 8), (2) Janus did not change the law (id. at 9-13),
and (3) Janus did not explicitly resolve the constitutionality of Union Defendants' treatment of
religious objectors (id. at 13-15).
The Court agrees with Union Defendants and finds that Plaintiffs' claims for declaratory
and injunctive relief are moot due to the Supreme Court's decision in Janus and Union
Defendants' undisputed compliance therewith.

i.

Legal Standard

"To qualify as a case fit for federal-court adjudication, 'an actual controversy must be
extant at all stages of review, not merely at the time the complaint is filed.'" Arizonans for Official
English, 520 U.S. at 67 (quoting Preiser v. Newkirk, 422 U.S. 395, 401 (1975)); see Already, 568 U.S. at
90-91. An actual controversy does not exist, rendering a case moot, "when the issues presented
are no longer 'live' or the parties lack a legally cognizable interest in the outcome." Already, 568
U.S. at 91 (quoting Murphy v. Hunt, 455 U.S. 478, 481 (1982)); N.J. Turnpike Auth., 772 F.2d at 31.
A live controversy exists "[a]s long as the parties have a concrete interest, however small, in the
outcome of the litigation." Knox, 567 U.S. at 307-08 (quoting Ellis v. Ry. Clerks, 466 U.S. 435, 442
28

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 29 of 67

(1984)).
However, "voluntary cessation of allegedly illegal conduct does not deprive the tribunal
of power to hear and determine the case, i.e., does not make the case moot." U.S. v. W. T. Grant

Co., 345 U.S. 629, 632 (1953); see Already, 568 U.S. at 91 ("[A] defendant cannot automatically moot
a case simply by ending its unlawful conduct once sued."); Knox, 567 U.S. at 307; Friends of the

Earth, 528 U.S. at 174, 189; City of Mesquite v. Aladdin's Castle, Inc., 455 U.S. 283, 288 (1982). This
exception to the mootness doctrine exists because, in its absence, "a defendant could engage in
unlawful conduct, stop when sued to have the case declared moot, then pick up where he left off,
repeating this cycle until he achieves all his unlawful ends." Already, 565 U.S. at 91; see Knox, 567
U.S. at 307; Friends of the Earth, 528 U.S. at 189; see also Aladdin's Castle, 455 U.S. at 289.
The Supreme Court has announced the following standard for determining whether a
case is moot due to the defendant's voluntary conduct: "[a Jcase might become moot if subsequent
events made it absolutely clear that the allegedly wrongful behavior could not reasonably be
expected to recur." Friends of the Earth, 528 U.S. at 189 (quoting United States v. Concentrated

Phosphate Exp. Assoc., 393 U.S. 199, 203 (1968)); see W.T. Grant Co., 345 U.S. at 633; N.J. Turnpike
Auth., 772 F.2d at 31. The burden on the defendant in this circumstance "is a heavy one." W. T.
Grant Co., 345 U.S. at 633; see Already, 565 U.S. at 91 (describing the "formidable burden" on a
defendant to show that the wrongful behavior will not recur).
ii.

Discussion

Here, there is no longer a controversy that needs adjudication.

When the original

Complaint was filed, there was a live controversy-whether Union Defendants could
constitutionally collect fair-share fees from Plaintiffs pursuant to Section 575. However, this
29

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 30 of 67

controversy was mooted by the intervening Janus decision, which held that fair-share fees are
unconstitutional, and Union Defendants' undisputed compliance therewith. See Janus, 138 S. Ct.
at 2486 ("Neither an agency fee nor any other payment to the union may be deducted from a
non[-]member's wages, nor may any other attempt be made to collect such a payment, unless the
employee affirmatively consents to pay."). Based on Janus and Union Defendants' conduct, there
is simply no live controversy regarding the constitutionality of collecting fair-share fees. In other
words, there is no continuing conduct for this Court to enjoin or declare unconstitutional. Thus,
Plaintiffs' claims for declaratory and injunctive relief are moot. See Hartnett v. Pa. State Educ.

Ass'n, No. 1:17-cv-100, 2019 WL 2160404, at *6-7 (M.D. Pa. May 17, 2019) (finding comparable
claims for declaratory and injunctive relief moot post-Janus because the "[p]laintiffs face no
realistic possibility that they will be subject to the unlawful collection of 'fair share' fees"); Cook

v. Brown, 364 F. Supp. 3d 1184, 1189 (D. Or. 2019) (finding a request for injunctive relief post-Janus
moot because the union had already stopped collecting fair-share fees and thus there was "no
live controversy ... necessitating injunctive relief"); Lamberty v. Conn. State Police Union, No. 3:15cv-378, 2018 WL 5115559, at *9 (D. Conn. Oct. 19, 2018) (explaining that Janus mooted a challenge
to the constitutionality of agency fees because "there is nothing for [the court] to order [the
d]efendants to do now"); Yohn v. Cal. Teachers Ass'n, Case No. SACV 17-202-JLS-DFM, 2018 WL
5264076 (C.D. CaL Sept. 28, 2018) (granting the union's motion to dismiss on mootness grounds
after the union complied with Janus); Danielson v. Ins lee, 345 F. Supp. 3d 1336, 1339-40 (W.D. Wash.
2018) (finding that Janus mooted a controversy when the State of Washington stopped collecting
agency fees post-Janus); see also Grutzmacher v. Howard Cty., 851 F.3d 332, 349 (4th Cir. 2017)
(finding a controversy regarding challenged policies moot based on a policy change and an
30

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 31 of 67

affidavit indicating that the defendant would not revert to the challenged policies); Ragsdale v.

Turnock, 841 F.2d 1358, 1365-66 (7th Cir. 1988) (explaining that a policy of non-enforcement of a
statute based on Supreme Court precedent moots a statutory challenge, as "[f]ederal courts do
not, as a rule, enjoin conduct which has been discontinued with no real prospect that it will be
repeated"); Smith v. Bieker, Case No. 18-cv-05472-VC, 2019 WL 2576679, at *1 (N.D. CaL June 13,
2019) (finding similar claims moot because the State did not plan to enforce the unconstitutional
statute in light of Janus).
Plaintiffs argue that Defendants' choice to stop collecting fair-share fees does not moot
Plaintiffs' claims because of the voluntary-cessation exception to the mootness doctrine. (ECF
No. 48 at 7.) However, the voluntary-cessation exception does not apply here. The circumstances
of this case make it clear that the undisputedly wrongful behavior-the collection of fair-share

fees- is not reasonably likely to recur. Friends of the Earth, 528 U.S. at 189. In particular, the Court
finds the following circumstances significant: (1) Janus's changing of the law; (2) the timing of and
reason for Union Defendants' choice to stop collecting fair-share fees; and (3) the absence of any
reason to think Union Defendants will resume collecting fair-share fees.
First, Janus clearly changed the law of the land. In the pre-Janus era, the Supreme Court's
decision in Abood established the constitutionality of collecting fair-share fees. The Court held in

Abood that dues paid pursuant to agency-shop clauses were constitutional if they were used to
finance unions' collective-bargaining, contract-administration, and grievance activities.

See

Abood, 431 U.S. at 225. Although Abood was called into question over the past few years, Janus
nevertheless represents a significant legal shift because it explicitly overruled Abood and held that
the collection of fair-share fees was unconstitutional. Janus, 138 S. Ct. at 2486. "The law of the
31

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 32 of 67

land thus has changed and there no longer is a legal dispute as to whether public sector unions
can collect agency fees." Lamberty, 2018 WL 5115559, at *9. Complying with a Supreme Court
decision cannot be considered "voluntary cessation." 11 See id. at *9 (explaining that there was
"nothing voluntary" about the union's decision to comply with Janus, as Janus "announced a
broad rule invalidating every state law permitting agency fees to be withheld"); Cook, 364 F. Supp.
3d at 1189 ("[A] reversal of Supreme Court precedent is analogous to a statutory change that
'bespeaks finality' and is not a change that could easily be altered. Therefore, the voluntary
cessation doctrine is inapplicable."); see also Christian Coal. of Ala. v. Cole, 355 F.3d 1288, 1292 (11th
Cir. 2004) (finding a controversy moot because an intervening Supreme Court decision "changed
the legal landscape" on which the defendants based their initial position).
Plaintiffs object that "[c]ourts do not make or change laws; they interpret and discover the
meaning of laws enacted by others." (ECF No. 48 at 9.) Plaintiffs claim that "[a]n actual change
in the law-such as a constitutional amendment outlawing public-sector agency shops or a repeal
of the statutes that authorize this practice- would moot the plaintiffs' claims for injunctive relief,"

Along similar lines, Plaintiffs argue that because "[n]one of those unions were parties to the Janus
litigation, ... they had no formal legal obligation to obey a court judgment that was entered in a case that
they were not involved in." (ECF No. 48 at 8.) The Court generally agrees that Union Defendants were not
parties to Janus and that "[i]t would have been legal for the [U]nion (D]efendants to continue enforcing
their agency shops after Janus until a litigant sued them to enjoin the practice." (Id.) However, while legal,
"[i]t is unreasonable to think that the Union would resort to conduct that it had admitted in writing was
constitutionally deficient and had attempted to correct," particularly when resuming the unconstitutional
conduct would "subject it[] to future litigation that it would clearly lose." Carlson v. United Academics, 265
F.3d 778, 786-87 (9th Cir. 2001). Moreover, the existence or non-existence of "formal legal obligation(s]" is
not the test for mootness. The test is whether subsequent events have made it absolutely clear that Union
Defendants could not reasonably be expected to resume collection of fair-share fees. See Friends of the Earth,
528 U.S. at 189. As discussed in this subsection, the Court concludes that this standard is met in this case,
and the Court declines to entertain Plaintiffs' plea for a new mootness standard that depends on "formal
legal obligation[s] to obey a court judgment" (ECF No. 48 at 8) and would render the mootness standard
nearly impossible to meet.
11

32

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 33 of 67

but "voluntary cessation in response to a Supreme Court opinion does not moot ongoing
litigation." (ld.)
In support of this claim, Plaintiffs cite to the line of cases that followed the Supreme
Court's decision in Obergefell v. Hodges, 135 S. Ct. 2584 (2015). These cases held that state
compliance with Obergefell did not moot ongoing challenges to state marriage laws. See, e.g.,

Jernigan v. Crane, 796 F.3d 976, 979 (8th Cir. 2015); Rosenbrahn v. Daugaard, 799 F.3d 918, 922 (8th
Cir. 2015); Waters v. Ricketts, 798 F.3d 682, 686 (8th Cir. 2015); Waters v. Ricketts, 159 F. Supp. 3d
992, 999-1000 (D. Neb. 2016); Strawser v. Strange, 190 F. Supp. 3d 1078, 1081 (S.D. Ala. 2016).
These cases are similar in that the post-Obergefell defendants did not dispute the merits of
the plaintiffs' constitutional challenges, like Defendants here do not dispute that the collection of
fair-share fees is unconstitutional. See, e.g., Jernigan, 796 F.3d at 979 ("Arkansas no longer disputes
the merits of the district court's ruling. The challenged laws are unconstitutional."). However,
these cases are distinguishable from the present case in three notable respects.
First, the courts in these cases found that Obergefell was written very narrowly. See

Obergefell, 135 S. Ct. at 2605 ("[T]he State laws challenged by Petitioners in these cases are now held
invalid to the extent they exclude same-sex couples from civil marriage on the same terms and
conditions as opposite-sex couples." (emphasis added)). In contrast ]anus broadly overruled

Abood and determined that fair-share fees for public employees are unconstitutional. See ]anus,
138 S. Ct. at 2486; see also Lamberty, 2018 WL 5115559, at *9 (describing the "broad rule" announced
by ]anus); Danielson, 345 F. Supp. 3d 1336 at 1340 ("Janus utilizes broad language in a lengthy
discussion overturning precedent ... .");Lee v. Ohio Educ. Assoc., 366 F. Supp. 3d 980, 982 (N.D.
Ohio 2019) ("]anus ... used broad language that immediately made it unconstitutional for unions
33

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 34 of 67

to extract agency fees from nonconsenting employees."). Janus's broad language may moot
controversies in ways Obergefell's narrow holding did not.
Second, some of the post-Obergefell cases noted that the Supreme Court did not rule on all
the issues raised by the plaintiffs in those cases. See, e.g., Rosenbrahn, 799 F.3d at 922 (describing
issues such as name-changes on driver's licenses that Obergefell did not resolve). Here, Janus's
broad holding regarding the unconstitutionality of fair-share fees clearly resolves all of Plaintiffs'
requests for declarative and injunctive relief. As was explained previously, post-Janus, there is
simply nothing left for this Court to declare or enjoin regarding fair-share fees in Pennsylvania.12
Third, some of the post-Obergefell cases were not moot because courts had concerns about
continued compliance with Obergefell. See, e.g., Waters, 159 F. Supp. 3d at 1000 ("Defendants'
position regarding birth certificates does give plaintiffs cause to be concerned about other
protections available to same-sex couples related to the right to marry .... "); Strawser, 190 F.
Supp. 3d at 1081-82 ("Given the actions by Alabama state and local officials, both before and after
the Supreme Court decided Obergefell, it cannot be said with assurance that there is no reasonable
expectation that Alabama's unconstitutional marriage laws will not again be enforced."). In this

12 Plaintiffs argue that Janus does not moot the present case because "Janus never explicitly rule[ d) on the
constitutionality of Pennsylvania's treatment of religious objectors." (ECF No. 48 at 13.) While it is true
that the facts of Janus did not present the Supreme Court with an opportunity to rule explicitly on the
constitutionality of Section 575's religious-objector provisions, Janus nevertheless resolves this issue with
its broad holding that "States and public-sector unions may no longer extract agency fees from
nonconsenting employees." Janus, 138 S. Ct. at 1486. Now that Section 575's fair-share fees are clearly
unconstitutional, objecting on religious grounds to those fees is unnecessary and any attempt to force
religious objectors to pay the equivalent of a fair-share fee would be unconstitutional under Janus.
Although Plaintiffs claim that "it is possible to argue that Pennsylvania's religious-objector regime can
survive Janus" (ECF No. 48 at 14 (emphasis added)), Plaintiffs also recognize that "any effort to impose a
financial penalty on employees who decline union membership is unconstitutional, regardless of whether
the money is remitted to a union or a charity." (Id.) Thus, the status of religious objectors after Janus is
distinguishable from the issues remaining for litigants after Obergefell, and the Court is not persuaded that
the status of religious objectors in this case presents a live controversy.

34

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 35 of 67

case, however, Union Defendants have established that they will continue to comply with Janus
even if Plaintiffs' claims for declaratory and injunctive relief are declared moot. See Danielson,
345 F. Supp. 3d at 1340 (distinguishing the post-Obergefell cases from a post-Janus case because
"in the aftermath of Obergefell, there was reason to believe that some states would ignore the
Supreme Court's binding precedent, unlike in this case").
Thus, this Court joins numerous courts in finding that the post-Obergefell cases are
unpersuasive in the present dispute. See Hartnett, 2019 WL 2160404, at *6; Danielson, 345 F. Supp.
3d at 1340; Yohn, 2018 WL 5264076, at *6; Ladley v. Pa. State Educ. Ass'n, No. CIL14-08552, at *1920 (Pa. Ct. C.P. Lancaster Cty. Oct. 29, 2018). In contrast to the unique circumstances surrounding

Obergefell, in the instant case, compliance with an intervening Supreme Court decision does not
implicate the voluntary-cessation exception to the mootness doctrine.
Instead of relying on the post-Obergefell cases, this Court finds a 2004 Eleventh Circuit
decision, Christian Coalition of Alabama v. Cole, 355 F.3d 1288 (11th Cir. 2004), to be more persuasive
under the present circumstances. In Christian Coalition, a few months before a general election,
the Christian Coalition of Alabama (the "CCA") distributed questionnaires to Alabama judicial
candidates asking for the candidates' opinions on numerous social and political issues. Id. at
1289-90. Two sitting judges who were running for reelection sought an opinion from the Alabama
Judicial Inquiry Commission (the "JIC'') as to whether responding to the questionnaires would
comport with ethics rules. Id. at 1290. In an advisory opinion, the JIC indicated that judges would
violate the Alabama Canons of Judicial Ethics by answering some of the questions on the
questionnaires. Id. The CCA and three judicial candidates sued members of the JIC in federal
court on First Amendment grounds. Id.
35

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 36 of 67

Before the district court made a decision on the merits, the Supreme Court decided

Republican Party of Minnesota v. White, 536 U.S. 765 (2002), in which the Court held that "[t]he
Minnesota Supreme Court's canon of judicial conduct prohibiting candidates for judicial election
from announcing their views on disputed legal and political issues violates the First
Amendment." Id. at 788. Based on this decision, the JIC withdrew its advisory opinion and filed
a motion to dismiss the lawsuit on mootness grounds. Christian Coal., 355 F.3d at 1290. The
district court granted the motion to dismiss due to mootness, which the Eleventh Circuit affirmed.

ld. at 1290, 1293.
The Eleventh Circuit relied in part on the JIC' s intention, which was stated in the
pleadings, that the JIC would not file charges against a judge for responding to the CCA
questionnaire. Id. at 1292. The Eleventh Circuit found the JIC's assertion to be particularly
persuasive because it was clearly not made to avoid a ruling by the district court in the present
case. Id. "(T]he JIC' s withdrawal of its [a ]dvisory [o]pinion and its representation to the district
court are a result of subsequent events out of the ]IC's control that effected a change in its position
regarding the propriety of answering the CCA questionnaire." Id. (emphasis added). These
"subsequent events" included the Supreme Court's intervening decision in White and the
Alabama Supreme Court's Committee on the Canons' decision to modify the Canons based on

White. ld. The Eleventh Circuit found that these two events "changed the legal landscape on
which the JIC initially based its Advisory Opinion." Id. "Thus, the CCA ha[d] every reason to
believe that the JIC's representation [was] genuine, and [could] reasonably expect that the JIC
[would] not issue another opinion preventing judges from answering the questionnaire at issue .
. . ." Id. at 1292-93.

36

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 37 of 67

The reasoning of Christian Coalition is persuasive when applied to the circumstances of
this case. In response to a Supreme Court decision that "changed the legal landscape," Union
Defendants ceased collecting fair-share fees, much like the JIC in Christian Coalition withdrew its
advisory opinion based on White. The decision to stop collecting fair-share fees in this case was
not voluntary because it was made based on intervening circumstances out of Union Defendants'
control-namely, a Supreme Court decision-which the Eleventh Circuit found to be sufficient
to moot the case in Christian Coalition. Based on Union Defendants' cessation of the offensive
conduct and the Supreme Court's decision in Janus prohibiting that conduct, Plaintiffs now have
every reason to believe Union Defendants' declarations that they will not resume the collection
of fair-share fees. Thus, the Eleventh Circuit's decision in Christian Coalition supports this Court's
conclusion that the present controversy is moot because complying with a Supreme Court
decision cannot be considered "voluntary cessation" such that Plaintiffs can circumvent the
mootness doctrine.
Plaintiffs claim that Christian Coalition is inapposite because "[it] was the Supreme Court's
ruling in White-combined with the Alabama Supreme Court's decision to revise the judicial
canons that undergirded the advisory opinion- that led the Eleventh Circuit to conclude that the
Judicial Inquiry Commission's withdrawal of its opinion was not 'voluntary cessation."' (ECF
No. 48 at 12.) Plaintiffs argue that "neither Christian Coalition-nor any other case of which we
are aware-allows the mere compliance with an intervening Supreme Court ruling to moot a
case." (Id.) While Plaintiffs are correct that Christian Coalition is factually distinguishable, the

37

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 38 of 67

differences between the circumstances in Christian Coalition and the present case do not change
the Court's conclusion that the reasoning of Christian Coalition is persuasive. 13
In sum, Janus changed the law of the land by overruling Abood and declaring the collection
of fair-share fees to be unconstitutional. By complying with this change in the law, Defendants
were not acting "voluntarily" for purposes of the voluntary-cessation exception to mootnessthey were compelled to change their conduct based on a decision of our nation's highest court. It
is therefore "absolutely clear" that Union Defendants' wrongful behavior "could not reasonably
be expected to recur." See Friends of the Earth, 528 U.S. at 189.
The Court finds the voluntary-cessation exception to mootness inapplicable for a second
reason: the timing of and reason for Union Defendants' cessation of fair-share-fee collection make
it clear that Union Defendants did not cease the challenged conduct due to this litigation.
Union Defendants' undisputed account of its post-Janus actions indicates that on the day
the Supreme Court announced its decision in Janus, the PSEA contacted affected employers and
told them to stop deducting fair-share fees. (ECF No. 41-1

<_[

5(a).) A few days later, the PSEA

notified every fair-share feepayer of the Janus decision and told the feepayers that they were no

Plaintiffs also argue that Christian Coalition is distinguishable because the defendants in that case were
state officials and were thus presumed to act in good faith when they ceased the offensive conduct and
represented that they would not file charges against a judge for responding to the CCA questionnaire. (ECF
No. 48 at 12.) In contrast, Plaintiffs assert, "labor unions get no such indulgence from the courts, and they
cannot moot a case without showing that it is 'absolutely clear that the allegedly wrongful behavior could
not reasonably be expected to occur."' (Id. at 13.) While the Court agrees with Plaintiffs' articulation of the
mootness standard that applies to Union Defendants in this case, the Court finds this distinction between
Christian Coalition and the present case to be unpersuasive. First, it is not clear that the court in Christian
Coalition based its opinion on the presumption that state officials act in good faith. Second, even if this
presumption did form the basis for the Eleventh Circuit's decision, this Court still concludes that this case
meets the more stringent mootness standard articulated by Plaintiffs, as explained throughout this
subsection.
13

38

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 39 of 67

longer required to pay fair-share fees. (ld. 15(d); id. at 7-8.) The timing of and reason for these
actions make clear that Union Defendants did not cease the unconstitutional conduct in order to
circumvent this Court's jurisdiction in the present case. Instead, Union Defendants acted to
comply with Janus. 14
The voluntary-cessation exception to the mootness doctrine exists so that a defendant
cannot "engage in unlawful conduct, stop when sued to have the case declared moot, then pick
up where he left off, repeating this cycle until he achieves all his unlawful ends." Already, 565
U.S. at 91; see Knox, 567 U.S. at 307. Here, because Union Defendants acted to comply with Janus
as opposed to acting to avoid an undesirable decision by this Court, the purpose of the voluntarycessation exception would not be served by applying the exception to this case. See Lamberty,
2018 WL 5115559, at *9 (finding the case moot and explaining that the defendants complied with

Janus "not because they wanted to evade the Court's jurisdiction, ... but because the Supreme
Court's new and controlling precedent not only affected the rights of the parties immediately
before it (the state of Illinois) but also announced a broad rule invalidating every state law
permitting agency fees to be withheld"); Yohn, 2018 WL 5264076, at *5 ("Defendants are obviously
changing their behavior because of the holding in Janus and not because of this lawsuit.");

Danielson, 345 F. Supp. 3d at 1339 ("[T]here can be no serious doubt that the policy change was
made because of Janus, not because of this lawsuit, given the timing of the policy change and

14

Plaintiffs, while claiming that the voluntary-cessation exception applies to the facts of this case,
repeatedly refer to Union Defendants' "response to Janus" (see ECF No. 48 at 7-9) and recognize that Union
Defendants stopped collecting fair-share fees "in response to a Supreme Court opinion" (id. at 9). Plaintiffs
thus seemingly recognize that Union Defendants' actions post-Janus were not done to circumvent this
Court's jurisdiction, but were instead done to comply with new law.

39

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 40 of 67

direct reliance on Janus as the stated basis for the change."); see also Marcavage v. Nat'l Park Serv.,
666 F.3d 856,861 (3d Cir. 2012) (dismissing a case as moot because, in part, there was no indication
that the relevant regulatory change "was adopted to avoid an adverse judgment in this case and
[would] be abandoned once [the] case [became] final"); Christian Coal., 355 F.3d at 1292
(acknowledging that the defendant ceased the conduct at issue because of an intervening
Supreme Court decision); Smith v. Univ. of Wash. Law Sch., 233 F.3d 1188, 1194 (5th Cir. 2000)
(finding an issue moot because the relevant policy was clearly changed due to a change in the
law and not due to the pending litigation); Ragsdale, 841 F.2d at 1365-66 ("We believe that the
defendants' now public policy of non-enforcement of the hospitalization requirement,
particularly in view of the reasons therefor (i.e., that enforcement is barred by clear Supreme
Court precedent), moots any challenge to that requirement."). Therefore, the Court will not apply
the voluntary-cessation exception here. See Friends of the Earth, 528 U.S. at 189.
Finally, the voluntary-cessation exception to mootness does not apply to this case because
there is no other reason for this Court to believe that Union Defendants will resume collecting
fair-share fees. For example, Union Defendants do not continue to defend fair-share-fee collection
on the merits. See Knox, 567 U.S. at 307 (declining to dismiss a case as moot because the union
defendant continued to defend the legality of the at-issue fee). Nor have Plaintiffs alleged that
Union Defendants attempted to collect fair-share fees since the Janus decision or that Union
Defendants will resume the collection of fair-share fees.

Instead, Union Defendants have

admitted numerous times before this Court that the collection of fair-share fees is
unconstitutional.

(See ECF No. 41 at 16; ECF No. 51 at 5.) The Court finds that "[iJt is

unreasonable to think that [Union Defendants] would resort to conduct that [they have] admitted
40

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 41 of 67

in writing [is] constitutionally deficient," particularly when doing so would "subject [Union
Defendants] to future litigation that [they] would clearly lose." 15 Carlson v. United Academics, 265
F.3d 778, 786-87 (9th Cir. 2001); see Cook, 364 F. Supp. 3d at 1189 (explaining that the voluntarycessation exception did not apply and the case was moot because the Court saw "no reason to
assume, without evidence, [the union's] willingness to flagrantly violate the law"). Therefore,
the voluntary-cessation exception to the mootness doctrine does not apply in this case. Other
courts have reached the same conclusion in similar cases. See Yohn, 2018 WL 5264076, at *3
(explaining that the case was moot because there was no evidence that the defendants attempted
to collect fair-share fees in violation of Janus); Danielson, 345 F. Supp. 3d at 1339 (dismissing a case
as moot and noting that "there is no evidence that the State has equivocated in its policy change
to discontinue collecting agency fees"); Carey v. Inslee, 364 F. Supp. 3d 1220, 1227 (W.D. Wash.
2019) (finding that a post-Janus policy change rendered claims for injunctive relief moot because

Furthermore, in order to resume the collection of fair-share fees, Union Defendants would need the
assistance of Plaintiffs' public-school employers to deduct the fees from non-members' paychecks.
However, these employers have declared that they have stopped collecting fair-share fees and that they
will not deduct or transmit fair-share fees in the future. (See ECF Nos. 41-3, 41-4, 41-5, 41-6, 41-7.)
"Government officials are presumed to act in good faith." Bridge v. U.S. Parole Comm'n, 981 F.3d 97, 106 (3d
Cir. 1992). The employers' changed behavior, their representations that they will not resume the
unconstitutional collection of fair-share fees, and the presumption that they act in good faith -all combined
with the lack of any allegation that the employers are acting in bad faith-make it unreasonable to expect
that the employers will collect fair-share fees in violation of Janus in the future. See Marcavage, 666 F.3d at
861. Because Union Defendants seemingly cannot collect fair-share fees without the employers' assistance,
the employers' declarations support the conclusion that there is no reason to expect Union Defendants to
resume fair-share-fee collection. And while the employers are not foreclosed from collecting fair-share fees
based on their declarations, as Plaintiffs argue (see ECF No. 48 at 15), Plaintiffs fail to acknowledge the
good-faith presumption and the fact that Plaintiffs have not alleged that the employers are acting in bad
faith and that they will resume collecting fair-share fees. Moreover, Plaintiffs do not explain how Union
Defendants could collect fair-share fees without the employers' assistance. Finally, Plaintiffs offer no other
compelling reason why the good-faith presumption should not apply to the employers in this case. Thus,
the Court finds Plaintiffs' contention that Union Defendants "cannot piggyback off the good-faith
presumption that attaches when government officials cease their unlawful conduct in the midst of a
lawsuit" unpersuasive. (Id.)
15

41

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 42 of 67

there was no evidence that the union had deviated from its new policy, and "it would be highly
illogical for [the union] to revert its practices back to their pre-Janus state unless the Supreme
Court again changed course" because such a reversion "would be inviting litigation by directly
violating a constitutional decree"); see also Grutzmacher, 851 F.3d at 349 (finding a claim moot after
"discem[ing] 'no hint'" that the defendant would reinstitute the challenged policy).
In sum, Plaintiffs' claims seeking declaratory and injunctive relief (ECF No. 62 <JI 55(e)-(o),

(r), (s)) are moot as a result of the Supreme Court's decision in Janus and Union Defendants'
undisputed compliance therewith. 16 The voluntary-cessation exception to the mootness doctrine
does not save these claims from dismissal because (1) Janus changed of the law of the land, (2)
Union Defendants complied with that change in the law, and (3) Plaintiffs have not alleged that
Defendants will resume collecting fair-share fees in the future.
By finding Plaintiffs' claims for declarative and injunctive relief moot, this Court agrees
with various courts around the county who have dealt with this issue in the aftermath of Janus.
These courts have concluded that the lawsuits are moot and that the voluntary-cessation
exception to the mootness doctrine does not apply. See Hartnett, 2019 WL 2160404, at *6-7; Babb

v. Cal. Teachers Ass'n, No. 8:18-cv-00994-JLS-DFM, 2019 WL 2022222, at *4 (C. D. Cal. May 8, 2019);
Wholean v. CSEA SEIU Local2001, 3:18-cv-1008(WWE), 2019 WL 1873021, at *3 (D. Conn. Apr. 26,
2019) (finding similar case moot because "a defendant cannot reasonably be expected to resume

Moreover, the Court agrees with Union Defendants that even if constitutional mootness does not apply
to this case, "dismissal of the requests for injunctive and declaratory relief on ground of prudential
mootness [is] warranted." Marcavage, 666 F.3d at 862 n.l; (see ECF No. 41 at 16 n.2). The Supreme Court's
decision in Janus and Union Defendants' cessation of the collection of fair-share fees in compliance with
that decision has "forestalled any occasion for meaningful [declaratory and injunctive] relief." Int'l Bhd. Of
Boilermakers, Iron Ship Builders, Blacksmiths, Forgers & Helpers v. Kelly, 815 F.2d 912 (3d Cir. 1987) (quoting
Jersey Cent. Power & Light Co. v. New Jersey, 772 F.2d 35,39 (3d Cir. 1985)).

16

42

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 43 of 67

conduct that it acknowledges is contrary to binding precedent" (citation omitted)); Akers v. Md.

State Educ. Assoc., Civil Action No. RDB-18-1797, 2019 WL 1745980, at *5 (D. Md. Apr. 18, 2019)
("[The p]laintiffs' request for injunctive relief is moot because the union's communications are
reliable evidence of a permanent shift in policy and the challenged conduct cannot be reasonably
expected to recur, and declaratory relief is moot because there is no immediate legal
controversy."); Bermudez v. Serv. Emps. Int'l Union, Local 521, Case No. 18-cv-04312-VC, 2019 WL
1615414, at *1 (N.D. Cal. Apr. 16, 2019); Carey, 364 F. Supp. 3d at 1225-27; Lee, 366 F. Supp. 3d at
981-82 (quoting Lamberty, 2018 WL 5115559, at *9); Crockett v. NEW-Alaska, 267 F. Supp. 3d 996,
1002 (D. Alaska 2019) ("Given that it is undisputed that the collection of fair-share fees ceased
immediately after Janus, there is no actual, live controversy sufficient to establish this court's
jurisdiction over [p]laintiffs' claims for prospective relief with respect to fair-share fees."); Cook,
364 F. Supp. 3d at 1188-90 (finding post-Janus claims for declaratory and injunctive relief against
a public-sector union to be moot in light of Janus and the union's compliance with the mandates
of Janus); Danielson v. Am. Fed'n of State, Cty., and Mun. Emps., Council 28, 340 F. Supp. 3d 1083,
1084 (W.O. Wash. 2018) (dismissing the plaintiffs' claims for declaratory and injunctive relief as
moot because "there is no reasonable likelihood that agency fees will be used and collected from
[the p]laintiffs"); Lamberty, 2018 WL 5115559, at *9 (explaining that Janus mooted a challenge to
the constitutionality of agency fees because "there is nothing for [the court] to order [the
d]efendants to do now"); Yohn, 2018 WL 5264076, at *4 (granting the union's motion to dismiss
on mootness grounds after the union complied with Janus); Danielson, 345 F. Supp. 3d at 1340
(finding that Janus mooted a controversy when the State of Washington stopped collecting agency
fees post-Janus); Ladley, No. CIL14-08552, at *20-21, *24 (dismissing a post-Janus challenge as moot
43

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 44 of 67

and rejecting the application of the voluntary-cessation exception).
Plaintiffs' claims seeking declaratory and injunctive relief (ECF No. 62 <_[ SS(e)-(o), (r), (s))
will therefore be DISMISSED.
b. The demands for relief in paragraphs 55(q) and 55(r)(iii) of the
Second Amended Complaint are dismissed for lack of standing.
Plaintiffs and Union Defendants agree that Plaintiffs do not have standing to seek the
relief requested in paragraphs SS(q) and SS(r)(iii) of the Second Amended Complaint. (ECF No.
41 at 17-18; ECF No. 48 at 16.) The Court concurs and thus will DISMISS these requests for relief.
2. Plaintiffs' claim for repayment of previously paid fair-share fees is
dismissed based on the good-faith defense.
In addition to declaratory and injunctive relief, Plaintiffs request that this Court order the
NEA, the PSEA, and all of the PSEA's chapters and affiliates to repay the fair-share fees that
Union Defendants extracted from Plaintiffs and their class members' paychecks, along with preand post-judgment interest. (ECF No. 62 <_[ SS(p).)
Union Defendants seek to dismiss this request for relief. (ECF No. 41 at 18.) Union
Defendants argue that any fair-share fees that they extracted after the Janus decision have already
been repaid with interest, and thus, to the extent Plaintiffs demand reimbursement for post-Janus
extraction, their request is moot. (Id.) Plaintiffs do not appear to challenge this claim of mootness.
The Court agrees that Plaintiffs' claims for post-Janus fair-share-fee reimbursement are moot, as
these fees have undisputedly been repaid (ECF No. 41-1 <[<]I S(b)-(c), 6-11).
In addition/ Union Defendants seek to dismiss Plaintiffs' request for repayment of pre-

Janus fair-share fees. (ECF No. 41 at 18.) Union Defendants contend that the Janus decision is not

44

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 45 of 67

retroactive because they collected the pre-Janus fees in good-faith reliance on Abood and Section
575. (Id. at 18-25.)
In response, Plaintiffs argue that when a defendant asserts a good-faith defense, courts

are required to look to the common-law tort that is most analogous to the situation. (ECF No. 48
at 17.) If, when § 1983 was enacted, the analogous tort allowed for a similar defense, the court
may recognize that defense to a claim for damages under§ 1983. (Id.) Plaintiffs claim that the
most analogous common-law tort in this case is conversion, which never incorporated a goodfaith defense. (Id. at 18.) Thus, according to Plaintiffs, Union Defendants are foreclosed from
asserting a good-faith defense to§ 1983liability.
Plaintiffs also assert that even if the good-faith defense applies in this case, Union
Defendants cannot establish that they reasonably relied on Section 575 and Abood. (Id. at 21-24.)
Nor have Union Defendants proven that they complied with Abood prior to the issuance of the

Janus decision. (Id. at 24-25.)
Finally, Plaintiffs claim that their demand for a refund of previously paid fair-share fees
can be characterized as an equitable claim for restitution or unjust enrichment, as opposed to a
legal claim for damages. (Id. at 25.) According to Plaintiffs, "the union defendants cite no
authority suggesting that their supposed 'good faith' defense should extend to an equitable
demand for restitution." (Id.)
Union Defendants filed a reply brief (ECF No. 51), in which they assert that (1) the
application of the good-faith defense does not tum on the nature of an analogous common-law
tort; (2) if it does, the most analogous common-law torts are abuse of process and interference
with contract, both of which would allow for the assertion of a good-faith defense; and (3)
45

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 46 of 67

Plaintiffs cannot escape the application of the good-faith defense by attempting to characterize
their demand for relief as equitable. (Id. at 7-15.)

a. Legal Standard
Retroactive application of a Supreme Court decision is the general rule: when the Supreme
Court "applies a rule of federal law to the parties before it, that rule is the controlling
interpretation of federal law and must be given full retroactive effect in all cases still open on
direct review and as to all events, regardless of whether such events predate or postdate [the
Court's] announcement of the rule." Harper v. Va. Dep't of Taxation, 509 U.S. 86, 97 (1993).
Reasonable reliance on previously controlling law is not sufficient to overcome this rule of
retroactive application. See Reynoldsville Casket Co. v. Hyde, 514 U.S. 749, 753 (1995).
However, "as courts apply 'retroactively' a new rule of law to pending cases, they will
find instances where that new rule, for well-established legal reasons, does not determine the
outcome of the case." Id. at 758-59. For example, a court may find "a previously existing,
independent legal basis (having nothing to do with retroactivity) for denying [retroactive] relief."

Id. at 759.
In this case, Plaintiffs and Union Defendants dispute whether the good-faith defense to
§ 1983 liability for damages provides an independent legal basis.

suggested

that

this

defense

might

exist

for

private

The Supreme Court first
actors

sued

under

§ 1983 in the 1982 decision of Lugar v. Edmondson Oil Co., Inc., 457 U.S. 922 (1982), in which the

Court stated:
Justice POWELL is concerned that private individuals who innocently make use
of seemingly valid state laws would be responsible, if the law is subsequently held
to be unconstitutional, for the consequences of their actions. In our view, however,
46

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 47 of 67

this problem should be dealt with not by changing the character of the cause of
action but by establishing an affirmative defense. . . . We need not reach the
question of the availability of such a defense to private individuals at this juncture.

ld. at 942 n.23.
The Supreme Court then elaborated on this potential defense in Wyatt v. Cole, 504 U.S. 158
(1992). The Court determined that private individuals threatened with liability under § 1983
cannot take advantage of the qualified immunity that protects government officials. ld. at 159.
However, the Court explained that "principles of equality and fairness may suggest ... that
private citizens who rely unsuspectingly on state laws they did not create and may have no reason
to believe are invalid should have some protection from liability [under § 1983], as do their
government counterparts." ld. at 168. While declining to reach the issue of the existence of such
a good-faith defense because it was not before the Court, the Court also declined to "foreclose the
possibility that private defendants faced with§ 1983liability ... could be entitled to an affirmative
defense based on good faith and/or probable cause." ld. at 169; see also Richardson v. McKnight,
521 U.S. 399,413-14 (1997) (declining to express a view on the availability of a good-faith defense
to liability for private defendants sued under§ 1983).
Although the Supreme Court has never confirmed the existence of a good-faith defense,
numerous circuit courts, applying Lugar and its progeny, have adopted some version of a goodfaith defense for private parties facing§ 1983liability. See Jarvis v. Cuomo, 660 F. App'x 72, 75-76
(2d Cir. 2016); Clement v. City of Glendale, 518 F.3d 1090, 1097 (9th Cir. 2008); Vector Research, Inc.

v. Howard & Howard Att'ys P.C., 76 F.3d 692, 699 (6th Cir. 1996); Jordan v. Fox, Rothschild, O'Brien
& Frankel, 20 F.3d 1250, 1276-77 (3d Cir. 1994); Wyatt v. Cole, 994 F.2d 1113, 1118 (5th Cir. 1993);

Duncan v. Peck, 844 F.2d 1261, 1266-68 (6th Cir. 1988).
47

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 48 of 67

Most importantly for purposes of the present case, the Third Circuit adopted the goodfaith defense for private parties in Jordan v. Fox, Rothschild, O'Brien & Frankel, 20 F.3d 1250 (3d Cir.
1994). In Jordan, the Third Circuit generally approved of the Fifth Circuit's conclusion that
"[p]rivate defendants should not be held liable under § 1983 absent a showing of malice and
evidence that they either knew or should have known of the statute's constitutional infirmity."

Id. at 1276 (quoting Wyatt, 994 F.2d at 1120). However, the Third Circuit added that "'good faith'
gives state actors a defense that depends on their subjective state of mind, rather than the more
demanding objective standard of reasonable belief that governs qualified immunity." Id. at 1277.

b. Discussion
Here, Union Defendants argue in a footnote that it is not clear that Janus would apply
retroactively based on Harper because "the Janus decision did no more than overrule Abood,
reverse the lower courts' order dismissing the complaint, and remand for further proceedings."
(ECF No. 51 at 8.) The Court disagrees. According to Harper, when the Supreme Court applies a
new rule of federal law to the parties before it, other courts must apply that decision retroactively.

Harper, 509 U.S. at 90, 97. The Court in Harper did not explicitly define the circumstances in which
it "applies a rule of federal law to the parties before it," but the Court has explained in other
decisions that a new principle of law is established "either by overruling clear past precedent on
which litigants may have relied or by deciding an issue of first impression whose resolution was
not clearly foreshadowed." Chevron Oil v. Huson, 404 U.S. 97, 106 (1971) (citations omitted);17 see

Reynoldsville Casket, 514 U.S. at 762 (Kennedy,

J., concurring in the judgment). Based on this

Although various parts of Chevron Oil are no longer followed, this Court has no reason to question this
definition of a "new principle of law."
17

48

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 49 of 67

definition, Janus announced a new principle of law. Janus overruled "clear past precedent"

(Abood), announced a new rule regarding the unconstitutionality of fair-share fees, and applied
that rule to the case by reversing the Seventh Circuit's dismissal of the plaintiffs' complaint. See

Janus, 138 S. Ct. at 2460, 2462. Therefore, Haper's retroactivity rule applies to Janus.
However, there is an independent legal basis in this case for otherwise denying retroactive
relief: the good-faith defense available to private parties who are sued under § 1983. See Jordan,
20 F.3d at 1276. Plaintiffs offer numerous arguments against the applicability of the good-faith
defense. The Court addresses each argument in turn.

i.

The Court rejects Plaintiffs' most-analogous-common-law-tort
argument.

Plaintiffs first argue, citing to the Supreme Court's decision in Wyatt, that the good-faith
defense only applies if the most analogous common-law tort would have conferred similar
immunities when§ 1983 was enacted. (ECF No. 48 at 17.) Plaintiffs assert that the most analogous
common-law tort in this case is conversion, a strict-liability tort that does not provide for a goodfaith defense. (ld. at 18.)
The Court rejects Plaintiffs' most-analogous-tort argument because (1) Wyatt and Jordan
do not require comparison to the most analogous common-law tort and (2) the most analogous
common-law tort in this case would allow for a good-faith defense.
First, Wyatt does not require looking to the most analogous common-law tort when
determining whether the good-faith defense applies. In fact, as Plaintiffs point out (see ECF No.
48 at 19), Wyatt did not conclusively resolve the issue of whether a good-faith defense to§ 1983
liability exists at all. Instead, Wyatt's articulation of the most-analogous-common-law-tort rule

49

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 50 of 67

dealt with qualified immunity. Wyatt, 504 U.S. at 164; see Carey, 364 F.Supp.3d at 1229; Babb, 2019
WL 2022222, at *6. The Wyatt court made clear that its holding was limited to the "very narrow"
question of whether private persons can be protected from § 1983 liability based on qualified
immunity. Wyatt, 504 U.S. at 168; see also Mooney v. Ill. Educ. Assoc., 372 F. Supp. 3d 690, 702 (C.D.
Ill. 2019) ("The Supreme Court was clear that 'the precise issue' decided in Wyatt was 'whether

qualified immunity ... is available for private defendants faced with§ 1983liability under Lugar.
The Supreme Court answered in the negative but refused to 'foreclose the possibility that private
defendants ... could be entitled to an affirmative defense based on good faith.' Therefore, all that

Wyatt says about the good-faith defense is dicta." (citations omitted)); Carey, 364 F.Supp.3d at
1229 ("The Court's holding in Wyatt was far narrower, and the dicta far murkier, than Plaintiffs
present it. Justice O'Connor made clear the Court's ruling was limited to the 'very narrow'
question of whether a private defendant could be shielded by qualified immunity.").
Furthermore, when the Wyatt Court suggests that a good-faith defense may be available
to private parties exposed to§ 1983 liability, the Court did not refer to analogous common-law
torts. Instead, the Court discussed the "principles of equality and fairness" that may necessitate
protecting private parties from § 1983 liability. See Wyatt, 504 U.S. at 168. Recent cases have
persuasively discussed how these principles require that private individuals exposed to§ 1983
liability be permitted to assert a good-faith defense, regardless of the common-law tort that is
most analogous to the action. See Mooney, 372 F. Supp. 3d at 703 ("The principles of fairness and
equality underlying the good-faith defense in the § 1983 context demand a private defendant
relying in good faith on a presumptively constitutional statute not be abandoned and exposed
when the law is subsequently held unconstitutional, while the State remains cloaked in sovereign
50

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 51 of 67

immunity and its officials are shielded by the veil of qualified immunity. Quibbles over which
tort as it existed at common law in 1871 is most analogous to the harm wrought by the statute in
question would only undercut these purposes."); Crockett, 367 F. Supp. 3d at 1005 ("[T]he
approach propounded by [the p]laintiffs 'would increase the potential for unfairness by
permitting some defendants that rely on presumptively valid state laws to assert the [good-faith]
defense while other could not, based solely on the elements of various nineteenth-century
common law torts."').
Moreover, when the Third Circuit adopted the good-faith defense in Jordan, the Third
Circuit did not indicate whether the application of the good-faith defense depends on an
analogous common-law tort.

And district court cases applying Jordan have not relied on

common-law-tort analogs. See, e.g., Egervary v. Rooney, No. CIV. A 96-3039, 2000 WL 1160720, at
*6 (E.D. Pa. Aug. 15, 2000); Foster v. City of Phila., Civil Action No. 12-5851, 2014 WL 5821278, at
*21 (E.D. Pa. Nov. 10, 2014).
Therefore, this Court disagrees with Plaintiffs' assertion that "Wyatt compels courts to
look to the most analogous common-law tort, and it allows courts to recognize a defense only if
that tort would have conferred similar immunities when [§] 1983 was enacted." (ECF No. 48 at
17.) The Court agrees with the opinions of various district courts that have determined -when
presented with indistinguishable facts-that the applicability of the good-faith defense does not
require analyzing the most analogous common-law tort. See Mooney, 372 F. Supp. 3d at 703 & n.S;

Babb, 2019 WL 2022222, at *6; Carey, 364 F.Supp.3d at 1229; Crockett, 367 F. Supp. 3d at 1004-5;
Danielson, 340 F. Supp. 3d at 1086.

51

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 52 of 67

Second, even if this Court were required to look to the most analogous common-law tort
when determining whether the good-faith defense applies, conversion is not the most analogous
tort. This is not a case in which "someone ... walk[ed] off with another's property." (ECF No.
48 at 18.) Instead, this case involved Union Defendants compelling Plaintiffs to support particular
speech through the state-created processes found in Section 575. (ECF No. 51 at 12.) Moreover,
it involved Union Defendants' interference with Plaintiffs' contractual right to receive certain
wages from their employers. (Id. at 13.) Therefore, as many district courts have found, the most
analogous common-law tort here is either abuse of process, see Wyatt, 504 U.S. at 164, or tortious
interference with contract. See Crockett, 367 F. Supp. 3d at 1005-6; Carey, 364 F. Supp. 3d at 1230;

Mooney, 372 F. Supp. 3d at 703 n.S; Babb, 2019 WL 2022222, at *6; Cook, 364 F. Supp. 3d at 1191-92;
Danielson, 340 F. Supp. 3d at 1086. Both of these torts would allow for a good-faith defense under
Plaintiffs' most-analogous-tort approach. See Crockett, 367 F. Supp. 3d at 1005-6; Carey, 364 F.
Supp. 3d at 1230; Mooney, 372 F. Supp. 3d at 703 n.S; Babb, 2019 WL 2022222, at *6; Cook, 364 F.
Supp. 3d at 1191-92; Danielson, 340 F. Supp. 3d at 1086.

ii.

Union Defendants objectively reasonably relied on Section 575
and Abood.

Plaintiffs next assert that even if the Court recognizes the applicability of a good-faith
defense, Union Defendants cannot contend that they reasonably relied on Section 575's
constitutionality and the Supreme Court's decision in Abood because "[tjhe Supreme Court had
repeatedly warned the union defendants that it had grave misgivings about the constitutionality

52

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 53 of 67

of public-sector agency shops long before declaring them unconstitutional in Janus." (ECF No. 48
at21.)
The Court disagrees. It is objectively reasonable to rely on a state statute that is valid
under controlling Supreme Court precedent. Regardless of how many times the Supreme Court
questioned its holding in Abood, Abood was the law of the land until it was overturned in Janus.

See Janus v. Am. Fed'n of State, Cty. and Mun. Emps., Council 31, Case No. 15 C 1235, 2019 WL
1239780, at *3 (N.D. Ill. Mar. 18, 2019) ("Despite these statements in Janus [explaining that unions
have been on notice that the constitutionality of fair-share fees was being questioned], prior to
the instant case Abood remained the law of the land."). By relying on this law, Union Defendants
acted in good faith and are entitled to the protection of the good-faith defense as a matter of law.

See Janus, 2019 WL 1239780, at *3; Lee, 366 F. Supp. 3d at 983 ("The facts are undisputed that [the
union] collected fees under the binding precedent of Abood and the subsequent state statutes it
spawned. As a matter of law, therefore, those collections efforts were done in good faith that they
did not violate the United States Constitution."); Carey, 364 F. Supp. 3d at 1232 ("It ... does not
matter how many 'warnings' the Court has given about its intention to overrule Abood. Until it
actually did so, Abood was the law of the land and [the union's] conscious compliance with that
ruling can establish its good faith as a matter of law."); Akers, 2019 WL 1745980, at *5 (explaining
that the plaintiffs could assert a good-faith defense because they complied with and relied on
presumptively-valid state law and controlling Supreme Court precedent); Wholean, 2019 WL
1873021, at *3; Mooney, 372 F. Supp. 3d at 706; Bermudez, 2019 WL 1615414; Hough v. SEIU Local

521, Case No. 18-cv-04902-VC, 2019 WL 1785414, at *1 (N.D. Cal. Apr. 16, 2019); Crockett, 367 F.
Supp. 3d at 1006-7.
53

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 54 of 67

To conclude otherwise would undermine the equitable foundation of the good-faith
defense. See Wyatt, 504 U.S. at 168 (explaining that "principles of equality and fairness" may
suggest the existence of a good-faith defense for private parties facing liability under § 1983); see

also Cook, 364 F. Supp. 3d at 1192 (explaining that holding a union liable for damages "because
certain Justices had expressed doubt about Abood's reasoning would be unworkable and highly
inequitable"); Babb, 2019 WL 2022222, at *7 ("[I]n the qualified immunity context, state officials
are entitled to rely on Supreme Court precedent even if the precedent's reasoning has been
questioned; applying a higher standard to private individuals would be inequitable."); Crockett,
367 F. Supp. 3d at 1006 (discussing the inequity of holding the union defendants liable for pre-

Janus fair-share fees when they collected the fees in accordance with state law and then-binding
Supreme Court precedent).
Furthermore, Plaintiffs allege that Union Defendants expected the Supreme Court to
overrule Abood in Janus. (ECF No. 62 <JI 33.) But, as one court has explained, "such an expectation
cannot produce subjective belief in unconstitutionality when the defendant is also aware that the
prior holding has not been overruled." Carey, 364 F. Supp. 3d at 1229; see Babb, 2019 WL 2022222,
at *7. 18 Assuming this allegation is true, it does not change the reasonableness of relying on
Section 575 and Abood-the law as it existed when Union Defendants collected the fair-share
fees-rather than any individuals' subjective beliefs about how the law might change in the
future. See Lee, 366 F. Supp. 3d at 982-83 ("Even if an employee strongly belied that Abood was

Other courts have discussed various problems with Plaintiffs' argument which this Court will not repeat
but incorporates herein. See Danielson, 340 F. Supp. 3d at 1086-8; Carey, 364 F. Supp. 3d at 1231; Cook, 364
F. Supp. 3d at 1192-93; Babb, 2019 WL 2022222, at *7; Mooney, 372 F. Supp. 3d at 706; Crockett, 367 F. Supp.
3d at 1007; Janus, 2019 WL 1239780, at *3.
18

54

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 55 of 67

wrongly decided, it would not make reliance on that decision any less good-faith reliance. Rather,
regardless of personal opinions, individuals are entitled to rely upon binding United States
Supreme Court precedent.").
Thus, it was objectively reasonable for Union Defendants to rely on Section 575 and Abood
before the Supreme Court's decision in Janus.

iii.

Union Defendants need not prove that they complied with
Abood.

Plaintiffs next assert that, in order to establish their good-faith defense, Union Defendants
must prove that they complied with Abood in terms of how they spent the collected fair-share fees
prior to Janus. (ECF No. 48 at 24-25.) Plaintiffs claim that compliance with Abood is a factual
question that cannot be resolved on a Rule 12(b)(6) motion.
The Court rejects this argument. Union Defendants' good-faith defense depends on
whether the unconstitutional conduct alleged in the Second Amended Complaint-the collection
of fair-share fees-was done in good faith. See Mooney, 372 F. Supp. 3d at 706. It does not depend
on whether Union Defendants' other actions-including the spending of the collected fees-were
done in good faith. See id. The Court will not allow the Second Amended Complaint to survive
a motion to dismiss so Plaintiffs can establish facts that are unrelated to Union Defendants' goodfaith defense. Other district courts have reached the same conclusion in indistinguishable cases.

See, e.g., Babb, 2019 WL 2022222, at *7-8; Carel), 364 F. Supp. 3d at 1232; Mooney, 372 F. Supp. 3d at
705-6; Lee, 366 F. Supp. 3d at 983; Crockett, 367 F. Supp. 3d at 1007.

55

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 56 of 67

iv.

The relief Plaintiffs seek sounds in law, not equity.

Finally, Plaintiffs argue that the relief they seek can be characterized as equitable and that
the good-faith defense does not apply to claims seeking relief in equity. (ECF No. 48 at 25-26.) In
response, Union Defendants assert that Plaintiffs do not allege that the previously collected fairshare fees were kept in a specific fund against which a constructive lien could be enforced. (ECF
No. 51 at 14-15.) Thus, Union Defendants explain that if Plaintiffs have a claim for the repayment
of fair-share fees, that claim is a personal claim against Union Defendants' general assets which
sounds in law instead of in equity. (Id.)
As the Supreme Court has explained, a plaintiff's claim sounds in law if he seeks to impose
personal liability on a defendant to pay a sum of money. Great-West Life & Annuity Ins. Co. v.

Knudson, 534 U.S. 204,213 (2002). In contrast, a claim sounds in equity "where money or property
identified as belonging in good conscience to the plaintiff could clearly be traced to particular
funds or property in the defendant's possession." Id. "But where 'the property [sought to be
recovered] or its proceeds have been dissipated so that no product remains, [the plaintiff's] claim
is only that of a general creditor,' and the plaintiff 'cannot enforce a constructive trust of or an
equitable lien upon other property of the [defendant]."' Id. (alterations in original) (citation
omitted). Moreover, restitution claims seeking money are generally legal claims. See Knudson,
534 U.S. at 210; Gidley v. Reinhart Foodservice, L.L.C., No. 4:14-cv-0800, 2015 WL 1136447; at *5 (M.D.
Pa. Mar. 12, 2015) ("Plaintiff requests only monetary reliet which is clearly not equitable in nature

.... "); Dastgheib v. Genentech, Inc., 457 F. Supp. 2d 536, 544 (E.D. Pa. 2006).
The Court finds that Plaintiffs seek a legal remedy as opposed to an equitable remedy.

56

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 57 of 67

Plaintiffs' claim for the repayment of previously paid fair-share fees seeks monetary relief,
which sounds in law unless that money can be clearly traced to particular funds or property
possessed by Union Defendants. See Knudson, 534 U.S. at 210; Dastgheib, 457 F. Supp. 2d at 544.
The face of Plaintiffs' Second Amended Complaint makes clear that Plaintiffs seek the repayment
of previously paid fair-share fees not from "particular funds or property in the defendant's
possession," Knudson, 534 U.S. at 213, but from Union Defendants' general assets. Specifically,
Plaintiffs fail to allege that the fair-share fees they paid are being held by Union Defendants in a
specific fund. Also, Plaintiffs seek to have Union Defendants repay the fair-share fees that were
paid directly to the Union and fees that were directed to union-approved charities. (ECF No. 62 'll'll
24, 26, 55(p).) Union Defendants either never possessed the fees that were directed to charities or
they possessed those fees originally but now no longer have them in their possession. Because
Plaintiffs seek recovery of funds that Union Defendants no longer have in their possession,
Plaintiffs seek recovery from Union Defendants' general assets.
Moreover, as district courts have explained in comparable cases, the crux of Plaintiffs'
Second Amended Complaint is that Union Defendants used collected fees to fund union activities
pursuant to Section 575 and thus that Plaintiffs could not recover the specific funds that they paid
to Union Defendants. See Mooney, 372 F. Supp. 3d at 700 (noting "the presupposition in cases like
the one at hand" that" all identifiable money was used to fund union activities and, consequently,
has already been dissipated"}; Carey, 364 F. Supp. 3d at 1232-33 ("Here, Plaintiffs' entire case is
premised on [the union] taking their money and using it to fund union activities.

This

presupposes that Plaintiffs' money could not 'clearly be traced,' meaning restitution cannot 'lie
in equity."' (citation omitted}}; Crockett, 367 F. Supp. 3d at 1006 (finding, at the motion-to-dismiss
57

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 58 of 67

stage, that the fair-share fees at issue "paid for ongoing costs of representation the Union
Defendants provided on [the plaintiffs'] behalf" and that "[t]here is no segregated fund to which
Plaintiffs' payments can now be traced, and therefore any relief would be paid from the Union
Defendants' general assets"); Babb, 2019 WL 2022222, at *8 (same).
Therefore, regardless of Plaintiffs' attempt to characterize its claim as equitable, Plaintiffs'
claim for the repayment of previously paid fair-share fees is a claim for legal relief. See Carey, 364
F. Supp. 3d at 1232 ("A plaintiff may not circumvent qualified immunity or the good faith defense
simply by labeling a claim for legal damages as one for equitable restitution."). Thus, the Court
rejects Plaintiffs' argument that the good-faith defense cannot apply because Plaintiffs' claim can
be characterized as equitable. This conclusion comports with various district-court decisions on
this issue. See Carey, 364 F. Supp. 3d at 1232-33; Mooney, 372 F. Supp. 3d at 700-1; Babb, 2019 WL
2022222, at *8, Crockett, 367 F. Supp. 3d at 1006.

v.

Union Defendants are entitled to assert the good-faith defense as
a matter of law.

After rejecting Plaintiffs' various arguments against Union Defendants' good-faith
defense, the Court finds that the good-faith defense applies to Plaintiffs' claims for repayment of
previously paid fair-share fees as a matter of law.
In Jordan, the Third Circuit explained that "'good faith' gives state actors a defense that
depends on their subjective state of mind, rather than the more demanding standard of
reasonable belief that governs qualified immunity." Jordan, 20 F.3d at 1277.
Here, it was objectively reasonable for Union Defendants to rely on a state statute that was
constitutional under controlling Supreme Court precedent when collecting fair-share fees from

58

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 59 of 67

Plaintiffs. By establishing objective reasonableness as a matter of law, Union Defendants have
met the less demanding subjective standard articulated by the Third Circuit in Jordan. Union
Defendants are therefore entitled to the dismissal of Plaintiffs'§ 1983 claim to the extent Plaintiffs
seek repayment of pre-Janus fair-share fees.
3. The Court declines to exercise supplemental jurisdiction over Plaintiffs'
state-law claims.
Plaintiffs bring state-law tort claims against Defendants, including for conversion,
trespass to chattels, replevin, unjust enrichment, and restitution. (ECF No. 62

<JI:

54.) Plaintiffs

urge this Court to exercise supplemental jurisdiction over these state-law claims. (Id.)
"In any civil action of which the district courts have original jurisdiction, the district courts
shall have supplemental jurisdiction over all other claims that are so related to claims in the action
within such original jurisdiction that they form part of the same case or controversy under Article
III of the United States Constitution." 28 U.S.C. § 1367(a). However, "district courts may decline

to exercise supplemental jurisdiction over a claim under subsection (a) if- ... the district court
has dismissed all claims over which it has original jurisdiction." Id. § 1367(c)(3). "If it appears
that the federal claim is subject to dismissal under F.R.Civ.P. 12(b)(6) or could be disposed of on
a motion for summary judgment under F.R.Civ.P. 56, then the court should ordinarily refrain
from exercising jurisdiction in the absence of extraordinary circumstances."

Tully v. Mott

Supermarkets, Inc., 540 F.2d 187, 196 (3d Cir. 1976).
As explained previously, this Court will dismiss Plaintiffs' claims under 42 U.S.C. § 1983
and 28 U.S. C.§ 2201. Therefore, all the claims over which this Court has original jurisdiction will
be dismissed. And the Court finds no "extraordinary circumstances" in this case that justify

59

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 60 of 67

exercising supplemental jurisdiction over the remaining state-law claims.

This Court thus

declines to exercise supplemental jurisdiction over Plaintiffs' state-law claims, and these claims
will be dismissed. See Mooney, 372 F. Supp. 3d at 708-9 (declining, in comparable case, to exercise
supplemental jurisdiction over state-law claims after all federal claims were dismissed); Akers,
2019 WL 1745980, at *8 (same); Wholean, 2019 WL 1873021, at *4 (same).
Because the Court declines to exercise supplemental jurisdiction over these claims, the
Court will not address Defendants' various arguments as to why the state-law claims should be
dismissed under Rule 12(b)(6). (See ECF No. 41 at 30.)

4. The Court will dismiss Ms. Ziegler and CREA.
Finally, Union Defendants claim that Ms. Ziegler retired from teaching on June 5, 2013.
(Id.) Thus, she has not paid any fair-share fees since 2013. (Id.) According to Union Defendants,

Ms. Ziegler has no standing to seek prospective or retrospective relief because (1) she is not
threatened with any injury that the Second Amended Complaint seeks to enjoin, and (2) any fees
she previously paid were paid beyond the two-year statute of limitations period applicable to the

§ 1983 and tort claims. (Id. at 31.) Moreover, Union Defendants argue that Defendant CREA must
be dismissed because only Ms. Ziegler alleged claims against it. (Id.)
In response, Plaintiffs claim that issues regarding the statute of limitations go to the merits
as opposed to a plaintiff's standing. (ECF No. 48 at 28.) And while Plaintiffs do not dispute that
Ms. Ziegler retired in 2013, Plaintiffs explain that Ms. Ziegler was recently notified by the union
that her previously paid fair-share fees were sitting in an account waiting to be donated. (ld. at
28-29.)

According to Plaintiffs, Ms. Ziegler wants to ensure that if those funds cannot be

recovered, they are sent to a charity of her choice. (Id. at 29.) Plaintiffs further assert that CREA
60

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 61 of 67

should not be dismissed because Plaintiffs sue CREA as a representative of the PSEA' s local
chapters and affiliates. (Id.)
Even if the Court had not already dismissed Plaintiffs' claims against Union Defendants
on mootness and good-faith grounds, the Court would still dismiss Ms. Ziegler's claims. Ms.
Ziegler has no standing to seek declaratory and injunctive relief, and the two-year statute of
limitations bars her claim for damages.
"Standing is a jurisdictional matter." Davis v. Wells Fargo, 824 F.3d 333, 346 (3d Cir. 2016).
"Absent Article III standing, a federal court does not have subject matter jurisdiction to address
a plaintiff's claims, and they must be dismissed." Taliaferro v. Darby Twp. Zoning Bd., 458 F.3d
181, 188 (3d Cir. 2006) (citing Storino v. Borough of Point Pleasant Beach, 322 F.3d 293, 296 (3d Cir.
2003)).
As the Third Circuit recently noted,
The Supreme Court's well-known standing test sets forth an "irreducible
constitutional minimum" of three elements that a plaintiff must satisfy: (1) "the
plaintiff must have suffered an injury in fact-an invasion of a legally protected
interest which is (a) concrete and particularized, and (b) actual or imminent, not
conjectural or hypothetical/' (2) "there must be a causal connection between the
injury and the conduct complained of-the injury has to be fairly ... trace[ able] to
the challenged action of the defendant, and not ... th[e] result [of] the independent
action of some third party not before the court[,]" and (3) "it must be likely, as
opposed to merely speculative, that the injury will be redressed by a favorable
decision." Lujan v. Defenders of Wildlife, 504 U.S. 555, 560-61 (1992).

Manuel v. NRA Grp. LLC, 722 F. App'x 141, 145 (3d Cir. 2018) (alteration in original).
Here, Ms. Ziegler seeks declaratory and injunctive relief and the repayment of previously
paid fair-share fees.
With regard to Ms. Ziegler's claims for declaratory and injunctive relief, Plaintiffs do not

61

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 62 of 67

contest that Ms. Ziegler lacks standing to pursue these claims. Nor could they. It is undisputed
that Ms. Ziegler is no longer a public-school teacher and that she has not been required to pay
fair-share fees since 2013. 19 (ECF No. 62 <['i[ 23, 27; ECF No. 41-2 'i['JI 5-7; ECF No. ECF No. 48 at
28.) Thus, there is no imminent, concrete threat that Ms. Ziegler will be subjected to the
unconstitutional collection of fair-share fees. See McNair v. Synapse Grp. Inc., 672 F.3d 213,223 (3d
Cir. 2012) ("When ... prospective relief is sought, the plaintiff must show that he is 'likely to
suffer future injury' from the defendant's conduct."); Khodara Envtl., Inc. v. Blakey, 376 F.3d 187,
193-94 (3d Cir. 2004) (explaining that when pursuing a declaratory judgment, "a plaintiff has
Article III standing if 'there is a substantial controversy, between parties having adverse legal
interests, of sufficient immediacy and reality to warrant the issuance of a declaratory judgment"'
(quoting St. Thomas-St. John Hotel & Tourism Ass'n v. Virgin Islands, 218 F.3d 232, 240 (3d Cir.
2000))). Because Ms. Ziegler is not facing any imminent injury, declaring fair-share fees to be
unconstitutional or enjoining Union Defendants from collecting those fees from Ms. Ziegler
would not redress anything.
Next, with regard to the repayment of previously paid fair-share fees, Ms. Ziegler has
standing to assert such a claim. According to the Second Amended Complaint, she suffered a
concrete injury

fair-share fees were deducted from her paycheck due to Union Defendants'

conduct. If the Court were to order Union Defendants to repay those fees to Ms. Ziegler, her
injury would be redressed. Thus, she has standing to assert the § 1983 claim to the extent she
seeks the repayment of previously paid fair-share fees.

Because standing is a jurisdictional issue that is raised pursuant to a Rule 12(b)(1) motion, the Court may
consider the Declaration of Nadine Glass (ECF No. 41-2) as part of Union Defendants' factual challenge to
Ms. Ziegler's standing. See supra note 10.
19

62

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 63 of 67

Union Defendants argue that Ms. Ziegler does not have standing to seek repayment of
previously paid fees because those fees were collected beyond the applicable two-year statute-oflimitations period. (ECF No. 41 at 31.) However, standing and the statute of limitations are two
distinct concepts that must be raised in different ways. While standing is a jurisdictional matter
than can be raised through a Rule 12(b)(1) motion, the statute of limitations is an affirmative
defense that is generally raised in the defendant's answer. Compare Fed. R. Civ. P. 12(b)(1)
(allowing a party to assert lack of subject-matter jurisdiction by motion), with Fed. R. Civ. P. 8(c)
(stating that a party must state a statute-of-limitations defense in his responsive pleading), and

Robinson v. Johnson, 313 F.3d 128, 134-35 (3d Cir. 2002) (explaining that the defendant must
generally assert available affirmative defenses, including the statute of limitations, in his answer).
Thus, to the extent Union Defendants attempt to use Rule 12(b)(1) to preemptively raise a statuteof-limitations defense, the Court rejects this approach.
Union Defendants then imply that if the statute-of-limitations defense is not considered
under Rule 12(b)(1), the Court may consider the issue under Rule 12(b)(6). Generally, a defense
based on the statute of limitations cannot be raised with a Rule 12(b)(6) motion unless the face of
the complaint reveals that the applicable statute of limitations would bar the claims. Webb v.

Susquehanna Twp. Sch. Dist., 93 F. Supp. 3d 343, 349 (M.D. Pa. 2015) (citing Robinson, 313 F.3d at
135; Frasier-Kane v. City of Phila., 517 F. App'x 104, 107 n.1 (3d Cir. 2013)). Here, the Second
Amended Complaint simply indicates that Ms. Ziegler is retired -it does not say when she
retired. Thus, this Court cannot conclusively determine that the applicable two-year statute of
limitations would bar Ms. Ziegler's claim for repayment of fair-share fees based on the face of the
Second Amended Complaint.
63

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 64 of 67

In seeming anticipation of this conclusion, Union Defendants suggest that the Court treat
Union Defendants' Motion to Dismiss as a motion for summary judgment and consider a
declaration filed by Union Defendants. (ECF No. 41 at 31 n.8.) The declaration indicates that Ms.
Ziegler retired on June 5, 2013, and that she has not been required to pay fair-share fees since her
retirement. (ECF No. 41-2116-7.)
Plaintiffs do not contest the facts in the declaration. (ECF No. 48 at 28.) However,
Plaintiffs oppose summary judgment against Ms. Ziegler because she was "recently" notified by
the union that her fair-share fees were sitting in an account waiting to be donated. (Id. at 28-29.)
According to Plaintiffs, Ms. Ziegler wants to ensure that those funds are at least sent to a charity
she chooses instead of being diverted to the union. (Id. at 29.) "[P]laintiffs believe it would be
premature to dismiss Ms. Ziegler from the case, even if the Court concludes that she cannot
recover damages or restitution from the union given the statute of limitations." (Id.)
The Court agrees with Union Defendants. Rule 12(d) allows a court to treat a motion
under Rule l2(b)(6) as a motion for summary judgment if matters outside the pleadings are
presented to and not excluded by the court. See Fed. R. Civ. P. 12(d). Although this kind of
treatment is generally not warranted if the parties have not yet conducted discovery, see Black v.
N. Hills Sch. Dist., Civil Action No. 06-807, 2007 WL 2728601, at *1 (W.O. Pa. Sept. 17, 2007), the

Court finds that treating Union Defendants' Motion to Dismiss as a motion for summary
judgment as to the discrete issue of whether the statute-of-limitations defense bars Ms. Ziegler's
claim for damages is appropriate under the particular circumstances of this case because (1)
Plaintiffs explicitly state that they do not contest the outside evidence introduced by Union

64

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 65 of 67

Defendants, and (2) Plaintiffs do not oppose treating Union Defendants' Motion to Dismiss as a
motion for summary judgment as to this issue. 20 (See ECF No. 48 at 28.)
The Court finds that summary judgment is warranted on Ms. Ziegler's claim for monetary
damages. The parties do not dispute the applicability of a two-year statute of limitations. And,
based on the undisputed facts that Ms. Ziegler retired on June 5, 2013, and did not pay fair-share
fees after that date (ECF No. 41-2 <JI<JI 6-7; ECF No. 48 at 28), the statute of limitations required Ms.
Ziegler to bring her claim for monetary damages before June 5, 2015. The present lawsuit was
filed on June 15,2018. (See ECF No.1.) Ms. Ziegler's claim for repayment of previously paid fairshare fees is thus barred by the statute of limitations, and Union Defendants are entitled to
judgment as a matter of law on Ms. Ziegler's claim for repayment of previously paid fair-share
fees. See Fed. R. Civ. P. 56 (explaining that a court shall grant summary judgment if the movant
shows that there is no genuine dispute as to any material fact and the movant is entitled to
judgment as a matter of law).
Plaintiffs do not seem to contest the foregoing analysis. Instead, Plaintiffs simply oppose
summary judgment because Ms. Ziegler wants to ensure that her previously paid fair-share fees
are sent to the charity of her choice. (ECF No. 48 at 29.) Plaintiffs thus "believe it would be
premature to dismiss Ms. Ziegler from the case, even if the Court concludes that she cannot

Moreover, although notice to the parties is generally required before the Court may exercise its discretion
and treat a motion to dismiss as a motion for summary judgment, see Fed. R. Civ. P. 12(d); Black, 2007 WL
2728601, at *2 n.2, a review of Union Defendants' request that this Court convert the Motion to Dismiss into
a motion for summary judgment (ECF No. 41 at 31 n.8) and Plaintiffs' acknowledgement of and response
to this request (ECF No. 48 at 28-29) convinces this Court that Plaintiffs have been given a "reasonable
opportunity to present all the material that is pertinent to the motion," Fed. R. Civ. P. 12(d), and have
declined to present such material. See PAPCO, Inc. v. United States, 814 F. Supp. 2d 477,483 (W.O. Pa. 2011);
Kurta v. Borough of Glassport, Civil Action No. 10-195,2010 WL 1664907, at *2 (W.O. Pa. Apr. 23, 2010).
2o

65

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 66 of 67

recover damages or restitution from the union given the statute of limitations." (Id.)
The Court disagrees. Because Ms. Ziegler's claims for declaratory and injunctive relief
must be dismissed, and because Union Defendants are entitled to summary judgment on Ms.
Ziegler's claims for monetary damages, it is not premature to dismiss Ms. Ziegler from this
lawsuit. Ms. Ziegler can utilize the procedures the union has to donate her previously paid fairshare fees to the charity of her choice.
Because Ms. Ziegler is the only Plaintiff to assert claims against CREA, dismissal of Ms.
Ziegler's claims mandates that CREA be dismissed as well.

VI.

Conclusion
In summary, Commonwealth Defendants and Union Defendants' Motions to Dismiss

will be GRANTED. All claims in Plaintiffs' Second Amended Complaint will be DISMISSED
WITHOUT PREJUDICE excluding Plaintiffs' claims for the repayment of previously-paid fair-

share fees. Those claims will be DISMISSED WITH PREJUDICE because amendment of those
claims would not cure the aforementioned deficiencies.
An appropriate order follows.

66

Case 3:18-cv-00128-KRG Document 73 Filed 07/08/19 Page 67 of 67

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA
ARTHUR DIAMOND, on behalf of himself )
)
and others similarly situated, et al.,

Case No. 3:18-cv-128

)

Plaintiffs,

)

JUDGE KIM R. GIBSON

)

)

~

)

PENNSYLVANIA STATE EDUCATION
ASSOCIATION, et al.,

)
)
)

Defendants.

)
ORDER

NOW, this 8th day of July, 2019, upon consideration of Union Defendants' Motion to
Dismiss (ECF No. 40) and Commonwealth Defendants' Motion to Dismiss (ECF No. 38), and for
the reasons set forth in the accompanying Memorandum Opinion, IT IS HEREBY ORDERED
that Union Defendants' Motion to Dismiss is GRANTED and Commonwealth Defendants'
Motion to Dismiss is GRANTED. Plaintiffs' Second Amended Complaint (ECF No. 62) is
DISMISSED WITHOUT PREJUDICE, excluding Plaintiffs' claims for the repayment of
previously paid fair-share fees, which are DISMISSED WITH PREJUDICE.

BYTHECOURT

~K~

KIM R. GIBSON
UNITED STATES DISTRICT JUDGE

APPENDIX D

Case: 19-2812

Document: 78

Page: 1

Date Filed: 10/30/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
___________
Nos. 19-2812 and 19-3906

ARTHUR DIAMOND, on behalf of himself and others similarly situated;
JEFFREY SCHAWARTZ; SANDRA H. ZIEGLER, on behalf of themselves
others similar situated; MATTHEW SHIVELY; MATTHEW SIMKINS;
DOUGLAS R. KASE; JUSTIN BARRY,
Appellants in case no. 19-2812
v.
PENNSYLVANIA STATE EDUCATION ASSOCIATION;
CHESTNUT RIDGE EDUCATION ASSOCIATION,
as representative of the class of all chapters and
affiliates of the Pennsylvania State Education Association;
NATIONAL EDUCATION ASSOCIATION; JOSH SHAPIRO,
in his official capacity as Attorney General of Pennsylvania;
JAMES M. DARBY; ALBERT MEZZAROBA; ROBERT H. SHOOP, JR.,
in their official capacities as chairman and members of the Pennsylvania
Labor Relations Board; LESLEY CHILDER-POTTS, in her official capacity
as district attorney of Bedford County, and as representative of the class
of all district attorneys in Pennsylvania with the authority to prosecute violations
of 71 Pa. Stat. 575

JANINE WENZIG and CATHERINE KIOUSSIS,
Appellants in case no. 19-3906
v.
SERVICE EMPLOYEES INTERNATIONAL UNION LOCAL 668

(D.C. Nos.: 3:18-cv-00128 and 1:19-cv-01367)

Case: 19-2812

Document: 78

Page: 2

Date Filed: 10/30/2020

SUR PETITION FOR REHEARING

Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, Jr., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS, RENDELL,* and FISHER*,† Circuit Judges

The Joint Petition for Rehearing En Banc filed by Appellants in the above-entitled
case having been submitted to the judges who participated in the decision of this Court
and to all the other available circuit judges of the circuit in regular active service, and no
judge who concurred in the decision having asked for rehearing, and a majority of the
judges of the circuit in regular service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc, is denied.

BY THE COURT,
s/ Marjorie O. Rendell
Circuit Judge

Dated: October 30, 2020
Lmr/cc: All Counsel of Record

*
†

The vote for Senior Judge Rendell is limited to panel rehearing only.
The vote for Senior Judge Fisher is limited to panel rehearing only.
2

